<html>
<title> - DEPARTMENT OF DEFENSE APPROPRIATIONS FOR FISCAL YEAR 2014</title>
<body><pre>[Senate Hearing 113-]
[From the U.S. Government Publishing Office]



 
       DEPARTMENT OF DEFENSE APPROPRIATIONS FOR FISCAL YEAR 2014

                              ----------                              


                       WEDNESDAY, APRIL 17, 2013

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 9 a.m., in room SD-192, Dirksen 
Senate Office Building, Hon. Richard J. Durbin (chairman) 
presiding.
    Present: Senators Durbin, Mikulski, Cochran, Alexander, 
Collins, Murkowski, and Coats.

                         DEPARTMENT OF DEFENSE

                       National Guard and Reserve

STATEMENT OF GENERAL FRANK J. GRASS, CHIEF, NATIONAL 
            GUARD BUREAU
ACCOMPANIED BY:
        LIEUTENANT GENERAL WILLIAM E. INGRAM, JR., DIRECTOR, ARMY 
            NATIONAL GUARD
        LIEUTENANT GENERAL STANLEY E. CLARKE, III, DIRECTOR, AIR 
            NATIONAL GUARD


             opening statement of senator richard j. durbin


    Senator Durbin. Good morning. Please be seated.
    Today, the subcommittee meets to receive testimony 
regarding the fiscal year 2014 budget request for the National 
Guard and Reserve components.
    This is my first hearing as chairman of the Defense 
Appropriations Subcommittee. I look forward to working with my 
vice chairman, Senator Cochran, my colleagues on the 
subcommittee, and the Department to ensure that our military 
remains strong as we wind down our mission in Afghanistan and 
tighten defense budgets.
    Let me also say a word about the tragic events in Boston 
this week. They serve as a poignant reminder that the Guard is 
engaged every day serving in the defense of America. More than 
450 guardsmen were on duty, helping with the security of the 
Boston Marathon. By Tuesday, more than 1,000 guardsmen were on 
the ground assisting with security, bomb disposal, 
communications, and transportation.
    I have every confidence that our law enforcement and 
intelligence personnel will bring the perpetrators of this 
horrible crime to justice. But for today's hearing, it is an 
important reminder that our Reserve component is critical in 
defending this Nation at home and abroad.
    From the National Guard, I would like to welcome the Chief 
of the National Guard Bureau, General Frank Grass; Director of 
the Army National Guard, General William Ingram; Director of 
the Air National Guard, General Stanley Clarke.
    And our witnesses from the Reserve include the Chief of the 
Army Reserve, General Jeffrey Talley; Chief of the Navy 
Reserve, Admiral Robin Braun; Commander of the Marine Corps 
Reserve, General Steven Hummer; and Chief of the Air Force 
Reserve, General James Jackson.
    Thank you all for joining us today.
    The National Guard and Reserves are at a moment of 
potentially dramatic change. Through the last 12 years of war, 
you have been called on more than any other time in the history 
of America to deploy into harm's way.
    The men and women serving in your command have performed 
admirably; they have made tremendous sacrifices. As a result, 
the Guard and Reserve have achieved high levels of training, 
readiness, and integration with their Active Duty components. 
The only notion of guardsmen and reservists as ``weekend 
warriors'' has been replaced with guardsmen and reservists who 
signup knowing full well that they will routinely participate 
in critical missions here and abroad.
    There is much discussion in Washington and the Pentagon and 
around Washington about the future size, make up, and mission 
of the Guard and Reserve.
    In a speech at the National Defense University earlier this 
month, Secretary Hagel acknowledged that the size and shape of 
the force needs to be constantly reassessed to include the 
balance between Active and Reserve components.
    I look forward to hearing from our witnesses how the 
Department can best utilize and sustain this new Operational 
Reserve as military forces come out of Afghanistan and the 
Department works to achieve the appropriate mix between Active 
and Reserve components.
    I have seen, firsthand, the value and capability of the 
Guard and Reserve in my State of Illinois. A few examples: 
22,000 Illinois guardsmen have been deployed supporting Iraq 
and Afghanistan, including 9,000 combat deployments.
    Illinois guardsmen have helped establish the no-fly zone 
over Libya and helped secure world leaders at the North 
Atlantic Treaty Organization (NATO) Chicago conference last 
summer.
    The Illinois Guard also responded to Hurricanes Katrina and 
Irene, and a devastating downstate Illinois flood of the 
Mississippi and Ohio Rivers. I am sure my colleagues on this 
subcommittee could share similar stories about the good work at 
their home from guardsmen and reservists.
    As the Guard and Reserves are microcosms of their 
respective services so, too, are their problems. Rising suicide 
rates, sexual assault, equipment shortfalls and, of course, 
sequestration are just some of the current challenges.
    Congress has provided additional equipment funding for the 
Guard and Reserve in each of the last 32 years because year 
after year, the President's budget fails to sufficiently fund 
it. I am certain that today's witnesses agree that without this 
additional funding, our Reserve components would be woefully 
underequipped. It is our duty to the men and women of the Guard 
and Reserve to make sure they are adequately trained and 
equipped.
    I look forward to hearing your perspective on these issues. 
I thank you for your testimony, and your full statements, of 
course, will be included in the record.
    And now, before I turn to the vice chairman, Senator 
Cochran, let me say a word about the prior chairman of this 
Committee, Senator Daniel Inouye.
    He was an extraordinary person, one of my real heroes in 
life. A senator is given a choice to ask colleagues to escort 
him or her to take the oath of office. I have chosen three 
colleagues in the time I have served in the Senate. Dan Inouye 
was one of those. I thought that highly of the man and was 
honored to have him stand by my side when I took the oath of 
office.
    There is a real vacancy in this room and in this chair 
because of his passing. But our Nation is better for it, and 
the Senate is better for his great service to the State of 
Hawaii.
    Senator Durbin. Now, let me turn to the vice chairman, 
Senator Cochran, for his opening remarks.


                   statement of senator thad cochran


    Senator Cochran. Mr. Chairman, before we get to the 
business at hand, I'll note that the Defense Appropriations Act 
for 2013 that was passed last month was the last bill, among 
many annual Defense Appropriations bills that spanned decades, 
which reflect the efforts and leadership of Senator Daniel 
Inouye. The Department of Defense that we have today has his 
unmistakable imprint.
    Chairman Durbin, our new chairman of the Defense 
Appropriations Subcommittee, has approached these 
responsibilities with seriousness of purpose and skill. I look 
forward to continuing working with him as we develop and report 
the appropriations bill to fund the Department of Defense for 
fiscal year 2014.
    Let me join you in welcoming our distinguished panel of 
witnesses this morning to review the budget request submitted 
to the Congress by the administration for the Guard and Reserve 
forces.
    We appreciate the service of all of you in these important 
jobs and undertakings. And especially, we appreciate the 
continued involvement and willingness to serve in a volunteer 
Army, Air Force, Navy, and the other aspects of our branches of 
military service under this new regime of greater dependence 
and, therefore, expectance of state of readiness of our Guard 
and Reserve forces.
    I can recall when I was serving in the Navy, I was a naval 
reserve officer commissioned through the Navy Reserve Officers 
Training Corps (ROTC) program at the University of Mississippi, 
and was pleased to get an assignment on a heavy cruiser 
homeported in Boston. I did not know much about New England, 
having grown up in the Deep South, and gone to college there, 
and all the rest.
    But the Navy expanded quickly my understanding and 
appreciation of a global environment. And also the dangers that 
our country faced with threats from an emerging and more 
militant Soviet Union, and forces around the world that were 
troubling to the confidence that our citizens had in their own 
peace and security.
    But what has allayed those fears, more than anything else, 
has been the presence and the active involvement of a continued 
stream of officers and enlisted men and women who have been 
willing to serve while pursuing their other vocations and 
professions in the Active and Reserve forces of our military.

                           PREPARED STATEMENT

    So we thank you for your leadership. You are the ones who 
are really providing the stimulus, the knowhow, the experience, 
the judgment to be sure that we continue to have the best in 
the world, and can protect our security interests around the 
world and here at home.
    So thank you, and we look forward to your presentation of 
your budget request for the next fiscal year. We will carefully 
review the request, and hopefully report out bills that will 
adequately fund and maintain the readiness that we need.
    Thank you.
    [The statement follows:]

    Mr. Chairman, before we get to the business at hand, I'll note that 
the Defense Appropriations Act for 2013 that was passed last month was 
the last bill, among many annual Defense Appropriations bills that 
spanned decades, which reflect the efforts and leadership of Senator 
Daniel Inouye. The Department of Defense that we have today has his 
unmistakable imprint.
    Chairman Durbin, our new chairman of the Defense Appropriations 
Subcommittee, has approached these responsibilities with seriousness of 
purpose and skill. I look forward to continuing working with him as we 
develop and report the appropriations bill to fund the Department of 
Defense for fiscal year 2014.

    Senator Durbin. Thank you, Senator Cochran.
    As I mentioned earlier, your official statements will be 
made part of the record. We ask now for a brief opening remark, 
and we will start with the Chief of the National Guard Bureau, 
General Frank Grass.

              SUMMARY STATEMENT OF GENERAL FRANK J. GRASS

    General Grass. Chairman Durbin, Vice Chairman Cochran, and 
members of the subcommittee, thank you for the opportunity to 
be here today.
    Chairman, I do want to say thank you for recognizing the 
Massachusetts National Guard in their response, and we have 841 
guardsmen there today. And I think, as you know, everyone 
sitting at this table, and we are so proud of those Reserve 
component folks that live in our communities that are ready to 
deploy and help American citizens at a flash. They just need a 
set of orders, they go to work.
    The National Guard continues to prove its value to America 
by providing combat-ready forces overseas, effective homeland 
defense, and proven lifesaving capabilities to respond to 
natural disasters.
    The difficult fiscal environment we face today comes at a 
time of emerging and increasingly asymmetric and disruptive 
State and non-State, and environmental threats. These 
challenges demand the full capability the National Guard 
currently provides both at home and overseas, and its 
adaptability to meet critical future mission sets including 
cyber and complex catastrophes.
    The National Guard, when called into Federal service, 
rapidly expands the Army and Air Force operational capacity by 
providing trained, equipped, and professionally ready soldiers 
and airmen.
    Over the past decade, National Guard guardsmen have 
deployed more than 750,000 times in support of operations in 
Iraq, Afghanistan, and worldwide contingencies.
    Over the same period, Congress has invested heavily in the 
National Guard, especially through the National Guard and 
Reserve Equipment Account, which has become the lifeblood of 
our efforts in equipping and modernizing our dual purpose 
force.
    The investment Congress has made in the National Guard 
personnel and equipment has resulted in a premiere, homeland 
response force. In the past year, National Guard soldiers and 
airmen responded to more than 100 natural disasters across the 
Nation.
    Additionally, the National Guard continued to assist State, 
Federal, and local authorities with over 2,300 guardsmen 
supporting missions on the Southwest border and counterdrug 
operations across the Nation. We provided 10,200 guardsmen in 
support of a number of national, special security events.
    The National Guard is also valuable and effective in 
providing support to the Combatant Commander's Theater Security 
Cooperation Plans. The State partnership program is a small 
footprint, unique model that provides a high-impact, low-cost 
theater engagement for the combatant commands, and has been in 
existence for over 20 years now.
    We have 65 State partner nations. Forty of our State 
partner nations have provided 31,000 troops for U.N. 
peacekeeping operations worldwide. And over 11,000 troops for 
our efforts in Afghanistan.

                          PREPARED STATEMENTS

    Given the current fiscal challenges and worldwide threats, 
I believe the National Guard must be maintained as an 
operational force. The Guard's current combat capability is an 
economical and critical element of our U.S. national defense 
and provides a strategic hedge against national security risk.
    Thank you, sir, and I look forward to your questions.
    [The statements follows:]
              Prepared Statement of General Frank J. Grass
                            opening remarks
    Chairman Durbin, Ranking Member Cochran, distinguished members of 
the subcommittee; I am honored to appear before you today representing 
more than 460,000 Citizen-Soldiers and Airmen in the Army and Air 
National Guard. The National Guard serves with distinction as the DOD's 
primary Reserve component and as the Governor's force of first choice 
in times of crisis. Each day Citizen-Soldiers and Airmen serving from 
throughout the Nation, its communities, the States, territories, and 
the District of Columbia contribute to our Nation's overseas and 
domestic security objectives. The National Guard stands poised to fully 
implement its authorities, to execute its responsibilities, and to 
build upon its 376-year legacy as an operational force deeply engrained 
within the foundation of American strength and values.
                       always ready, always there
    Over the past decade, the National Guard Bureau has evolved to 
better support a truly operational force. Today that evolution 
continues as the Bureau adapts to support the responsibilities 
concomitant with a position on the Joint Chiefs of Staff. We have 
undertaken an expansive review with numerous stakeholders including the 
States, the Active Army and Air Force, and the Office of the Secretary 
of Defense. Informed by senior leaders and armed with the lessons of 
the force's many overseas deployments and non-federalized stateside 
responses to natural disasters, we have identified enduring priorities 
for the National Guard Bureau.
    A major priority is to ensure that the National Guard is providing 
the best possible capabilities to the Department of Defense. To that 
end, the National Guard Bureau has worked with Congress and the 
Department to improve our most important programs. Recently, new 
guidance, in the form of a DOD Instruction, was promulgated to enhance 
the National Guard's unique State Partnership Program. This innovative, 
low-cost, and small-footprint program leverages funding from other 
programs (such as annual training and DOD's humanitarian assistance 
program) and enhances partner capabilities, advances defense reform 
efforts and achieves greater military interoperability to support U.S. 
security cooperation efforts. Among other benefits, State Partnership 
Program alignments have resulted in joint National Guard and partner 
country deployments in support of multi-national operations in 
Afghanistan. These critical partner-country deployments reduce pressure 
on U.S. forces worldwide and hedge against the need for more direct and 
costly U.S. military involvement in future contingencies. With the 
additional guidance, this program will better support the goals of the 
partner nations, the Combatant Commanders, and our national interests.
    The National Guard Bureau's efforts reflect the Department's 
overall goals of meeting the defense strategic guidance and protecting 
the Nation in a fiscally constrained environment with ever present 
threats. We must deliberately make tough choices and budget accordingly 
during the dynamic and tough fiscal challenges currently facing the 
Department of Defense and the Nation. A core competency of the National 
Guard is to rapidly, robustly, and competently expand the Nation's 
full-spectrum military capability to defend vital national interests in 
the most affordable, lowest risk manner possible. The National Guard 
remains ready--every day, to expand the capacity of the President and 
our Governors to meet the needs of the American people whether shaping 
the security environment, engaging across the world and within our 
communities, or bringing full-spectrum military power during times of 
critical need.
        an operational force for domestic and overseas missions
    Over the last decade, the American people have made a tremendous 
investment in ensuring the National Guard is an operational and 
integral force. There is no question now that National Guard Citizen-
Soldiers and Airmen training, equipment, and capabilities mirror that 
of their Active component counterparts.
    The Department of Defense continues to meet the challenges posed by 
the persistent, evolving, and emerging threats and to engage around the 
world. The operational capabilities of the National Guard are an 
integral aspect of that effort. Both the Army and Air National Guard 
have contributed thousands of soldiers and airmen to Iraq, Afghanistan, 
the Balkans, Guantanamo Bay, Djibouti, the Sinai, and other locations 
across the globe. Today's Citizen Soldier is likely to have deployed at 
least once since 9/11 with an expectation that he or she will deploy 
again. With recruitment and retention rates at record levels, it is 
clear they are able to carry the load.
    Today's fiscal environment requires the Reserve component to be 
maintained as an operational force. This means the National Guard has 
to be trained, ready, and equipped to face the full spectrum of threats 
facing our Nation. The Nation's investment in its National Guard has 
resulted in an operational force that is ready, available, and 
accessible. Throughout history, the National Guard has answered every 
call, participated in every contingency, and supported the full 
spectrum of international responses. As a part-time force that has met 
or exceeded established readiness and proficiency standards, the 
National Guard is a crucial operational asset for future contingencies.
    The National Guard also provides the Governors with an organized, 
trained, and disciplined military capability to rapidly expand the 
capacity of civil authorities responding under emergency conditions. 
Each year, the National Guard responds to a myriad of domestic 
emergencies. In fact, shortly after I assumed duty as the Chief of the 
National Guard Bureau, the National Guard responded to a near-complex 
catastrophe caused by Hurricane Sandy. During those operations nearly 
12,000 Soldiers and Airmen from 21 States responded to calls from their 
Governors for assistance to save lives, clear debris, and perform 
transportation and security missions. Air National Guard aircraft 
hauled personnel and more than 2,160 tons of equipment, food, water, 
and other need supplies during Sandy recovery missions. The response to 
Hurricane Sandy also demonstrated how robust Emergency Management 
Assistance Compacts between Governors enabled States to help each other 
build, rapidly employ and sustain military capabilities tailored to the 
size and kind of disaster. During Hurricane Sandy, these EMACs allowed 
West Virginia National Guard power restoration teams to go into New 
York and expand the capacity of civilian agencies to reconnect and 
restore power there, the beginnings of a critical infrastructure strike 
team concept that begs further development. More recently, thousands of 
Citizen-Soldiers and Airmen from across the Northeast responded to the 
massive blizzard that dumped over 3 feet of snow in some areas.
    Last year alone, the National Guard responded to more than 100 
natural disaster missions. The Air National Guard provided almost 
237,000 duty days in response to floods and dropped more than 2.4 
million gallons of retardant and 1.49 million gallons of water over 
wildfires. The Army National Guard also provided nearly 7,000 Soldiers 
in support of national security events such as the Republican and 
Democratic National Conventions, the G-8 and NATO Summits, and the 
Asian Pacific Economic Cooperation Summit.
    The National Guard quickly and efficiently responds to new 
contingencies, providing a constant presence throughout the homeland. 
The Air National Guard has also been protecting American skies since 
2001, flying more than 5,050 sorties in support of the Aerospace 
Control Alert mission. The National Guard continues to provide support 
to interagency partners along the Southwest border. Since 2010 the 
National Guard has supported U.S. Immigration and Customs Enforcement 
and U.S. Customs and Border Protection to detect, deter, and disrupt 
transnational criminal organizations. The Counterdrug Program also 
provides unique capabilities to local law enforcement agencies to 
enable Federal, State, and local counternarcotics officers to better 
fight transnational organized crime and other national security 
threats.
    As a scalable response force, the National Guard can quickly 
provide lifesaving capabilities to complex catastrophes through Civil 
Support Teams, Chemical, Biological, Radiological, Nuclear Enhanced 
Response Force Packages, and Homeland Response Forces.
    There is a Guard member in nearly every ZIP Code; the National 
Guard links Main Street America to the military. In order ensure the 
DOD is cost effective and connected to the American people, the Army 
and Air National Guard in 50 States, Guam, Puerto Rico, the Virgin 
Islands, and the District of Columbia must remain strong as an 
operational force.
              fiscal responsibility in shaping the future
    The National Guard is dedicated to providing State and Federal 
leaders with an organized, trained, and disciplined military 
capability. As a part-time force, the National Guard is able to provide 
this capability in a cost-effective manner. The National Guard must be 
adequately funded and sized to continue to provide this integral 
operational capability.
    The National Guard provides a cost-effective, proven solution to 
our country's budgetary crisis while helping to ensure our security. 
The National Guard allows the Nation to maintain a robust military 
capability at the least possible cost to the taxpayer and is a viable 
resource for reducing the Department's cost of doing business. 
Maintaining a significant force structure in the National Guard allows 
for a scalable force, able to provide tiered responses at local, State, 
regional or national levels as required by the events themselves. As a 
cost-effective force, the National Guard is able meet steady State 
demands and act as a hedge for unforeseen world events. At any time, 
the National Guard can augment the Active Duty to surge and regenerate 
forces. Adequately funding the National Guard ensures the Department of 
Defense has access to a uniquely agile and skilled force postured to 
embrace new missions outlined in the President's Defense Strategic 
Review. During a time of constrained budgets, using the National Guard 
an operational force will help to ensure the Nation is getting the most 
defense capability at the lowest cost.
                 national guard personnel and readiness
    The Citizen Soldiers and Airmen of the National Guard are our 
greatest asset. I am committed to providing a healthier, more 
resilient, more diverse, and values-based force able to perform the 
most difficult tasks on behalf of our citizens, the States, 
territories, and the Nation. Citizen-Soldiers and Airmen exemplify and 
live by American values and, as a result, are recognized as community 
leaders. Serving out of a sense of civic responsibility, Citizen-
Soldiers and Airmen become the model citizen others strive to emulate. 
Located in over 3,000 communities, the National Guard is the link 
between citizens and their Armed Forces. It is imperative that we 
maintain this high quality of servicemember and continue to support 
those currently serving and attract the best and brightest to join the 
National Guard's ranks.
    Today, every member of the National Guard has joined or re-enlisted 
after 9/11. These Citizen Soldiers and Airmen have gained a vast amount 
of experience over the past decade. They have used that experience to 
defend our Nation overseas, respond to emergencies at home, and 
contribute to their communities. While the National Guard focuses on 
high-quality recruits, it is imperative to retain the hard-earned 
combat-seasoned leaders and servicemembers currently within National 
Guard units. While providing a highly capable force the National Guard 
can continue to maintain cost-effective readiness by regaining talented 
Soldiers, Sailors, Airmen, and Marines returning to their home 
communities following extended periods of Active Duty. This natural 
progression provides the force structure and opportunities needed to 
allow for a continuum of service and strengthening America's Armed 
Forces.
    To maintain this high-quality operational force, it is my 
responsibility to provide the highest quality services to the Citizen-
Soldiers and Airmen and their families. I am committed to keeping the 
faith of the All-Volunteer Force which includes caring for our wounded 
warriors, preventing suicides, preventing sexual assault and sexual 
harassment, and aggressively pursuing appropriate disciplinary and 
administrative actions in cases of sexual assault and sexual 
harassment.
    Today, both the Army and Air National Guard are providing care to 
wounded warriors. Through programs like Warrior Transition Units, 
Community-Based Warrior Transition Units, and the Air National Guard 
Wounded Warrior program, servicemembers are getting professional 
support and assistance from the point of injury to life after 
separation or retirement.
    The National Guard has taken significant steps to prevent suicides. 
Resiliency training and the Applied Suicide Intervention Skills 
Training program are working to recognize individuals in crisis, 
intervene to keep them safe, and refer them to the help they need. The 
National Guard Bureau Joint Surgeon's Office (NGB-JSG) has established 
a National Guard Psychological Health Program. With NGB-JSG guidance, 
the Army and Air Guard have placed licensed behavioral health 
providers, known as State and Wing Directors of Psychological Health 
(S/WDPHs), in every Wing, State and territory. DPHs work for the Wing 
commanders, senior leaders, and others to advise leadership on 
psychological health issues. These counselors also provide immediate 
expertise for Soldiers and Airmen as consultants for individual and 
family psychological issues, offering professional clinical assessments 
and referrals to help navigate complex systems of care. In the last 18 
months, DPHs have provided 14,177 consultations and 2,881 clinical 
referrals. During that same time, DPHs actively mitigated 954 high-risk 
situations; to include suicidal, homicidal, and assault cases.
    Over the last year, the National Guard Bureau has worked with the 
Department of Defense, the Army, the Air Force, and the States to 
redouble our efforts to prevent sexual assault and sexual harassment 
and improve our reporting and response when it occurs. Commanders and 
action officers running the National Guard Sexual Assault Prevention 
and Response Program are committed to creating a command climate that 
encourages victims to report incidents to trained Sexual Assault 
Response Coordinators or hundreds of victim advocates in the Army and 
Air National Guard. These trained personnel are available to assist 
National Guard sexual assault victims with their reporting options and 
resources.
    In keeping faith with an All-Volunteer Force, we must support the 
National Guard families that sacrifice with the Soldiers and Airmen. 
The National Guard Bureau created Family Assistance Centers in all 50 
States, three territories, and the District of Columbia to act as 
``one-stop'' shops. These Centers provide information and referral, 
assistance with identification cards and the Defense Eligibility 
Enrollment Reporting System, assistance with TRICARE and dental issues, 
legal assistance, financial issues help, and employment issues referral 
to Employer Support of the Guard and Reserve. The Army and Air National 
Guard are also working to ensure that National Guardsmen can help 
support themselves and their families when they return from 
deployments. To assist returning servicemembers find employment, the 
National Guard has available: the Guard Apprenticeship Program 
Initiative which partners with the Department of Labor Office of 
Apprenticeship to facilitate job skill training opportunities for 
Soldiers and Airmen that enables them to earn national certification in 
chosen occupations; the Job Connection Education Program which improves 
the servicemembers and spouses' ability to research, obtain, and retain 
civilian employment through one-on-one career counseling, job skill 
searching, job fairs, and local employer partnerships; and, the 
Employment Partnership of the Armed Forces which links servicemembers 
and employers to mutually beneficial employment resources and career 
employment opportunities.
                            closing remarks
    As the new Chief of the National Guard Bureau, I want to thank you 
for your continued support of our Citizen-Soldiers and Airmen. I look 
forward to opportunity to work with you throughout my term. I look 
forward to your questions.
                                 ______
                                 
    Prepared Statement of Lieutenant General William E. Ingram, Jr.
                            opening remarks
    Chairman Durbin, Ranking Member Cochran, members of the 
subcommittee; I am honored to appear before you today, representing the 
over 356,000 Soldiers in the Army National Guard. For 376 years Citizen 
Soldiers have been central to how the Nation defends itself at home and 
abroad. Through resolve and readiness, Army National Guard Soldiers 
deliver essential value to our Nation and its communities.
    The men and women of the Army National Guard contribute 
immeasurably to America's security. They have been an integral part of 
the active Army, supporting the National Military Strategy and Army 
commitments worldwide. In more than a decade of fighting two wars, the 
Army National Guard has demonstrated the capacity to conduct every 
mission assigned. Since September 11, 2001, Guard Soldiers have 
completed more than 514,000 mobilizations in support of Federal 
missions. Currently, more than 23,000 members are mobilized at multiple 
locations around the world defending our national interests.
    At the same time, the Army National Guard continues to fulfill its 
centuries-old obligations to the communities in which we live and work. 
Guard Soldiers live in nearly every Zip Code, playing a vital role as 
the military's first responder. In fiscal year 2012 Army Guard members 
served over 447,000 duty days under the control of the Nation's 
Governors responding to domestic emergencies--and that was, 
historically, a slow year. This current fiscal year, which began with 
Hurricane Sandy, will likely post far higher numbers. The training and 
equipment used to ready the Guard for overseas service has paid 
dividends here in the United States; it is the Guard's preparedness for 
war that has made it so effective in responding to domestic 
emergencies.
    Whether at home or abroad, the National Guard lives up to its 
motto--Always Ready, Always There.
    The Army National Guard of 2013 is the best-manned, best-trained, 
best-equipped, best-led and most experienced force in its long history. 
This is a direct result of the resourcing and legal authorities that 
Congress has dedicated to this purpose over the past decade-plus of 
conflict. The Army Guard has used those resources wisely, and is an 
operational force that provides capabilities and strategic depth to 
meet U.S. defense and homeland security requirements. The Army National 
Guard complements the Active component, ensuring the Total Force 
remains capable of providing trained and ready forces in support of the 
Nation's security strategy. As an operational force, the Guard is 
resourced, trained, ready, and used on a continual basis, conducting 
the full spectrum of military operations in all environments as a part 
of the Total Force.
    If there is a single message I could deliver to you today, it would 
be this: it would be a terrible waste of effort and resources to let 
this superb operational force, built at great expense in blood, sweat 
and treasure over a decade of conflict, atrophy as a result of across-
the-board cuts that fail to take into mind the value relative to its 
cost of the Army National Guard in meeting America's national defense 
and domestic response needs.
    It only takes a continued modest investment to maintain an 
operational force when compared to the Strategic Reserve the Nation had 
prior to 9/11. But that investment is more than made up for in the 
added responsiveness, flexibility and readiness resident in a Reserve 
component where 84 percent of the personnel serve in a part-time 
status.
    The past decade of conflict has done much to dispel many of the 
myths associated with the National Guard, its role, capabilities, 
costs, and limitations. As the military enters a period of constrained 
resources and the Services conduct their analysis of the proper mix of 
Active and Reserve forces needed to accomplish national strategic 
goals, the Army National Guard as an operational force offers an 
effective and efficient solution to a wide variety of mission sets.
                          status of the force
    One persistent false impression is that the Army National Guard is 
a ``tired force'' who's Soldiers, families and employers are worn out 
from the strain of more than a decade of conflict. No doubt, there has 
been strain. However, the Guard's Soldiers continue to show a strong 
appetite for service, and the Guard's appeal as a winning team that 
embodies selfless service to both Nation and community continues to 
draw America's youth to its ranks. The Army National Guard recruitment 
rate is 102 percent of goal, while the retention rate stands at over 94 
percent (as of March 29, 2013). Every member of the Army Guard has made 
a conscious decision to continue to serve since September 11, 2001. 
This is a key point, as today's Guard differs from that of the pre-9/11 
period in that today's Soldiers anticipate being deployed abroad in 
service to their country.
    Indeed, nearly 50 percent of the Soldiers in the Army Guard today 
are veterans of a deployment, many having served multiple tours. 
Retaining this core of experience is critical to maintaining an 
operational force, and this year and the next present a particular 
challenge as the large cohort of enlistees that grew the Army National 
Guard in 2007-8 comes due for re-enlistment. While bonuses and 
incentives play an important role in deciding to stay in the Guard, the 
desire for relevant training and utilization at home and abroad drew 
many of these men and women to enlist in the first place, and will play 
a role in their decisions to stay. A key component of the operational 
force is that it sees regular use, through a progressive readiness 
model--such as Army Force Generation--that prepares Soldiers and units 
for deployment every 5 years. This gives Soldiers, their families and 
civilian employers the predictability they need to plan their civilian 
lives and careers, while developing critical military skills exercised 
through tough, realistic training or operational employment.
                             accessibility
    In the 2012 National Defense Authorization Act, the Congress wisely 
increased the degree of access that the military services have to their 
Reserve components for both domestic emergencies and preplanned 
operations. Because the dual Federal-State status of the National Guard 
makes it fully accessible to the States, the additional authority 
granted in title 10, section 12304(a) for domestic emergencies will 
likely not be exercised for the Army National Guard. The authority 
granted in title 10, section 12304(b), however, increases the ways 
Services can access the Reserve components for preplanned missions to 
meet combatant commander requirements. This authority removed one 
impediment from maintaining an operational force that can be flexibly 
employed by combatant commanders as required. An additional benefit to 
this access is the honing of the operational force through continued 
employment. There remain no significant statutory barriers to accessing 
the Army National Guard or any of the other Reserve components for 
either domestic or overseas missions.
    While the National Guard takes great pride in its militia heritage 
and the service it renders to local communities while under the command 
of the Nation's Governors, this dual status does not limit the Federal 
Government's access to Guard units for any mission. By established law, 
the Federal Government takes priority over the States whenever there is 
a need for Guard forces. The needs of domestic response are assured 
through the careful apportionment of essential capabilities to each of 
the States. This, coupled with the proliferation of Emergency 
Management Assistance Compacts among the States, assures that the 
Nation's Governors have access to essential capabilities should their 
own National Guard be deployed or otherwise unable to meet the demand 
for a particular capability during a disaster. By way of example, 21 
States provided National Guard forces to the effected region when 
Hurricane Sandy caused massive damage to coastal New York and New 
Jersey late last year.
    When needed, the Army National Guard has always answered the call--
both at home and abroad.
        an operational force for domestic and overseas missions
    The most immediate advantage of an operational force is its 
readiness to conduct the full spectrum of missions, overseas and 
domestic, when called upon. The Army National Guard has demonstrated 
this capability in full during the conflicts in Iraq and Afghanistan, 
mobilizing units ranging in size from 2-3 man teams to 3,500 man 
Brigade Combat Teams to Division headquarters exercising command and 
control over multiple Brigade Combat Teams and supporting forces. Guard 
BCTs performed every mission in Iraq and Afghanistan that their Active 
component counterparts performed, to include security force, advising 
and training of host nation military and police forces, and full-
spectrum operations in both countries.
    In fiscal year 2012, nearly 25,000 Army National Guard Soldiers 
were deployed in support of a multitude of ongoing missions around the 
world. The vast majority, over 21,000, served in support of Operation 
Enduring Freedom, with others serving in the Horn of Africa; in support 
of Operation Joint Guardian in Kosovo; in support of the Multinational 
Force and Observers in the Sinai; in Honduras; the Philippines; and 
mobilized for operational missions within the United States.
    While this contribution is noteworthy, there is significantly more 
capacity within the Army National Guard should the Nation require. By 
way of recent example, at one point during 2005 over 100,000 Army 
National Guard Soldiers were deployed and 8 of 15 Brigade Combat Teams 
in Iraq were from the Army National Guard. Later that same year, with 
80,000 Army National Guard Soldiers still mobilized overseas, the Army 
Guard surged more than 50,000 Soldiers in the space of a week to deploy 
to the gulf coast in the wake of Hurricane Katrina. In summary: in the 
year in which the Army National Guard experienced its largest 
mobilization since the Korean War, it also experienced the largest 
domestic response in its history. This capacity and capability 
continues to reside in today's Army National Guard, with the ability to 
respond with appropriate notice for overseas missions--or no notice for 
domestic emergencies--when it is resourced as an operational force.
    Response time is a critical consideration when determining the 
right mix of forces to meet planned or unanticipated contingencies. The 
past dozen years of war has demonstrated that even the largest Guard 
formations can be trained to standard, validated and deployed well 
within the timelines required by Combatant Commanders. The experience 
of deploying, and deploying repeatedly, over the past decade has honed 
this training regimen and reduced post-mobilization training time 
considerably since 2003. Many companies complete their post-
mobilization training in approximately 30 days; Army National Guard 
BCTs, large units required to achieve a collective training standard on 
more complex tasks, take a little longer, averaging 50-80 days of post-
mobilization training. Predictability of scheduled deployments is 
preferable for Soldiers, families and civilian employers, and is key to 
maintaining an operational force in the Reserve component. The ability 
of the Army National Guard to respond to worldwide contingencies 
provides tremendous flexibility to the Nation as we seek to achieve 
defense goals with a constrained budget.
                          domestic operations
    In the 2012 calendar year, Citizen Soldiers responded to floods, 
wildfires, tornadoes, hurricanes, and snow storms. The biggest storm of 
2012, Super Storm Sandy, devastated communities along the east coast. 
Guard members from 21 States responded and many remained on duty for 
several weeks. Many who responded live in the communities hardest hit 
by the storm.
    Just a few weeks into 2013, National Guard Soldiers were called up 
to help dig out people in the Northeast, where up to 40 inches of snow 
fell during a weekend storm. Citizen Soldiers were needed to help clear 
roads of snow and tree limbs and to transport people for medical 
treatment. Guard personnel also assisted crews to restore electric 
service to the 650,000 customers who lost power.
    During 2012, the Army National Guard also provided 44,327 duty-days 
of support to special events. Most notably, the Guard served during 
both the Democratic and Republican National Conventions, as well as the 
Asia Pacific Economic Cooperation Summit and the NATO Summit.
    The Army National Guard's support of the Southwest border mission 
was much lower than in previous years. Still, their work spanned the 
1,933-mile border of California, Arizona, New Mexico, and Texas. The 
current Southwest border support focuses on criminal analysis and 
aerial detection and monitoring.
    Army National Guard aviation was particularly active in the 
domestic arena, flying more than 7,880 hours supporting Customs and 
Border Protection and assisting in 13,780 apprehensions and the seizure 
of 82,471 pounds of marijuana. Throughout 2012, Army Guard helicopters 
flew more than 30,880 hours for domestic operations, transported 6,554 
personnel, moved 201,731 pounds of cargo, and dropped nearly 6 million 
gallons of water while extinguishing wildfires.
     support to security cooperation and building partner capacity
    In 2012, the Army National Guard provided approximately 18,575 
Soldiers to support 69 military exercises in 104 countries. The Guard's 
dual mission capability, combined with Soldiers that possess a wide 
variety of civilian, professional, and educational experiences along 
with grassroots community support, ideally positions it to play a 
significant role in global security cooperation.
    Army National Guard partnership capacity-building activities serve 
to deepen and strengthen a foreign nation or region's positive 
perception of the United States as a valued partner, serving to prevent 
future conflicts. Army National Guard security cooperation programs are 
unique because the relative stability of a Guard Soldier's career, in 
most cases in a single State, allow that Soldier to forge enduring 
relationships with their foreign counterparts over long periods of 
time. In some cases, the crucial bonds have been cultivated and 
maintained for more than two decades.
    In 2012, 4,200 Army National Guard Soldiers participated in the 
National Guard Bureau's State Partnership Program (SPP) that includes 
65 partnerships and 2 bilateral agreements with a total of 67 partner 
countries. This program promotes security cooperation activities for 
military-to-military training, disaster response, border and port 
security, medical, and peacekeeping operations.
    This year marks the 20th anniversary of this innovative and highly 
beneficial program, which has yielded immense benefits for the United 
States and partner nations. Administered in cooperation with the U.S. 
Department of State and working hand-in-hand with the Air National 
Guard in each State, SPP is not strictly an Army program. Nevertheless, 
the Army Guard's extensive experience with the State Partnership 
Program, and the worldwide bonds that it has forged, are a vital 
element of the Army's Regional Alignment of Forces concept.
    The commitment of SPP partner countries has been sustained and 
durable--throughout the past decade of conflict. Twenty-seven SPP 
partner countries have deployed alongside Guard Soldiers in Iraq and 
Afghanistan. At the close of fiscal year 2012 there were 20 SPP partner 
countries contributing more than 8,500 troops in Afghanistan.
    Guardsmen possess a range of valuable professional skills and 
expertise acquired as civilians. Within the ranks of the Army National 
Guard are first responders (firefighters, law enforcement, emergency 
medical technicians, and analysts), medical professionals, legal 
professionals, engineers, agricultural specialists, educators, 
mechanics, and plumbers. The combination of these skills civilian 
acquired skills with individual and collective military expertise 
uniquely postures Guard formations to accomplish missions requiring 
smart power skills. A prime example is the innovative Agribusiness 
Development Teams (ADTs) currently employed in Afghanistan.
    Agribusiness Development Teams provide training and advice aimed at 
supplementing current Afghan farming practices by introducing advanced 
techniques and new, profitable crops. These teams are making 
significant contributions to Afghanistan's economy and achieving 
sustainable, yearly growth of the Nation's economic output. As a result 
of the ADTs, Afghanistan has increased harvests of apples, grapes, 
pomegranates, cherries, almonds, wheat, corn, alfalfa, and saffron.
    Since the ADT program was implemented, 49 teams, consisting of 
2,995 personnel, have contributed to more than 680 agriculture projects 
generating more than $42 million for the people of Afghanistan. This 
past month, seven ADTs were serving in Afghanistan. These teams were 
comprised of Soldiers from Kentucky, Indiana, Nebraska, Wisconsin, 
Georgia, Mississippi, and South Carolina--all States with large 
agricultural sectors.
             maintaining the operational force: resourcing
    Resources remain the principal reason why the Army National Guard 
is now an operational force, and will determine whether it stays that 
way. Resources have allowed the Army Guard to reach its authorized end 
strength levels and retain valued experience in the ranks. Resources 
have allowed the Guard to take care of families, promote resiliency, 
and provide post-deployment reintegration services. Resources have 
permitted the Guard to achieve individual and unit proficiency with 
advanced training devices and simulations, attend Army schools, and 
participate in live and constructive exercises at the Army's premier 
training centers. They have allowed the Guard to surge personnel on 
Active Duty in order to better prepare units for scheduled deployments. 
They have equipped the Guard to a higher level of modernized equipment 
on hand than at any time in its history.
    Quite simply, the Army National Guard can only be as ready as it is 
resourced to be. The Guard will achieve desired levels of 
responsiveness if properly resourced--and it will do so by maximizing 
taxpayers' investment in programs directly contributing to Army 
National Guard readiness and a laser-like focus on proper stewardship 
of those funds.
          maintaining the operational force: medical readiness
    Individual Soldier medical readiness is critical to build and 
maintain a ready and relevant operational force. The Guard has made 
great strides in leveraging leadership, best practices, and innovation 
to build efficiencies in how it uses funds, and to improve the accuracy 
in how Soldiers are accounted for, in order to increase medical 
readiness and manage the non-deployable force. Only 41 percent of Army 
National Guard Soldiers were considered fully medically ready in 2007; 
today 79 percent of the Guard is fully medically ready. That is the 
highest percentage of individual medical readiness ever recorded by the 
Army National Guard. Your continued support is essential, as the Army 
Guard strives to attain 85 percent or greater medical readiness by 
December 2014.
  maintaining the operational force: support to soldiers and families
    Soldiers join the Army National Guard for many reasons. One thing 
they all have in common is the desire to serve--a desire to be part of 
a winning team, a force for good in this world. The Army National Guard 
represents this.
    Adequate pay, benefits, training and other incentives play an 
important role for those deciding to enlist or reenlist in the Army 
Guard. Important benefits include Tri-Care Reserve Select, educational 
assistance, commissary access, legal assistance, life insurance, Thrift 
Savings Plan, home loans for veterans, and morale programs such as 
recreation facilities and Space Available travel.
    People are the Guard's most precious resource. Nowhere can the 
Guard demonstrate this principle more strongly than in the effort it 
devotes to suicide prevention. This has been a persistent challenge for 
the Army Guard, since leaders typically only see the majority of their 
Soldiers during a single drill weekend each month. This limits a 
leaders' ability to intervene in a crisis. That's why the Army Guard is 
focusing on training and programs to increase resilience, reduce risk 
and increase leadership awareness. These programs are intended to 
enhance coping skills in Soldiers, their families, and civilian 
workforce--skills with an application to everyday life as well as the 
military.
    The Army National Guard established a Master Resilience Trainer 
(MRT) Course at Fort McCoy, Wisconsin in July 2011, later adding a 
second course, in order to quickly increase the number of fully 
qualified MRTs able to serve their fellow Soldiers. By establishing 
these courses, the Army National Guard expects to meet the base 
requirement of 3,532 by the end of this fiscal year. This base 
requirement represents one MRT for every company across the Army Guard. 
Through this program, we touch every Soldier and teach fundamental 
resilience skills to the force.
    The Army National Guard also trained 334 Applied Suicide 
Intervention Skills Training (ASIST) program trainers in fiscal year 
2011. An additional 150 ASIST trainers were trained in fiscal year 
2012. These trainers will train approximately 35,000 gatekeepers in 
advanced intervention skills.
    In late 2011, the Army National Guard teamed with the Office of the 
Secretary of Defense for Reserve Affairs, as well as the Air National 
Guard, to launch a highly successful peer support line, Vets4Warriors. 
The peer support line serves all Army National Guard and Reserve 
component members nationwide. As the foundation of each Soldier's 
support network, Army National Guard families are being trained to 
assist in identifying high-risk individuals. States have capitalized on 
community-based resources and solutions to provide services outside of 
military installations.
    The Army National Guard has been, and remains, deeply concerned 
with the civilian employment status of its Soldiers. The ability of 
Guard Soldiers to gain and maintain civilian employment is essential to 
the Army National Guard as an operational force. Furthermore, 
employment challenges extend beyond returning mobilized Soldiers; the 
Guard continues to work diligently to find solutions to assist its 
geographically dispersed population.
    The Veterans Opportunity to Work (VOW) Act of 2011 mandates the 
Transition Assistance Program (TAP) for all Soldiers separating from a 
title 10 Active Duty tour of more than 180 days. The Army National 
Guard is working closely with the Department of the Army and OSD to 
implement the transition mandates set forth in the legislation. The 
goal is to enhance and increase participation of Guard members in an 
array of employment assistance programs made available by the Army and 
the Department of Defense.
    Additionally, the Army National Guard offers several national 
programs to assist the States with their local employment programs. The 
National Guard Employment Network helps States that need resources to 
people find employment, and to help companies hire outstanding 
candidates for success. The Network partners with private companies, 
and also helps Guard Soldiers and family members write resumes, develop 
interview skills and dress for success.
    Similarly, the Job Connection Education Program assists Guard 
Soldiers and family members in researching, obtaining, and retaining 
civilian employment. It provides support services such as job skills 
training, workshops, and job search assistance with positions offered 
by more than 400 established business partners. This started as a pilot 
program in Texas, but has expanded to Iowa, Wisconsin and Tennessee. 
The program has helped 2,100 Army Guard Soldiers or family members 
secure employment, including 55 last month in Texas alone. Many of 
these jobs are in the financial and information technology sectors, and 
offer professional positions that feature good salaries and benefits.
         maintaining the operational force: equipping the force
    The Army National Guard has received significant investments in its 
equipment over the last few years, increasing Equipment on Hand (EOH), 
Critical Dual-Use (CDU) equipment, and the overall modernization level.
    Overall CDU EOH is at 90 percent of goal, an increase from 86 
percent 2 years ago and a significant increase from 65 percent at the 
time of the Hurricane Katrina response in 2005. Army National Guard EOH 
for Modified Table of Organization (MTOE) units is currently at 88 
percent of goal (an increase from 85 percent 2 years ago). Of the 88 
percent EOH for MTOE units, 83 percent is currently at home station 
(not mobilized) and considered available for domestic operations. Of 
the total quantity of EOH, 70 percent is considered modernized, while 
18 percent of the on-hand equipment is not modern.
    While modernization levels overall are good, and within 1 percent 
of Active component levels, there are still areas of concern. The Army 
Guard's UH-60 Black Hawk fleet is the oldest in the Army, and current 
modernization plans have the Army National Guard falling further 
behind. Sixty-five percent of the active Army UH-60 fleet will be 
digital by 2020, at which time the Army National Guard UH-60 fleet will 
be less than 23 percent digitized. By 2025, the active Army will be 
completely digitized, while the Army National Guard will not be fully 
digitized until 2036. This ever-widening gap may eventually render a 
preponderance of Army National Guard UH-60s non-deployable for overseas 
contingency operations because of theater-specific restrictions.
    The procurement and fielding of the UH-60M has already been 
delayed. Subsequent delays will result in Army National Guard lagging 
further behind the Active component in modernizing the UH-60 fleet. 
And, due to sequestration, induction of UH60As into the UH-60A to L 
remanufacture line will stop in April 2013, further eroding UH-60 
readiness.
    Equipment reset--field and depot level maintenance--is another area 
of concern. Currently, the Department of the Army is developing 
strategies and plans for the way forward as it copes with cuts in 
maintenance due to sequestration. As it currently stands, approximately 
1,000 pieces of Army Guard equipment from eight brigades and 450 
individual units will not enter Automatic Reset Induction during fiscal 
year 2013. The brigades impacted hail from Minnesota, Oklahoma, Ohio, 
Hawaii, New York, Missouri, and two from Texas. The Army's reset 
priorities are driven by the readiness requirements of units that are 
next to deploy, the global response force, and forward--deployed units. 
As fewer Army National Guard units deploy, especially given the 
sequestration-driven decision to cancel Army National Guard 
deployments, the equipment reset backlog will certainly increase over 
time.
              maintaining the operational force: aviation
    In the broader category of equipment, sustaining the Army National 
Guard as an Operational Force depends upon having the same equipment as 
the Active component, including rotary wing aircraft. The Army National 
Guard currently has 1,277 rotary wing aircraft against an authorized 
fleet of 1,394 aircraft. The inventory includes a mix of the most 
modern capabilities (AH-64D Block II Longbow Apaches, CH-47F Chinooks, 
UH/HH-60M Black Hawks and UH-72A Lakotas), older but capable airframes 
(AH-46D Block I Apaches, CH-47D Chinooks, UH-60A/L Black Hawks, and OH-
58D Kiowa Warriors) and 98 legacy aircraft (OH-58A/C Kiowas and AH-64A 
Apaches).
    Rotary wing aircraft remain a Critical Dual-Use asset whether 
mobilizing for the warfight or responding to domestic emergencies. 
Programmed Army procurements will ensure the Army National Guard fleets 
are modernized on pace with the other components, except in the case of 
the Black Hawk fleet.
            maintaining the operational force: installations
    The Army National Guard has facilities in more than 2,600 
communities nationwide. In many towns and cities these facilities are 
the only military presence, with the Guard serving as the most visible 
link between hometown America and the Nation's armed forces. Facilities 
are critical to readiness and support unit administration, training, 
equipment maintenance, and storage. They serve as platforms for 
mobilization during times of war as well as command centers and 
shelters during domestic emergencies.
    While the Army National Guard transformed from a Strategic Reserve 
to an Operational Force during more than a decade of deployments, many 
facilities have not been updated in several generations. Currently, 
more than 46 percent of Army Guard readiness centers are over 50 years 
old. Many fail to meet the needs of a 21st century operational force, 
cannot accommodate modern equipment and technology, are poorly 
situated, and are energy inefficient. Many facilities do not meet U.S. 
Army Training and Doctrine Command standards required for military 
occupational specialties and non-commissioned officer development. In 
some facilities, modern equipment cannot fit into old storage and 
maintenance bays.
    The Army National Guard has only two-thirds of the building space 
it requires, representing an 83 million square foot facilities shortage 
nationwide. Of the square footage that the Army National Guard does 
have, it is estimated that 40 percent of it is functionally obsolete 
due to its age, condition, and lack of modernization. At current levels 
of funding, it will take 154 years for all Army National Guard 
facilities to meet the majority of the wartime/primary missions of the 
units assigned to those facilities.
    Investment in Army National Guard facilities is truly an investment 
in local communities as well as in the Army National Guard. The 
majority of Army National Guard military construction is completed with 
local materials and local construction companies. Military construction 
funds flow directly into the communities in which the facilities are 
built, and many facilities serve as civilian facilities when not in 
active use by the Army National Guard. A lack of funding in this area 
will not only have a direct negative economic impact, but will erode 
the investment the American people have made in modernizing Army 
National Guard equipment and training.
                            closing remarks
    With our Nation operating during an era of budgetary pressure, the 
Army National Guard is structured for success in the future. With 
committed Citizen Soldiers as our foundation, the Army National Guard 
presents tremendous value to the Nation at large and within American 
communities where we live, work and serve. A flexible force serving our 
citizens for 376 years, the Guard's history shows that it has always 
adapted to change in America and around the world and risen to the 
challenge. The last decade-plus of war has demonstrated these traits in 
full: we are ready; we are accessible; we are capable; we are eager to 
serve.
    We stand ready, as always, to take on any mission.
                                 ______
                                 
    Prepared Statement of Lieutenant General Stanley E. Clarke, III
    Chairman Durbin, Ranking Member Cochran, members of the 
subcommittee; I am honored to appear before you today, representing the 
men and women of our Nation's Air National Guard.
    I wish to take this opportunity to update you on status of your Air 
National Guard, specifically, the status of the men and women that are 
the foundation of the Air Guard, the condition of their equipment, the 
Air National Guard's support to civil authorities, the impact of 
current fiscal uncertainty, and finally, a look to the future and how 
the Air National Guard can help secure our Nation.
                               personnel
    The men and women of the Air National Guard (ANG) continue to prove 
their value to America and remain our priority together with their 
families and employers. As of last week, the ANG has filled over 
562,000 Overseas Contingency Operation positions since 9/11, with an 
87-percent volunteer rate. Currently there are 2,290 Guard Airmen 
deployed around the globe performing a myriad of tasks including 
Overseas Contingency Operations, counterdrug, support to the National 
Science Foundation expeditions in Antarctica, and routine operational 
missions supporting our Nation's global interests.
    At home, Guard Airmen have responded to countless local and 
national emergencies. Whether helping in local search and rescue 
operations, securing vital infrastructure, or assisting civil 
authorities in the national response to Hurricane Sandy, your Guard men 
and women can be relied to answer any call for help with a dedicated, 
professional, organized and resourceful force.
    As of March 8, 2013, ANG end-strength was 104,204--1,496 under 
authorized. Throughout fiscal year 2013, Air Guard recruiters met or 
exceeded monthly enlistment and officer accession goals, but monthly 
losses were higher than expected resulting in the current under-
strength. Fiscal uncertainty, force structure changes and mission 
turmoil, combined with the drawdown of the war in Afghanistan, are the 
primary causes of the increased loss rate. In response, the ANG 
implemented a number of short and long-term programs. First, recruiting 
goals were increased to account unexpected losses. To assist the local 
recruiters, the ANG increased the number of career fields eligible for 
bonuses or incentives and expanded the pre-qualified officer database 
to streamline the recruiting process. Long-term programs include 
providing State leadership with local recruiting and retention 
production statistics for accountability, as well as introducing the 
Career Motivation Program for commanders, thus allowing unit commanders 
to utilize Unit Career Advisors and periodic interviews/surveys to 
identify loss trends. These tools will help the local commanders focus 
their recruiting and retention efforts on their greatest needs. 
Overall, I am very confident in our ability to not only meet end-
strength but to recruit and retain the skill sets necessary to perform 
the missions the Nation asks of its Guard Airmen.
    Beyond recruiting and retention, the ANG struggles with many of the 
same personnel challenges as the Active Duty Air Force and the other 
Services, including the tragedies of suicide and sexual assault.
    The stresses of deployments, combat, the economy, and civilian and 
ANG employment uncertainty have taken a toll on our Airmen and their 
families. Last year, the ANG had 22 members take their own lives, the 
highest suicide rate since 1992. Every loss is a tragedy and affects 
the entire ANG family both personally and professionally. At the 
forefront of our suicide prevention initiatives is the evidenced-based 
Air Force Suicide Prevention Program. This program is a public health 
approach with 11 overlapping elements that enhance the capacity to 
identify and respond to personnel in distress across multiple levels. 
In addition to the Air Force Program, the ANG engages in community 
capacity building both on and off base. This network coordinates the 
activities of the various military and non-military assistance agencies 
to produce a synergistic problem-solving environment within the 
community to help resolve individual, family, military, and community 
issues that adversely impact the quality of life for Airmen and their 
families and by extension the readiness of the force.
    In 2010, the ANG also launched its Psychological Health Program. 
The Program places licensed mental health professionals in each wing to 
consult with leadership on psychological health issues, promote early 
help-seeking behaviors, and provide mental health referrals and case 
management. Preliminary findings indicate the wings with a Director of 
Psychological Health in place longer than 1 year show statistically 
significant decreases in Adverse Actions taken and TRICARE costs for 
healthcare, and an increase in medical readiness for deployment. At the 
end of the day, we are trying to ensure our Airmen and their families 
are prepared psychologically for the traumas and stress ahead and are 
appropriately assessed after deployments and they and their families 
are connected to the services needed for successful reintegration.
    The second significant personnel issue is sexual harassment and 
assault. The ANG has joined the Air Force in a multifaceted campaign of 
zero tolerance for inappropriate behavior in the Total Air Force. In 
January, the Air National Guard launched its Take A Stand--Make A 
Difference campaign by a bringing together all Air National Guard wing 
commanders and educating them on the need change the culture within 
their Air Guard units. Commanders were made aware of unprofessional 
behavior and unhealthy workplace environments which, as General Welsh 
said, ``are leading indicators of sexual assault and other behavior and 
performance issues.'' The January meeting was followed with unit-level 
assessments of their work places. The overall intent of the Air 
National Guard's campaign is to build on the distinctive heritage of 
the ANG while countering outdated practices of unprofessional behavior 
that have negatively marked its history.
    Airmen of my generation joined the National Guard with the 
expectation of training one weekend a month and 1 week during the 
summer, and possibly being mobilized once during their careers. Today's 
paradigm of service is very different, and yet, the ANG continues to 
recruit and retain the very best of our Nation, and they continue to 
raise their hands to volunteer for whatever the Nation asks of them.
                      air national guard equipment
    We owe our Airmen the best equipment--the right equipment for their 
jobs, properly maintained to ensure operational readiness, and 
modernized to meet tomorrow's challenges both overseas and 
domestically.
    Currently, the ANG has 91 percent of all authorized equipment, 
i.e., the equipment the Air Force determined is necessary for the ANG 
to fulfill its Federal mission--this is comparable to Active Duty Air 
Force levels. Approximately 88 percent of all the authorized ANG 
equipment has a valid use in both Federal and domestic support 
operations--what is termed ``dual-use'' equipment. ANG unit readiness 
also benefits from the Air Force's general guidelines to use mostly 
Active Duty Air Force equipment in support of overseas contingency 
operations (OCO). Currently, 1.6 percent of ANG equipment is deployed 
in support of OCO. Another 0.7 percent of ANG equipment is deployed 
throughout the 54 States, territories and the District of Columbia in 
support of domestic operations.
    Having the authorized equipment is only a part of the combat ready 
calculus--the ANG must also have the funds to maintain the equipment, 
and Congress has been especially helpful in this area for fiscal year 
2013. For example, the additional $282 million in Weapon System 
Sustainment in H.R. 933 will fund Depot repairs for 31 aircraft, 32 
aircraft engines, and 12 Advanced Targeting Pods.
    There is, however, an important distinction between equipping 
levels, maintenance or sustainment and modernization. Though equipping 
levels for the Federal mission remain high, the quality and 
sustainability of the equipment is rapidly decreasing as the ANG 
possesses the oldest equipment in the Air Force inventory. The Air 
National Guard maintains the oldest ``block 30'' variant of the F-16 
and has the preponderance of the C-130H fleet while the Active Duty is 
recapitalizing to an all C-130J fleet. The ANG also operates unique 
aircraft such as the RC-26 for counterdrug operations. These and other 
major weapon systems risk irrelevance if not modernized or 
recapitalized to address obsolescence issues, meet combatant commander 
requirements, and keep pace with global airspace navigation and control 
requirements.
    The funds that Congress provided directly to the ANG via the NGREA 
have made a significant impact on our ability to support both the 
warfighter and civil authorities. We strive to use these funds as 
efficiently as possible by pursuing lower cost 80 percent solutions to 
the immediate needs of our warfighters at about 25 percent of the 
cost--needs that are identified directly by our warfighters and first 
responders out of our weapons and tactics classes. Your investments 
through NGREA have been a critical component to the Air Guard increased 
readiness. For example, without NGREA, the Block 30 F-16, the backbone 
protecting America's skies, would be irrelevant today.
    For the past 3 years, the ANG has emphasized modernization, 
upgrades, and procurement in two broad areas, communications and 
firefighting. These efforts were focused in both combat operations and 
domestic operations. In communications, the ANG sought to leverage 
networks and data links to bring current information and data directly 
to aircraft cockpits and our Battlefield Airmen in the field. (Combat 
Control Teams (CCT)/Tactical Air Control Party (TACP)/Pararescue Jumper 
(PJ)). By rapidly testing and fielding innovative communication 
solutions, our airmen provide improved situational awareness for air 
defense operations, a common operational picture for Joint Force 
Headquarters-State, and the capability to bridge communications between 
military and civil authorities.
            air national guard support to civil authorities
    I am frequently asked, ``why does a Governor need fighter planes?'' 
The simple answer is that the Governors do not need fighter aircraft, 
the Nation does, specifically at home, to defend the U.S. homeland. The 
Governors need the people and equipment that go along with the fighter 
aircraft. As mentioned earlier, approximately 88 percent of all 
equipment has valid uses for both the ANG's Federal and domestic 
support missions; and 100 percent of the Air Guard men and women are 
``dual-use.''
    Whenever there is a domestic emergency, we hear the public cry, 
``call out the National Guard'' and it is not just the Army National 
Guard that is ``called out.'' In fact, last year Guard Airmen are 
frequently called upon to assist their communities in preparing for 
natural disasters and in post-disaster responses. Common ANG support to 
civil authorities includes disaster response planning, helping 
community preparations from helping to fill sandbags before potential 
flood to assisting in public information and education efforts. After 
disasters hit, Guard Airmen are frequently assisting with search and 
rescue efforts, setting up and manning emergency aids stations, 
transporting and operating portable power generators, setting up 
emergency communications systems, coordinating airlift operations, 
evacuating injured citizens, and helping with cleanup.
    The ANG also participates in a number of routine or standing 
domestic support missions. The ANG operates nearly 100 percent of the 
air defense system protecting U.S. airspace. Specially trained C-130 
air crews equipment with Modular Airborne Firefighting System (MAFFS) 
flew 570 sorties dropped more than 13.5 million pounds of fire 
retardant and 1.49 million gallons of water on wildfire across the 
United States in support of the National Forestry Service. Guard Airmen 
also provide intelligence, civil engineering, communications, and 
transportation support to U.S. counterdrug operations. Additionally, 
the ANG medical, civil engineer, and security forces make up over 20 
percent of the Nation's domestic Chemical Biological Radiological 
Nuclear High Explosive (CBRNE) emergency response teams.
    While our Guard Airmen rely primarily upon Federal dual-use 
equipment when responding to domestic emergencies, there are a few 
missions that require equipment not in military inventory. Specialized 
missions such as Weapons of Mass Destruction Civil Support Team (WMD-
CST), CBRNE Enhanced Response Force Package (CERFP), and the Homeland 
Response Force (HRF) use equipment and other non-dual-use equipment for 
emergencies or response to major disasters. Their funding is based on 
using a combination of Army, Army National Guard, Air Force, and ANG 
appropriations, along with Defense Department appropriations (e.g., the 
Chemical and Biological Defense Program (CBDP) funds). The National 
Guard Bureau continues to work with the Department of Defense to pursue 
modernization for equipment used by domestic response teams as 
technology and threats evolve.
    In firefighting, the ANG brought on board an improved Mobile 
Airborne Firefighting System (MAFFS-2) in time for the calendar year 
2012 wildfire season and purchased upgraded and newer firefighting 
vehicles, protective equipment, and equipment for rescue operations.
                      impact of budget uncertainty
    On behalf of the entire Air National Guard family, I thank you for 
H.R. 933. This legislation will go a long way to ensure our Guard 
Airmen and their equipment remains ready to respond to either domestic 
or overseas crises. But, I remain concerned for the long term as 
continued budget uncertainties are having a direct negative impact upon 
ANG personnel and equipment readiness and modernization.
    Budget uncertainties add to the anxiety within the entire ANG 
family. From our civilian workforce, including our Technicians, facing 
furloughs to uncertainty over Air Force funding for Guard Airmen 
performing title 10 missions on Military Personnel Appropriation (MPA) 
funding, our Airmen and their families are concerned about their 
futures. Uncertainty about the future adversely impact unit morale, 
individual decisions about remaining in the Guard, and relationships 
within the family.
                  the future of the air national guard
    As we build the Total Air Force of the future, it is essential to 
build capabilities that meet the advanced technologies potential 
adversaries might bring to a conflict. Futurists predict that the 
proliferation of technology will mean that U.S. forces will face a 
plethora of long-range precision weapons and sophisticated air defense 
networks--the environment in which the B-2, F-22, F-35, and the next 
generation bomber are designed to operate. I believe it is equally 
important, even in a world driven by rapid technological change, that 
we not forget the lessons of the past. History tells us high technology 
capabilities are not always the sole solution to security challenges. 
More often, the answer is capacity in combination with capability. 
During the Korean War the USAF deployed its newest jet fighters only to 
learn what it needed most was large numbers of World War II vintage P-
51 Mustangs for close air support. Similarly, during the first gulf 
war, the Nation marveled at the capabilities of the F-117, but it was 
the B-52, A-10, F-15, and F-16 were the workhorses of the effort. The 
principal lesson of the past is we cannot predict the future; the best 
we can do is instill versatility and flexibility into our planning.
    Do not misunderstand, I believe the capabilities of the latest air, 
space, and cyberspace advancements are essential to the future security 
of the United States, but I believe capacity is equally important. It 
is capacity that permits multiple simultaneous actions in different 
parts of the world, and it is capacity that allows for extended actions 
without over stressing the men and women in uniform and their families. 
Recognizing capacity is often as expensive as capability, the question 
becomes, how do we sustain both capability and capacity in an era of 
austerity? The simple answer is investment in the Air Reserve 
components of the Air Force.
    A recent study based upon Air Force Total Ownership Cost data 
examined the total costs of Active Duty (AD), Air Force Reserve (AFR), 
and Air National Guard (ANG) F-16 and C-130 units. The study concluded 
that while the cost of employing the three components was similar, the 
cost per aircraft and the cost per flying hour were significantly less 
in the Reserve components (RC).

------------------------------------------------------------------------
                                                             Cost per
                                           Cost per PMAI    Flying Hour
------------------------------------------------------------------------
C-130:
    Active Air Force....................     $18,770,349         $24,179
    Air Force Reserve...................       9,394,071          21,365
    Air National Guard..................       8,427,894          20,926
F-16:
    Active Air Force....................       8,398,198          29,190
    Air Force Reserve...................       6,356,380          22,406
    Air National Guard..................       4,626,238          22,296
------------------------------------------------------------------------

    There have been two major post-war draw-downs in recent history. 
The first occurred in the 1970s as the Vietnam war was drawing to a 
close. The second was in the 1990s at the end of the cold war. In 1970, 
Secretary of Defense Melvin B. Laird put his faith in the Reserve 
components and created the Total Force that served the nation through 
the end of the cold war.
    In 1990, our Air Force faced challenges not unlike those of today. 
And, threats to our national security and national interests had not 
gone away with the fall of the Berlin Wall, in fact, the future looked 
just as unknown and ominous as it does today. First, there was a new 
strategy shifting focus from the Soviet Union to major regional 
conflicts. There was growing concern about the security implications of 
a possible breakup of the Soviet Union; economic, political, and 
geographic expansion of China; and, new challenges in the Middle East. 
The United States was trying to get the budget deficit under control--
at that time it was sequestration under the Gramm-Rudman-Hollings 
Balanced Budget and Emergency Deficit Control Act of 1985. Faced with 
significant budget cuts and amorphous but growing threats abroad, 
Secretary of the Air Force Donald Rice decided to follow Secretary 
Laird's lead from the 1970s. As Secretary Rice wrote in his 1990 Report 
to Congress:

    ``The Air Force Total Force policy, formalized in 1973, has evolved 
to the current policy for a mix of Active and Reserve component forces, 
using all available assets, to ensure that maximum military capability 
is achieved at minimum cost. We intend to allow as much force structure 
growth in the Air Reserve Component (ARC) as possible while maintaining 
a realistic balance between the ability of the Guard and Reserve to 
absorb that growth and the ability of the Active force to meet 
peacetime and contingency tasking.'' \1\
---------------------------------------------------------------------------
    \1\ The United States Air Force Report to the 101st Congress of the 
United States, fiscal year 1991.

    It was the Air Force Secretary Rice built that maintained Northern 
and Southern Watch after operation Desert Storm. This Air Force, built 
upon heavy reliance on the Air Force Reserve and Air National Guard, 
also responded to the crisis in Bosnia and Kosovo, fought Operation 
Enduring Freedom and Operation Iraqi Freedom. Air Guard KC-135s were 
the first on the scene for Operation Odyssey Dawn protecting Libyan 
civilians. Secretary Rice's Total Air Force also responded to numerous 
humanitarian crises around the world including Pakistan, Japan, Haiti, 
and here at home.
    The future of the Total Air Force is not just about aircraft and 
other equipment; it is about people--our most valuable asset. As the 
Air Force adjusts to post-Afghanistan and fiscal realities, we in the 
ANG urge Air Force leadership to remember that its Reserve components 
are not only warehouses of combat ready equipment but combat ready 
personnel as well. We need to ensure that as highly educated, trained, 
experienced men and women leave Active Duty they have somewhere to go; 
somewhere to continue to serve their Nation. In fiscal year 2011-2012, 
777 pilots, most with combat experience and all with many years of 
service ahead of them, separated from Active Duty. One-third of them 
chose to continue serving their country as Guard Airmen. What if there 
was no place for them to go? What if the ANG and Air Force Reserve had 
no place for those leaving Active Duty to continue to use their skills 
in service of the Nation?
    Many pundits have warned that we not repeat the mistakes of 
previous post-war drawdowns. However, the mistake of the drawdowns 
following World War II, Korea, Vietnam, and the cold war, was not that 
the Services did not plan for the future, but that they failed to 
recognize that the future may be very different than their projections. 
The real lesson of past drawdowns is the need to put in place the 
structures and systems for versatility and flexibility. The Reserve 
components, since before our Nation was founded, have been the 
underpinning of versatility and flexibility in military response.
                            closing remarks
    The entire Air National Guard family--the men and women in uniform, 
their families, our Technicians and title 5 civilians, contractors, and 
the employers of our traditional, part-time Airmen--have borne the 
brunt of over 20 years of continuous deployments and have held up very 
well. I believe they are our Nation's next ``Greatest Generation.'' 
Working together, we can keep faith with these incredible men and women 
and continue to build a Total Air Force equal to all the challenges our 
Nation faces.
    Thank you for the opportunity to share my thoughts with you, and 
for allowing me the honor to represent the outstanding men and women of 
your Air National Guard.

    Senator Durbin. Thank you, General Grass.
    Lieutenant General Talley.
STATEMENT OF LIEUTENANT GENERAL JEFFREY W. TALLEY, 
            CHIEF, ARMY RESERVE, UNITED STATES ARMY
    General Talley. Chairman Durbin, Vice Chairman Cochran, 
distinguished members of the subcommittee: Thank you for the 
opportunity today to appear before you. On behalf of the more 
than 200,000 Army Reserve soldiers and 12,000 civilians and 
military technicians and their families, I want to thank the 
subcommittee for its continued outstanding support of the Army 
Reserve.
    I am especially thankful for the passing of H.R. 933. The 
bill will provide much needed funding and increased flexibility 
in helping our Armed Forces deal with the impacts of 
sequestration.
    I am proud to report that America's Army Reserve is a ready 
and trained operational force. For more than 11 years of war, 
we have provided critical lifesaving and life-sustaining 
capability to all services and all components. At home and 
abroad, our soldiers continue to engage in vital missions in 
support of our global national defense.
    The days of a strategic Army Reserve, a force that was 
poorly resourced and seldom used, are simply gone. Today's Army 
Reserve is a key element in the multicomponent force 
complementing the Active component of all services by providing 
flexible and responsive combat support and combat service 
support essential for both combat and contingent mission 
requirements.
    The Army Reserve also provides a great return on 
investment. We continue to comprise about 20 percent of the 
Total Army for just 6 percent of the Army's budget. In fact, we 
provide the majority of the Army's theater enablers.
    Furthermore, the overwhelming majority of our soldiers are 
traditional reservists; that is, they hold full-time civilian 
jobs, often in the same specialty as their military occupation. 
So they keep their technical skills sharp at little or no cost 
to the Defense Department. And by the way, this includes our 
general and flag officers. That civilian experience and outlook 
allows the Army Reserve soldier to bring a unique perspective 
to complex environments.
    For example, I was recently in Djibouti visiting one of my 
civil affairs teams. One of the soldiers is a career 
firefighter from Seattle, Washington. In addition to his daily 
civil affairs mission in support of our activities in the 
continent of Africa, he was also helping the city of Tadjoura 
set up a firefighting first response program. What a great 
example of America doing good in the world.
    I could share many similar stories like this as the Army 
Reserve currently has almost 17,000 soldiers serving in direct 
support of combatant commands with troops mobilized and 
deployed in 28 countries with about 6,000 in combat today in 
Afghanistan.
    Last October, the Army Reserve's expanded role under the 
2012 National Defense Authorization Act was tested. We provide 
100 percent of the DOD's emergency preparedness liaison 
officers to the Federal Emergency Management Agency (FEMA). And 
at that time, we also deployed pump units for de-watering 
missions in Brooklyn and Queens, New York. The Army Reserve 
provided critical support to our fellow citizens devastated by 
Hurricane Sandy.
    Never in the Nation's history has the Army Reserve been 
more indispensable to America. As the only component within the 
Total Army that is also a single command, the Army Reserve has 
evolved into an effective and efficient part of the Total Force 
with sustained, deployable forces and citizen-soldiers who 
embody the warrior mindset and spirit.
    Steady demand for Army Reserve capabilities has introduced 
a new paradigm of reliance on the Army Reserve as a positive 
investment for America, an essential part of our national 
security architecture, supported by engaged employers, 
resilient families, and caring communities, our soldiers and 
civilians truly are twice the citizen.
    In closing, Mr. Chairman, members of the subcommittee, I am 
a traditional reservist with over 30 years of service in the 
private and public sector. I realize the challenges we face as 
a Nation are great, and I understand the future remains 
uncertain. This is exactly why it is critical to maintain 
America's investment in our Reserve force.

                           PREPARED STATEMENT

    The Reserve component helps to mitigate this risk to our 
national security architecture in a very cost-effective manner 
while maintaining that important connection to our communities 
and industrial base across the Nation. We have the best Army 
Reserve in history, and with your help, we will keep it that 
way.
    Thanks again for the opportunity to testify today, and I 
look forward to your questions. Twice the citizen, Army strong.
    [The statement follows:]
       Prepared Statement of Lieutenant General Jeffrey W. Talley
                              introduction
    Chairman Durbin, Ranking Member Cochran, and distinguished members 
of the subcommittee, thank you for the invitation to appear before you 
today. It is an honor to testify on behalf of more than 200,000 Army 
Reserve Soldiers.
    America's Army Reserve is a life-saving and life-sustaining force 
for the Nation. We have emerged from 11 years of war as an integral and 
proven component and command, leveraging unique capabilities in service 
to America.
                      a great return on investment
    Ready and direct access to a high quality, All-Volunteer, 
operational Army Reserve for the Army and joint missions at home and 
abroad is essential to the Total Force and the Nation. The Army Reserve 
is a Federal force under Federal control, ready and accessible 24/7 
with unique capabilities not found in the Regular Army, the Army 
National Guard, and in some cases, our sister services. As the Army's 
Federal Operational Reserve Force provider, the Army Reserve can 
provide a cost-effective way to mitigate risk to national security by 
providing units trained to platoon-levels of readiness. The Army 
Reserve is comprised of almost 19 percent of the Total Army's combat 
support and combat service support capabilities at approximately 6 
percent of the current base budget. Our cost-effective progressive 
readiness model provides the right level of readiness at the right 
time. We are a streamlined force--with the lowest ratio of full-time 
support to headquarters per capita (less than 1 percent) in the Army.
    The Army Reserve is the Army's one-stop shop for assured access to 
trained specialized individuals and units--efficiently managed by a 
single command--seamlessly integrating and generating essential assets 
and capabilities across the Nation and globally to complement and 
enable the Total Army and Joint Force.
    The Army Reserve needs continued support from Congress to remain 
the great return on investment for America's Total Force and the 
American taxpayer. The Army Reserve possesses unique skill sets, 
maintaining key support capabilities, such as logistics, 
transportation, engineer and civil affairs--as well as intelligence and 
medical assets.
                      an operational reserve force
    In order to maintain our operational proficiency, it is vital to 
invest in the training and readiness of our Army Reserve force. The 
Nation cannot afford to give up the readiness gains achieved since the 
events of September 11. Since 2001, an annual average of 24,000 Army 
Reserve Soldiers have been mobilized and seamlessly integrated to 
support the Total Force.
    The Army Reserve is a complementary force for the Active Army and 
provides a significant portion of the Total Army's capability in combat 
service and combat service support. These enablers are organized into 
streamlined and deployable units. Its Citizen-Soldiers embody the 
warrior mindset and spirit and are essential to the Army's ability to 
support the Joint Force, both in contingent and combat-effects 
missions. We take great pride in the demonstrated competence and 
professionalism of Army Reserve Soldiers and units, which are globally 
engaged in multiple campaigns across a full range of military 
operations in support of the Total Force. We are the only Army 
component that is a single command--the United States Army Reserve 
Command. This structure allows for immediate access to--and use of--
Army Reserve Soldiers and units for missions at home or abroad.
    Since the majority of our Soldiers are traditional drilling 
reservists, they hold full-time civilian employment in the public and 
private sectors, which keep their technical and managerial skills sharp 
at minimal cost to the Department of Defense. We have a worldwide 
organization of 205,000 Soldiers and 12,600 civilians. As a community-
based force, the Army Reserve maintains a strong connection to 
America's industrial base and its people.
    The Army Reserve's combat support and combat service support 
capabilities, which include the majority of the Total Army's 
significant expertise in legal, information support, police, human 
resources, finance, chaplain, and training operations, are necessary to 
enhance and sustain the Army's ability to conduct a full range of 
military missions worldwide in order to Prevent, Shape and Win.
    By aligning Army Reserve Theater Commands with Army Corps, Army 
Service Component Commands and Combatant Commands as part of the Army's 
Regionally Aligned Forces, Army Reserve Soldiers and leaders are 
executing critical planning and implementation to ensure the Department 
of Defense's global requirements are fully supported. This alignment 
will provide critical staff planning and support, ensuring the unique 
capabilities of the Army Reserve are maintained and used.
    The way ahead for maintaining an Operational Reserve will involve 
progressive readiness for the Army Reserve, which means having the 
right level of readiness at the right time. The Army's force generation 
model offers a balanced, cost-effective approach to training and 
mobilization that allows for the predictability that our Soldiers, 
Families, and their civilian employers need and deserve.
                      modernization and equipment
    In partnership with the Army, the Army Reserve has made great 
strides in filling its equipment shortages since 2001, increasing its 
equipment on hand from 75 percent in 2001 to 86 percent today. In 
addition we now have 88 percent of our Critical Dual Use (CDU) 
equipment on hand. This is equipment that is used for both the warfight 
and domestic support operations.
    In regard to equipment modernization, however, the current 
uncertain fiscal environment significantly challenges our ability to 
modernize our equipment for unit training and employment as a part of 
the operational force. Our equipment modernization level currently 
stands at 65 percent and fiscal constraints that impede our ability to 
improve this may adversely impact Army Reserve readiness.
    The Army Reserve is now an operational force supporting planned and 
contingency operations at home and abroad. This requires investment in 
equipment, training, and sustainment. However, we face a major 
challenge in modernizing our equipment for unit training and employment 
as a part of the operational force which impacts the Army Reserve's 
readiness.
    As of December 2012, the Army Reserve has 86 percent of its needed 
equipment, but only 65 percent has been modernized (brought to the 
current standard of design). To maintain our readiness, we need to 
improve modernization levels for critical equipment. We received $285 
million in the National Guard and Reserve Equipment Account (NGREA) 
funding during fiscal year 2011 and fiscal year 2012. Priority should 
remain on resourcing the Army Reserve with modernized equipment for 
unit training and employment as a part of the operational force, and to 
fully equip the Army Reserve to meet the needs of the Army.
                              simulations
    In a new modernization initiative, the Army Reserve is using more 
simulation technology to save time and money. To meet Army Reserve 
Training Strategy (ARTS) requirements, we will continue to fund 
simulators and simulation purchases. The acquisitions will be 
accomplished through congressionally appropriated equipment funding and 
specified allocations in the military service procurement accounts. 
Projected systems and costs include:
  --Combat Simulations--$6 million: purchases war gaming suites at the 
        Company/Detachment level for Virtual Battlespace Training 2 
        (VBS2);
  --Constructive--$36 million: purchases distributive simulation 
        capability equipment to support multi-echelon and 
        geographically dispersed training;
  --Live--$23 million: purchases Home-Station Instrumentation Training 
        Systems (HITS) and supporting radio systems for Combat Support 
        Training Exercise and Warrior Exercise execution on Army 
        Reserve funded installations; and
  --Virtual--$17 million: purchases portable weapons systems training 
        capability.
                           disaster response
    The National Defense Authorization Act of 2012 recently expanded 
the Army Reserve's role as part of the Federal Force, giving us the 
flexibility to provide specialized capabilities for domestic disaster 
relief including critical lifesaving, property preservation and damage 
mitigation support. The new mobilization authority for Defense Support 
of Civil Authority (DSCA) allowed us to activate specialized 
capabilities to assist in the Hurricane Sandy relief effort by 
providing three tactical water distribution units, which operated six 
600-gallon-per-minute water pumps to help alleviate flooding. The core 
competency of the Army Reserve lends itself readily to such missions. 
The Army Reserve is also part of the Defense Chemical, Biological, 
Radiological, and Nuclear (CBRN) Response Force, maintaining mission-
ready Soldiers and equipment available for deployment in the event of a 
national emergency or disaster.
               the projected impact of funding reductions
    Under ``Sequestration'', the Army, and by extension, the Army 
Reserve needs to consider dramatic cuts to personnel, readiness, and 
modernization programs. Based on fiscal guidance from OSD, the Army 
Reserve conducted a thorough analysis and risk assessment and has 
proposed taking cuts to the following Programs: Operational Tempo, 
Medical Readiness, Equipment Readiness, Depot Maintenance and 
Sustainment, and Restoration and Modernization. The following impacts 
are expected for each program:
    Disruptions to the cyclic progression of training, which were 
developed for the Army Force Generation (ARFORGEN) model, may 
jeopardize the Army Reserve's ability to produce validated, technically 
and tactically proficient Soldiers who are available for missions.
    When sequestration cuts are fully implemented, it will be 
challenging for us to perform annual health exams and dental readiness 
treatments for non-deploying Soldiers.
    Similarly, once the full effects of sequestration are felt, Depot 
Maintenance will suffer, as it will be difficult to maintain more than 
40 percent of ARFORGEN-critical equipment. The same goes for equipment 
needed for Disaster Relief and Homeland Defense missions. The inability 
to maintain some of this needed equipment will negatively impact our 
ability to respond to these contingencies.
    Sustainment, Restoration, and Modernization (SRM) is also going to 
be degraded, causing subsystem failures that may impact facility 
readiness in support of Soldier training. We are going to have to defer 
other repairs that will lead to less-functional operating environments.
    Additionally, with the full implementation of sequestration, the 
Army Reserve will have difficulty meeting execution goals for fiscal 
year 2013 and individual project decrements may force the scope of 
individual projects to be reduced and redesigned to allow for the 
projects to be constructed within the reduced funding limits. The worst 
case scenario for the Army Reserve (MCAR) program may result in major 
scope reductions, contract delays or cancellation.
    Additionally, with the full implementation of sequestration, the 
Army Reserve will experience a backlog of fiscal year 2013 Military 
Construction, Army Reserve (MCAR) program because reductions will force 
project delays and deferment of other projects. Sequestration also is 
going to have a long-term impact on the out-year Military Construction 
with cascading projects from fiscal year 2013 ($305 million) forced to 
be reprogrammed over the next 3-4 fiscal years.
                                closing
    Mr. Chairman, members of the committee: Thank you again for the 
opportunity to testify and for your continued support to our Army 
Reserve Soldiers. Complex demands for the future at home and abroad 
require continued reliance on the Army Reserve. The global fiscal 
environment brings growing security challenges to our Nation and our 
coalition partners, necessitating a balance between identifying 
efficiencies and the continued engagement of a ready, agile and 
adaptable force. We need Congress's support to preserve the hard-earned 
skills of our battle-tested Soldiers as we continue to make strides 
toward Army Reserve Vision 2020. The Army Reserve remains a great 
return on investment for America, providing an indispensable and 
versatile mix of enabling capabilities to Army 2020 and Joint Force 
2020.
    We have the best Army Reserve in history. With your help we can 
keep it that way as we protect and serve America. Twice the Citizen, 
Army Strong!

    Senator Durbin. Thank you, General Talley.
    Next is the Chief of the Navy Reserve, Vice Admiral Robin 
Braun.
STATEMENT OF VICE ADMIRAL ROBIN R. BRAUN, CHIEF, NAVY 
            RESERVE, UNITED STATES NAVY
    Admiral Braun. Chairman Durbin, Vice Chairman Cochran, and 
distinguished members of this subcommittee.
    I am Vice Admiral Robin Braun and I thank you for the 
opportunity to speak today on behalf of the over 63,000 
dedicated men and women of the Navy Reserve. Today with me is 
my senior enlisted advisor, Force Master Chief Chris Wheeler. 
We very much appreciate your unwavering support of the Navy 
Reserve and the sailors from across our Nation.
    Since assuming the duties of Chief of Navy Reserve, I 
focused on supporting the Chief of Naval Operations' tenets of 
warfighting first, operate forward, and be ready. I would like 
to offer you three thoughts today on the state of the Navy 
Reserve.
    First, in my 33 years of service, the Navy Reserve has 
never been more ready, relevant, or aligned with the Navy's 
Active component than we are today. Currently, over 4,000 
dedicated Reserve sailors are mobilized around the globe in 
support of overseas contingency operations.
    Since 9/11, more than 66,000 Reserve sailors have been 
activated, and over the last year, the Navy Reserve has taken 
over the majority of the individual augmentations so that the 
Active component can get sailors back to sea.
    Our sailors also provide vital operational support from 
fleet air logistics missions delivering personnel and cargo 
around the world, to combatant commander support building 
partnership capacity with joint and allied forces.
    When called upon to provide humanitarian assistance and 
disaster relief, such as Hurricane Sandy, Reserve sailors are 
on-station, often in less than 24 hours. A capable Navy Reserve 
is an operational and strategic necessity, and we remain true 
to our motto, ``Ready now. Anytime, Anywhere.''
    Second, I would offer that in the current fiscal 
environment, investment in the Reserve component is a sound use 
of the taxpayers' money. The Navy Reserve represents 16 percent 
of the Navy's military personnel while comprising only 2.5 
percent of the total Navy budget.
    A trained and resourced Reserve allows the Navy to leverage 
affordability and manage risk. It enables a force with both 
operational capacity and strategic depth that is ready at a 
reduced cost when called.
    Third, the Navy Reserve enjoys a high level of readiness, 
attained over the past decade of operational deployments and 
mobilizations. It is incumbent upon Navy leadership to maintain 
that readiness level in light of the current global 
environment.
    Knowing that people are our most important asset, I 
respectfully ask for your continued support of our sailor and 
family readiness programs. These initiatives, such as the 
Yellow Ribbon Reintegration Program, are critical to 
maintaining a ready and a resilient force.

                           PREPARED STATEMENT

    The President's budget request will allow us to provide the 
necessary readiness, innovation, and agility to ensure the Navy 
Reserve remains a vital component of the Navy Total Force.
    Thank you, again, for the opportunity to testify today. I 
am sincerely grateful for the support that Congress and this 
Committee continue to provide to the men and women of the Navy 
Reserve.
    I look forward to your questions.
    [The statement follows:]
           Prepared Statement of Vice Admiral Robin R. Braun
                              introduction
    Chairman Durbin, Senator Cochran, distinguished members of the 
committee, thank you for the opportunity to speak to you today about 
the talent, capability, and readiness of the 63,800 dedicated women and 
men who serve in the Navy Reserve. Each Sailor is assigned to one of 
our 122 Navy Operational Support Centers, resident in every State and 
territory. I am honored to be here representing our citizen warriors 
and would like to extend my heartfelt thanks for the support you 
continue to provide them.
    Today, I intend to provide testimony which will give you a clear 
picture of where the Navy Reserve has been in the last year, how we are 
aligned with the Sailing Directions put forth by the Chief of Naval 
Operations (CNO), and how we intend to develop the Navy Reserve as we 
look forward to the future.
    Since assuming command 8 months ago, I have met with key 
stakeholders throughout the Department of Defense (DOD), Navy 
leadership, civilians, and Reserve Sailors across the country. I have 
seen first-hand that the Navy Reserve Force is more ready, relevant, 
and aligned with the Active Component (AC) than at any time in our 
history. There is no doubt that the strength of the Navy Reserve is in 
our people. Every day our Reserve Sailors prove they are flexible, 
responsive and innovative. They are a force multiplier for the AC, 
bringing to the Total Force valuable skills, Navy experience, and 
civilian know-how and perspective.
    My predecessors, specifically in the years since the attacks of 9/
11, have laid a strong foundation for a Reserve Force that is more 
operational and closely integrated with the AC. This is critical to the 
success of the Navy Total Force. The Navy Reserve represents almost 16 
percent of Navy's total military endstrength, while comprising only 2.5 
percent of the total Navy budget. With a ready, responsive Reserve 
component (RC), the Navy is able to leverage affordability and manage 
risk. This is particularly valuable given the current fiscal 
uncertainties facing our country today.
    The Reserve component is aligned with the CNO's Sailing Directions 
and the three tenets put forth therein: ``Warfighting First, Operate 
Forward, and Be Ready.'' Our foremost goal is to make sure we are ready 
to answer the call when asked to provide support for Fleet or Joint 
requirements. Whether that means taking on a greater share of the 
Navy's Individual Augmentee (IA) requirements or taking an active role 
in emerging missions, our Sailors are ready. We continue to work with 
the AC to ensure we have Sailors in the right ratings, trained and 
ready for tasking. As a Navy Reserve, we are, and will continue to be, 
true to our motto: ``Ready Now. Anytime, Anywhere.''
                           warfighting first
    The CNO's number one tenet is ``Warfighting First.'' The Navy 
Reserve must be ready to fight and win today, while building the 
capabilities to meet tomorrow's threats. This is the Navy's primary 
mission and our efforts must be grounded in this fundamental 
responsibility. Our Sailors provided more than 5.62 million man-days of 
support to Navy missions worldwide in 2012, to include 3,740 Reserve 
Sailors deployed as an IA in support of Global Force Management 
Allocation Plan (GFMAP) requirements. Every theater and Combatant 
Command Area of Responsibility (AOR) received Reserve IA support. Since 
September 11, 2001, the RC has completed more than 66,000 individual 
mobilizations, and over 5,000 Sailors have completed multiple Active 
Duty recalls.
    The Navy Reserve provides daily operational support and is a potent 
force multiplier that is leveraged on a daily basis to support Navy 
missions. Examples of the Navy Reserve's support to Navy and Joint 
Warfighting efforts include:
  --RC Sailors are currently augmenting the first LCS deployment aboard 
        USS Freedom (LCS 1). Additionally, RC personnel are serving 
        aboard the Navy's Afloat Forward Staging Base (interim) USS 
        Ponce, deployed to the 5th Fleet AOR.
  --Two Navy Reserve helicopter squadrons, HSC-84 and HSC-85, serve as 
        the Navy's only dedicated air support to Special Operations 
        Forces (SOF). In this capacity, they have deployed continuously 
        in support of Overseas Contingency Operations since 2003, 
        amassing over 13,800 combat flight hours. HSC-84 recently 
        transitioned to a different part of the U.S. Central Command 
        (CENTCOM) AOR to perform a critical role in overseas 
        contingency requirements, specifically for crisis response and 
        partner nation engagement in support of theater objectives and 
        Contingency Plans. HSC-85 will play a key role in the Navy's 
        rebalancing to the Asia-Pacific theater by providing similar 
        support to Naval Special Warfare (NSW) forces and other joint 
        and coalition partners in the region.
  --Critical to Navy's role in Information Dominance and Cyber Warfare, 
        Reserve units aligned with the Defense Intelligence Agency 
        (DIA) stood up the Joint Military Analysis Cell (JMAC) in late 
        2011 at Rome, New York Joint Reserve Intelligence Center. The 
        JMAC serves as a ``reach-back'' intelligence cell to support 
        forward deployed National Guard Infantry Brigade Combat Teams 
        (IBCT) deployed to Afghanistan. From March 2012 to the present, 
        the JMAC has been led and manned with Navy Reserve Intelligence 
        Specialists from upstate New York. The eight-member joint cell 
        is a 24-hour operation providing real-time intelligence support 
        to the IBCT command organization in-theater and is critical to 
        reducing the footprint of troops on the ground in Afghanistan. 
        The JMAC has been recognized for its outstanding support to 
        combat operations by the Office of the Secretary of Defense 
        (SECDEF), CENTCOM, the National Guard Bureau and multiple 
        Adjutant Generals from supported States. Forward deployed units 
        presently supported in Afghanistan include the 29th IBCT out of 
        Hawaii and the 56th IBCT out of Texas.
  --Navy Reserve Sailors from NSW, Naval Criminal Investigative Service 
        (NCIS), and DIA units provided support to counter-narcotics 
        missions in Central and South America under the direction of 
        Joint Inter-agency Task Force-South (JIATF-South). These 
        various commands gather intelligence, provide analysis and 
        product development, train foreign nationals, and participate 
        in exercises. This holistic approach has led to improvements in 
        interdiction efforts throughout the region.
  --Reserve component Surface Warfare Officers (SWOs) are deployed 
        seamlessly on surface ships every day of the year. The RC SWOs 
        serve alongside AC SWOs and their integration is transparent. 
        Also deployed on surface ships are nine Selected Reservists 
        (SELRES) Supply Corps Direct Commission Officers (DCOs) 
        recalled for 3 years each to fill first tour sea billets. Over 
        the past 2 years, the AC Supply Corps has not received the 
        number of accessions it has requested. They have had to fill 
        first tour ``at sea'' billets with Senior Lieutenants and 
        Limited Duty Officers. Through this recall program the AC was 
        able to fill sea duty billets with RC officers and free up more 
        senior officers for their normal career path duties. This has 
        been a win/win for the AC and RC as it has also allowed RC 
        Supply Corps DCOs to gain valuable sea duty experience as 
        supply officers. This experience will make them a potential 
        recall asset for more senior sea billets if required later in 
        their career.
    From Reserve Sailors forward deployed in CENTCOM, to those embedded 
with NSW and DIA, the Navy Reserve is a fully integrated component of 
the Total Force's warfighting efforts across the globe.
                            operate forward
    In alignment with CNO's second tenet, the Navy Reserve is operating 
forward every day supporting the Navy's efforts to deter, influence, 
and win in challenging environments. Over the past few years, 
approximately one-quarter of our Reserve Force has been providing 
global operational support on any given day. At the peak of the 2010 
Afghanistan surge, 5,673 RC Sailors were deployed as Individual 
Augmentees. Today, 3,145 Reserve Sailors are serving as IAs, and while 
the total number is drawing down, the number of Reserve Sailors on IA 
is expected to remain approximately the same for fiscal year 2014. The 
Navy Reserve will assume most Navy IA requirements as part of the Total 
Force concept, allowing AC Sailors to fill critical billets at sea. In 
the future, as the Department of Defense winds down Overseas 
Contingency Operations (OCO), the Navy Reserve expects to continue to 
execute operational deployments on a regular basis as part of Global 
Force Management practices. Examples of the Navy Reserve's support for 
forward operations include:
  --Navy Reserve medical personnel provided critical combat care in 
        support of Combatant Commander and humanitarian and disaster 
        relief missions. Approximately 100 RC medical personnel 
        continue to staff the Navy Expeditionary Medical Unit (NEMU) at 
        Landstuhl Army Regional Medical Center (LRMC), Germany, the 
        largest military hospital outside of the continental United 
        States. NEMU RC medical personnel provide comprehensive primary 
        and tertiary care treatment for all injured U.S. 
        servicemembers, contractors, and members of coalition forces 
        serving in Afghanistan, as well as U.S. Africa Command 
        (AFRICOM), CENTCOM, and U.S. European Command. The NEMU at LRMC 
        includes the Deployed Warrior Medical Management Center which 
        coordinates patient movement for wounded, injured, and ill 
        servicemembers.
  --In a ``Navy First,'' HSL-60 recently hosted, and successfully 
        deployed, the first Reserve Fire Scout vertical takeoff 
        unmanned aircraft (VTUAV) detachment aboard the frigate USS 
        Simpson, supporting AFRICOM requirements on a 6-month 
        deployment to the Africa Partnership Station. After this 
        initial success, Commander, Naval Air Force Reserve continues 
        to provide trained RC Fire Scout personnel in support of 
        AFRICOM and SOF requirements. Ultimately, a significant 
        percentage of Reserve personnel are expected to be assigned to 
        Helicopter Unmanned Reconnaissance Squadron One (HUQ-1). The 
        squadron is being established to support SOF Intelligence, 
        Surveillance, and Reconnaissance (ISR) orbits and also serve as 
        the Fire Scout Fleet Replacement Squadron.
  --The Navy Reserve Fleet Logistics Support Wing continues to provide 
        100 percent of the responsive and time-critical airlift support 
        for worldwide Navy and Marine Corps requirements. By 
        maintaining a consistent presence in all major theatres, fleet 
        air logistics assets represent a significant cost-savings to 
        the Navy. Navy Reserve C-130T aircraft transported U.S. Marine 
        Corps (USMC) cargo and personnel in and out of Libya during 
        recent significant events, earning accolades from the Marine 
        unit leadership for the flexible support and flawless execution 
        by the aircrews. Also, two Navy C-40As surged within hours of a 
        forward deployed Navy ship running aground, transporting 
        critical parts and personnel to Puerto Princesa, Philippines, 
        to assist the recovery effort as well as evacuate crew to the 
        recovery site in Guam. In a separate action, immediately 
        following the discovery of contact mines in the harbor of 
        Tallinn, Estonia, a point of departure for many cruise and 
        commercial ships, a Navy C-130T transported Explosive Ordnance 
        Disposal Mobile Unit (EODMU) Eight to de-arm the World War II 
        era mines that European forces had deployed in the Baltic Sea 
        over half a century ago. In another example of Navy Reserve's 
        air logistics capability, a C-130T squadron utilized the 
        aircraft's unique outsized cargo capacity to assist a NSW unit 
        in transporting a Navy Mini Sub Trailer and Dry Dock Shelter 
        for SEAL Delivery Vehicle Team One's deployment in support of 
        Operation Enduring Freedom.
  --Navy Reserve Patrol and Reconnaissance squadrons, under the 
        Counter-Narcotics/Counter-Transnational Organized Crime Support 
        program, provide aircraft, aircrew and maintenance detachments 
        available for Joint Interagency Task Force South (JIATF-South) 
        tasking within the U.S. Southern Command (SOUTHCOM) AOR. The 
        program directly contributes to the airborne Detection and 
        Monitoring mission through a provision of the P-3C as an ISR 
        platform. Last year, our squadrons augmented the Active 
        component for 16 weeks.
  --HSL-60, a Reserve SH-60B squadron recently completed another ``Navy 
        first'' when they deployed with the Night Airborne Use of Force 
        capability using Night Vision Heads-Up displays. Partnered with 
        the U.S. Coast Guard (USCG) tactical law enforcement teams in 
        support of SOUTHCOM counterdrug operations, this new capability 
        enabled U.S. aircrews to interdict and disable suspect vessels 
        in international waters at night, resulting in record seizures 
        of narcotics and contraband.
  --305 sailors from Maritime Expeditionary Security Squadron (MSRON) 
        12 are currently deployed to the CENTCOM AOR. MSRON 12's 
        mission is to provide waterside and landward protection to 
        Navy, Military Sealift Command, and other designated High Value 
        Assets in the ports of Fujairah and Jebel Ali. MSRON 12 
        includes three Embarked Security Teams augmenting Commander 
        Task Group (CTF) 56.11 in Bahrain. MSRON 12's efforts are 
        essential to ensuring CENTCOM and CTF 56 Anti-Terrorism/Force 
        Protection requirements are properly supported.
  --Navy Reserve Chaplain and Religious Program Specialist (RP) teams 
        add a vital dimension to the RC's forward presence by providing 
        religious ministry, pastoral care and advice to Navy, Marine 
        Corps and Coast Guard forces. In 2012, the Reserve Chaplain/RP 
        team was deployed across the world, from the Arctic to the Horn 
        of Africa, to Senegal and Morocco, from the Caribbean to the 
        Pacific, including Afghanistan and Guantanamo Bay. The RC 
        Chaplain/RP team also provides enormous support to the Marine 
        Corps, with almost two-thirds of our Reserve chaplain and RP 
        billets assigned to the Marines. The Commandant of the Marine 
        Corps has said that when he commanded the 3rd Marine Air Wing 
        in combat in Iraq, he relied heavily on his Navy Reserve 
        chaplains and RPs, knowing he could count on them to care for 
        his Marines and their families. Since 9/11, over half of the 
        517 Chaplain/RP mobilization events were in support of the 
        Marine Corps. Mobilized Navy Reserve Chaplains and RPs make up 
        three of the four Chaplain/RP teams assigned full-time to the 
        USMC Wounded Warrior Regiment. The teams provide religious 
        ministry support to wounded, ill, and injured Marines at sites 
        across the United States and overseas. They also provide 
        training in the areas of suicide prevention, post-traumatic and 
        post-deployment stress, and combat operational stress control.
    While Reserve support for operational forces is vital to mission 
success, over two-thirds of the Reserve Force serves the Nation in a 
more traditional, yet equally important role: providing trained and 
ready capacity at an affordable cost. Our part-time Sailors offer a 
force at the ready, keeping vital capabilities available for employment 
by the combatant commanders, allowing for an affordable force at a 
manageable level of risk. These traditional Selected Reserve Sailors 
must be trained to deliver the required naval warfighting capabilities 
now and in the future and we must be ready to rapidly transition them 
to full-time status when necessary, to regenerate capabilities or 
expand elements of the Total Force.
                                be ready
    Adhering to the tenet of ``be ready,'' Navy Reserve will continue 
to harness the teamwork, talent, and imagination of our diverse force 
to be ready to respond when called. This is more than simply completing 
required maintenance and ensuring parts and supplies are available. 
Those tasks are essential, but ``be ready'' also means that Sailors are 
proficient and confident and prepared to deploy.
    An example that epitomizes the strength and flexibility of the Navy 
Reserve and demonstrates our unique ability to ``be ready'' to serve 
the Nation and compliment the Navy Total Force is the Reserve 
component's response to Super Storm Sandy.
    Within hours of the storm's landfall, 26 RC Navy Emergency 
Preparedness Liaison Officers (NEPLOs) were deployed to Federal, State, 
and local government agencies throughout the Northeast. NEPLOs provide 
Liaison Officer support to Regional Operations Centers and various 
Maritime Operations Centers across the country during natural and man-
made disasters, certain Presidential events, and regional emergency 
preparedness exercises. NEPLOs were embedded in all the affected States 
and Navy Regions affected by Sandy. They coordinated efforts to provide 
support to the Federal Emergency Management Agency, which requested 
assets and capabilities resident only in the military. As soon as the 
storm abated, RC aircrew from HM-14 flew four MH-53 helicopters from 
USS WASP to ferry first responders, vital equipment, and supplies to 
areas inaccessible by vehicle. In another mission, our Navy Reserve C-
9Bs were called to move 110 Seabees and 6,600 pounds of cargo from Port 
Hueneme, California to McGuire Air Force Base on short notice. A 
separate C-9B crew transported a P-3 Mobile Operations Control Center 
from San Diego, California to NAS Jacksonville in support of U.S. Fleet 
Forces Command efforts to survey coastal damage. Two Navy Reserve 
chaplains assigned to the USCG also participated in the USCG's response 
to Sandy. The NEPLO mission is exclusive to the Navy Reserve component 
and these flexible and responsive operations exemplified our Navy 
Reserve motto: ``Ready now. Anytime, Anywhere.''
    A critical component of the Naval Air Force's ability to operate 
forward in the warfighting arena is the skilled and proficient training 
of Naval Aviators. The Chief of Naval Air Training (CNATRA) has primary 
responsibility for this mission and is aided significantly by Reserve 
component aviators. The CNATRA RC instructors flew over 54,000 flight 
hours and 37,000 sorties, encompassing nearly 19 percent of CNATRA's 
production in fiscal year 2012. The RC provides unparalleled knowledge 
and experience to all 17 CNATRA training squadrons. Training Wing One 
(TW-1) and TW-2 Reserve Aviators executed eight Carrier Qualification 
detachments and seven Weapons detachments for the production of Navy, 
Marine, and International strike pilots. TW-4 executed a 64-day 
Familiarization/Formation detachment in Las Cruces, New Mexico, 
primarily run by RC personnel from the VT-27 and VT-28 RC Squadron 
Augmentation Units (SAU). TW-5 finished up the successful transition 
from the T-34C to the new T-6B trainer aircraft. This was a 3-year 
evolution that relied heavily on the RC to augment production while 
both AC and RC instructors qualified in the new aircraft.
    In addition to RC contributions to primary and strike flight 
training, Naval Air Force Reserve provides fully 80 percent of the 
adversary support for all tactical training requirements for the Navy. 
In fiscal year 2012, Navy Reserve's four adversary squadrons provided 
more than 11,000 sorties and almost 13,000 flight hours in support of 
28 fleet detachments. These include Carrier Air Wing Strike Fighter 
Advanced Readiness Program events, fleet replacement pilot production, 
Navy Fighter Weapons School (TOPGUN), and Strike Fighter Weapons School 
training. Additionally, they develop new capabilities and tactics to 
provide fleet customers with unmatched training and exposure to 
realistic tactical scenarios and modern threat systems.
    The Navy Reserve is a force for innovation across all spectrums, 
but it is especially evident in the area of Information Technology 
(IT). The Navy Reserve has led in several IT initiatives to improve 
cost-effective anytime, anywhere access to the tools required to do 
work. The Navy Reserve has completed the first DOD-approved wide scale 
commercial Wi-Fi access deployment to Navy Reserve facilities. This 
project provides SELRES the capability to complete their Navy Reserve 
training and readiness requirements at a fraction of the expense of 
equipping each member with an individual workstation while 
simultaneously improving Sailor productivity. Also, the updated 
technology employed in the new Navy Reserve Homeport (NRH) will 
maximize the efficiency and effectiveness of the force through easier 
and more secure information resource management and improved sharing 
capabilities. Deployment of the NRH is the Navy's first fully certified 
and accredited instance of Microsoft's SharePoint 2010 collaboration 
solution. This Navy Reserve web portal provides both public and private 
facing sites for information sharing, collaboration, and communication 
and serves as the single entry point to access critical Navy Reserve 
information and applications.
    In order for our Sailors to ``be ready,'' they must be prepared to 
deploy in all facets of their lives. Our approach to supporting our 
Sailors for deployment is holistic. We have programs to support 
Sailors, their families, and their transitions between the Active and 
Reserve components, before and during mobilizations, and back to home 
life and civilian employment (when applicable). Many of these programs 
fall under the concept of Continuum of Service (CoS). Continuum of 
Service is a transformational approach to personnel management that 
provides opportunities for seamless transitions across service status 
categories (Active Duty, Selected Reserve, Recalled Reserve, Individual 
Ready Reserve, Retired Reserve) designed to meet mission requirements 
and encourage a lifetime of service.
    CoS provides flexible service options and improves life-work 
balance, which in turn helps Sailors. Everyone reaches decision points 
during their careers, and many who serve desire career options other 
than the ``24/7/365 or nothing'' proposition. CoS provides both full-
time and part-time service opportunities, depending on the Navy's needs 
and the Sailor's own personal desire. This supports CNO's vision of a 
seamless Navy Total Force that is valued for their service, and enables 
them to volunteer for meaningful work that supports the Navy mission.
    CoS makes service easier for Sailors by identifying and eliminating 
barriers impacting their desire and ability to serve. For the Navy, CoS 
enhances readiness and minimizes personnel costs by building a Total 
Force team of trained and experienced professionals, ensuring that the 
right Sailors with the right skills are in the right job at the right 
time.
    Critical to fully realizing the CoS and the Navy Total Force 
concept is the Integrated Pay and Personnel System (IPPS-N). IPPS-N is 
not a single system in itself, but a strategy to support the 
modernization of personnel accounting systems and procedures. The Navy 
Reserve continues to support the Chief of Navy Personnel in the 
analysis and reengineering of pay and personnel processes and the 
development of this common pay and personnel system for all Active and 
Reserve personnel. The Navy has chosen to incrementally migrate 
functionality from existing legacy systems into the current Navy 
Standard Integrated Personnel System to achieve the single pay and 
personnel system goal of IPPS-N. As an example of these efforts, work 
is currently underway for a common and integrated Electronic Drill 
Management and electronic Page 2 (Dependency Application and Record of 
Emergency Data) capability expected to be delivered by the beginning of 
fiscal year 2014, which will significantly reduce the administrative 
burden on Sailors and Navy Operational Support Center (NOSC) staffs.
    The FleetRIDE (Fleet Rating Identification Engine) for SELRES 
program also supports CoS. FleetRIDE for SELRES is an online career 
management tool which provides Reserve Sailors with information about 
their career options, facilitating a Sailor's choice to request 
conversion into ratings with the greatest need and best opportunity for 
advancement. Working with a Career Counselor, SELRES and Volunteer 
Training Unit Sailors use FleetRIDE for SELRES to determine if it is in 
their best interest to convert into another rating for which they are 
qualified or to continue in their current rate. The Navy is helped by 
allowing eligible, qualified Sailors to convert to an undermanned 
rating. By allowing this voluntary conversion from overmanned or highly 
manned ratings to undermanned ratings, Navy Reserve increases ``Fit''--
matching a Sailor's skillset with a specific billet that requires those 
skills--and stands better able to support the Fleet.
    In an effort to ensure the overall health and well-being of the 
Reserve Force and their families, we are committed to caring for 
Sailors before, during, and after deployment. This is a comprehensive 
approach embodied in the Yellow Ribbon Reintegration Program (YRRP). 
The YRRP provides Reserve members and their families with sufficient 
information, services, referral, and proactive outreach opportunities 
throughout the entire deployment cycle. The YRRP consists of 
informational events and activities, as well as resource providers to 
provide on-site assistance during the events, for members of the 
Reserve components of the Armed Forces and their families to facilitate 
access to services supporting their health and well-being through all 
phases of deployment.
    Prior to departure, Sailors attend Deployment Readiness Training 
(DRT) events, designed to educate and provide information that bolsters 
the readiness of military personnel, their families, designated 
representatives, and employers for the rigors of deployment and the 
challenges of separation. Topics covered include medical and dental 
services, life insurance enrollment, youth programs, and psychological 
health. To date, almost 125,000 military and family members have 
received training through 448 DRT events.
    The Command Individual Augmentee Coordinator (CIAC) is the first 
point of contact for IAs and their families. The CIAC acts in concert 
with the command's Ombudsman to provide support and assistance to IA 
Sailors before, during, and following deployment. During the pre-
deployment phase the CIAC reviews the IA Sailor's orders with him/her 
and helps ensure all administrative preparation is complete. In the 
deployment phase, the CIAC contacts the Sailor a minimum of once every 
30 days to answer questions, provide moral support, and maintain the 
Sailor's connection to his/her home command. The CIAC also provides 
periodic contact with the Sailor's family to ensure they are informed 
and supported while the Sailor is away. The CIAC maintains contact with 
Sailors and families throughout the deployment phase and for 9 months 
after the Sailor has returned.
    Upon return from deployment, Sailors are invited to attend a 
Returning Warrior Workshop (RWW), an off-site weekend retreat program 
developed by the Navy Reserve. The purpose of the RWW is to facilitate 
the reintegration of Sailors back into their family, home, workplace, 
and Navy unit. The RWWs also assist in identifying psychological health 
issues, provide the opportunity for follow-on services (if needed), and 
honor members and families for their sacrifices and support. RWWs are 
hosted throughout the country by Reserve component Commands and are a 
chance for Sailors and their guests to talk with their shipmates who 
have had similar experiences. Attendees are presented with a host of 
information and resources available to assist with their transition 
back to stateside life. For those struggling with physical, 
psychological, or emotional challenges, confidential sessions with 
counselors are provided throughout the event. Since inception, the Navy 
Reserve has held 106 RWWs for 12,849 attendees. Supported by evaluation 
questionnaire data, the RWW has been enormously successful in meeting 
its goals and has been described as a ``best practice'' within the DOD 
YRRP.
    As a further measure of assistance, following Sailors' return from 
deployment, the Employer Support of the Guard and Reserve (ESGR) 
provides several key services that enhance the cooperation and 
understanding between civilian employers and Navy Reserve Sailors. ESGR 
acts as non-biased arbiter for the resolution of conflicts arising from 
an employee's military commitment. It also provides services to promote 
and enhance employer support of military service in the Guard and 
Reserve. The newest of these services is the Hero to Hired (H2H) 
program that establishes an online network connecting military-
supportive employers with servicemembers looking for jobs. To date, 
1,560 Navy Reservists have taken advantage of H2H. ESGR has also 
instituted a nationwide network of Employee Transition Coordinators 
that provide one-on-one guidance for all servicemembers returning from 
deployment to assist them in finding a job.
    The Bureau of Medicine and Surgery's Reserve Psychological Health 
Outreach Program (PHOP) has been established to ensure that Reserve 
Sailors and their family members have full access to appropriate 
psychological healthcare services to increase resilience and facilitate 
recovery, which is essential to maintaining a ready Navy Reserve. 
Services include psycho-educational briefings, Behavioral Health 
Screenings (BHS), and phone/e-mail follow-up to ensure clients have 
received the information, resources and services they need to enhance 
their state of wellness and readiness. In fiscal year 2012, PHOP 
Outreach Teams conducted 297 NOSC and Navy Mobilization Processing Site 
visits and briefed almost 10,000 Reserve Sailors and family members. 
During that same time period, the PHOP teams facilitated 17 RWWs, 
conducted almost 800 BHSs, made over 5,000 demobilized client outreach 
calls, and over 10,000 other contacts which included successful follow-
up with current clients, and collateral contacts with commands.
    Another program supporting Sailors through transitional times is 
Transition Goals, Plans, Succeed (T-GPS). This is a DOD Total Force 
program; all AC and RC servicemembers who are mobilized/activated on 
Active Duty for more than 180 continuous days are required to attend T-
GPS before separation. Participation in T-GPS may commence as early as 
24 months prior to retirement and 12 months prior to separation. T-GPS 
is a crucial element of the President's plan under the Vow to Hire 
Heroes Act to reduce veteran unemployment levels, and bolster and 
standardize the transition support that Sailors receive in order to 
fully prepare them for civilian employment. T-GPS is a comprehensive, 
mandatory program that includes pre-separation counseling, a military-
to-civilian skills review, a Department of Veterans Affairs benefits 
briefing and application sign-up, financial planning support, job 
search skills building, and individual transition plan preparation. The 
elements of this program work together to achieve career readiness 
standards which will better equip the servicemember for their 
transition to civilian life.
    The Navy Reserve continues to promote a safe environment for all 
Sailors, and is placing focused attention on Sexual Assault Prevention 
and Response (SAPR). The Navy remains consistent in the message from 
leadership at all levels that sexual assault absolutely will not be 
tolerated. I want to thank you for your emphasis on sexual assault 
prevention programs in the fiscal year 2013 National Defense 
Authorization Act that help amplify this message. The RC, as a member 
of the SAPR cross functional team, was fully involved in the revision 
of the governing DOD directive. Navy Reserve Sailors participated in 
the development, roll-out, and delivery of SAPR-Leadership and SAPR-
Fleet training for the Navy. Their support was integral to the 
development of leadership briefings, policy creation, and public 
affairs products. Reserve Sailors assigned to Center for Personal and 
Professional Development provided crucial support for SAPR Bystander 
Intervention ``Train-the-Trainer'' events, acting as instructors and 
support staff. This participation allowed Reserve specific issues to be 
directly addressed in the recently revised training manual. A few of 
the stand out items addressed in the revision are: development of a 
dedicated chapter to address Reserve component idiosyncrasies, and 
specifying that SELRES victims of sexual assault are eligible for 
advocacy services regardless of duty status at the time of the assault.
    The Navy is concerned about the rise in military suicides and is 
closely tracking trends among its members. Specifically, the Navy 
Reserve continues to take a deeper look at suicidal behaviors and 
studying the outcomes of members exhibiting gestures or ideation. The 
Navy has a comprehensive strategy to combat suicide, incorporating four 
pillars: education and awareness; operational stress control; 
intervention; and post-intervention support. Navy's Suicide prevention 
approach builds Sailor, family, and command resilience with a goal of 
changing behavior through peer to peer support; leadership intervention 
throughout the chain of command; enhancing family support; and 
fostering a command climate where help-seeking behaviors are encouraged 
in order to restore personal readiness. Command Assessments now include 
a review of a unit's suicide prevention program as a separately 
evaluated element.
                         reserve force manning
    The key to a capable, responsive Reserve Force is in our Sailors. 
Recruiting and retaining quality Sailors is critical to our mission. In 
order to achieve a drilling Reserve force that meets Navy requirements, 
the Navy Reserve has been aggressively addressing personnel inventory 
to meet the demands of the Fleet. By paying close attention to AC and 
RC retention, and coordinating effectively with Commander, Navy 
Recruiting Command on appropriate recruiting goals for the Reserve 
Force, Fit over Fill (the right Sailor vice any Sailor) has been 
emphasized to recruit and retain the right Sailors to meet the Fleet's 
needs. Over the last 2 years, Enlisted Fit has gone up by 7.4 percent 
while maintaining attrition below that of the previous 5 years.
    For Officers, there are still shortfalls to address. The Navy 
Reserve continues to face challenges with attaining Unrestricted Line 
(URL) officer recruiting goals. There are many contributing factors to 
this trend. Active Component officers are choosing to ``Stay Navy'' as 
retention of qualified officers on Active Duty remains above historical 
norms. This retention, a ``good news'' story on the whole for the Navy, 
does complicate Reserve recruiting efforts, especially for URL Officers 
(Surface, Submarine, Aviation, and Special Warfare Officers) since they 
must be assessed into the RC from the Active Component. As the pool of 
officers separating from the AC stays small due to high retention, 
affiliation bonuses are critical to ensure the Navy Reserve attracts 
quality officers. Navy Reserve issued 439 bonus contracts in 2012, 
representing 31 percent of our 2012 general officer recruiting goal.
    Reserve healthcare professional recruiting, primarily for Medical 
Corps officers who specialize in emergency medicine and surgical 
subspecialties, remains our greatest recruiting challenge. 2012 year-
end healthcare professional inventory was 91 percent of requirements. 
Recruiting of healthcare professionals, while having a very successful 
year compared to the recent past, achieved about 87 percent of 2012's 
goal. The Navy Reserve has used recruiting and affiliation bonuses and 
special pays (Loan Repayment, Stipends) to attract transitioning AC 
healthcare professionals into the RC and offset healthcare subspecialty 
shortages in the civilian healthcare community. AC retention in 
healthcare professionals remains high and decreases potential NAVETS 
transitioning to the RC. Historically low (12 percent) RC healthcare 
professional attrition has been significantly aided by critical skills 
retention bonuses. Navy Reserve issued 337 healthcare professional 
bonus and special pay contracts in 2012.
    We continue to review processes and requirements to produce the 
force needed today and in the future. Officer Sustainment Initiatives 
have been held across all designators, and the Direct Commission 
Officer demand signal has been increased where feasible. DCO accessions 
offset increased AC retention in Restricted Line and Staff communities. 
The skill sets needed in the Reserve Force will continue to be shaped 
by the evolving strategic requirements of the Total Force.
                          equipping our force
    Ensuring the Reserve Force has the proper equipment to support and 
win our Nation's wars is one of my ongoing priorities. I thank Congress 
for the support they provide the Navy Reserve. In particular, the Navy 
has benefited greatly from Congress's support for recapitalizing Fleet 
Logistics aircraft by procuring C-40A aircraft. The C-40A ``Clipper'' 
is a Navy Unique Fleet Essential Airlift (NUFEA) aircraft that provides 
flexible and time-critical intra-theater air logistics support to Navy 
Fleet and Component Commanders as well as logistical support for the 
Navy Fleet Response Plan. The C-40A is a medium-lift aircraft, equipped 
with a cargo door and capable of transporting up to 36,000 pounds of 
cargo, 121 passengers, or a combination of each. The C-40A is the 
designated replacement for Navy Reserve legacy C-9B and C-20G aircraft. 
Recapitalization of these aging aircraft is necessary due to increasing 
operating and maintenance costs, decreasing availability, and the 
inability to meet future avionics/aircraft noise mandates required to 
operate C-9B's worldwide. The C-40A offers significantly increased 
range, payload, and reliability, as well as the unique capability of 
carrying hazardous cargo and passengers simultaneously. Navy C-40A 
detachments are forward-deployed 12 months per year to provide around-
the-clock support, particularly to the United States 5th, 6th, and 7th 
Fleet AORs. Additionally, these aircraft are integral first-responder 
assets in Humanitarian Assistance/Disaster Relief missions. Two 
additional aircraft are required to complete the minimum, risk-adjusted 
C-40A procurement plan of 17 aircraft, which will allow Navy to 
complete the divestment of the C-9Bs and C-20Gs. Congressional support 
for the Navy Reserve C-40A program has placed the fleet closer to 
realizing a more capable and cost-efficient NUFEA capability.
    The National Guard and Reserve Equipment Account (NGREA) has been 
used to modernize and recapitalize the Reserve Naval Construction 
Force, Navy Expeditionary Logistics Support Group, and Coastal Riverine 
Force, as well as to procure NSW weapons, equipment for Mobile Training 
and Maritime Civil Affairs teams, and communications gear. NGREA was 
also used to purchase expeditionary warfighting equipment for the Naval 
Expeditionary Combat Enterprise in support of operations in Iraq and 
Afghanistan, and training upgrades in support of the F-5N and F/A-18A+ 
adversary mission.
                         looking to the future
    As our Nation's military strategy evolves in response to an ever 
changing world, we continuously evaluate new and existing capabilities 
that can reside in the Navy Reserve to best support our maritime 
service. Anticipating the pivot to Asia, we recently stood up nine new 
units and expanded three others. Some of these units will support 
Littoral Combat Ships while others will address the Fleet's 
intelligence and planning requirements in the Pacific.
    Other missions with potential growth are in unmanned systems, 
Cyber, and Ballistic Missile Defense. We'll support Fleet requirements 
that match our capabilities: where we have the skill sets (or can build 
them); work that does not have an extensive pre-deployment training 
requirement; and work that is periodic and predictable. I see great 
opportunities ahead for Navy Reserve Sailors to serve.
    The 2013 Navy Reserve Strategic Plan fully supports the CNO's 
tenets of ``Warfighting First, Operate Forward, and Be Ready'' through 
its focus on people, readiness and resources. This focus is supported 
by three Strategic Focus Areas: deliver a ready and accessible force; 
provide valued capabilities; and enable the service of our sailors and 
civilians. In support of continued progress toward the vision for the 
Navy Reserve, six initiatives will advance our three strategic focus 
areas throughout 2013.
    We will enhance our ability to Deliver a Ready and Accessible Force 
by exploring cloud computing technology options to improve access to 
Government IT assets and increase our ability to share information 
while rapidly responding to emerging opportunities and missions. 
Additionally, the personnel assignment process and policies are under 
review to ensure placement of Navy Reserve Sailors maximizes 
efficiency, training, and Navy support while accounting for statutory 
requirements and the geographic dispersion of our Reserve Force.
    The focus on Providing Valued Capabilities will concentrate on 
developing a coordinated Navy Reserve structure and employment strategy 
to ensure efficient and effective use of Reserve assets, resources, and 
capabilities within existing and future mission areas. To this end, we 
remain actively engaged in developing foundational Reserve support for 
the Littoral Combat Ship and Ballistic Missile Defense programs as both 
of these capabilities are an essential part of the future of Naval 
Warfare.
    We will continue to Enable the Service of our Sailors and Civilians 
by building upon our previous CoS efforts. This year we will initiate a 
comprehensive education and communication campaign designed to increase 
awareness of the capabilities, value, and structure of the Navy Reserve 
at all levels from key influencers to individual Sailors. In addition, 
as we look to capitalize on civilian skill sets and experience through 
the Direct Commission Officer Program, we will ensure the training 
provided through the DCO Indoctrination Process is aligned, relevant, 
and standardized to address current operational needs.
    Through these initiatives we will enhance our force-wide 
effectiveness, remove barriers to service, assist in identifying the 
optimum Reserve to Active Force mix and fully support our Sailors and 
their families, while providing the Navy with access to operational 
capabilities that are ready to surge forward as world events require.
    Our proud heritage of providing the Navy with strategic depth and 
operational capabilities will continue to serve as the cornerstone of 
our mission. As the conflict in Afghanistan winds down and resources 
are realigned within the Department of Defense, the Navy Reserve will 
continue to work with leadership to determine the capabilities that 
should reside in the Navy Reserve and where the Navy Reserve can best 
support Navy's mission.
                               conclusion
    Thank you for the opportunity to provide testimony today. Every 
day, I stand in awe of our Sailors and civilians in the Navy Reserve, 
their accomplishments, and the sacrifices they and their families make 
on behalf of our country.
    From our deployed RC SEAL teams, Maritime Expeditionary Security 
Squadrons forward-deployed to AFRICOM and CENTCOM, P-3 detachments 
mobilizing to support 5th and 7th Fleet while their AC counterparts 
transition to the new P-8A aircraft, or RC Sailors serving on the first 
deployment of LCS-1 to Singapore, the Navy Reserve is an integral part 
of our Navy's mission around the world. Whether providing individuals 
and units for operational fleet deployments, or acting as the 
``strategic bench,'' ready when called to employ vital capabilities in 
response to natural disasters at home or conflicts abroad, we stand 
ready as an indispensable member of the Navy Total Force.
    We live in a challenging fiscal environment, yet the need for a 
professional and ready Navy Reserve force is as important as ever. I am 
honored to lead this organization and our Sailors as we continue to 
provide cost-effective support to the Navy Total Force. On behalf of 
the Sailors, civilians and families of your Navy Reserve, I thank 
Congress for your continued support.

    Senator Durbin. Thanks, Admiral.
    Next is Chief of the Marine Corps Reserve, Lieutenant 
General Steven Hummer.
STATEMENT OF LIEUTENANT GENERAL STEVEN A. HUMMER, 
            DIRECTOR, RESERVE AFFAIRS, UNITED STATES 
            MARINE CORPS
    General Hummer. Chairman Durbin, Vice Chairman Cochran, and 
distinguished members of this subcommittee: It is my honor to 
report to you on the state of the Nation's Marine Corps Reserve 
and our reservists who enthusiastically and professionally 
contribute to the balanced air-ground-logistics team that 
underscores our Nation's expeditionary force in readiness: the 
United States Marine Corps.
    Mr. Chairman, we welcome your leadership and I am very 
grateful to your support and the subcommittee's continued 
support of the Marine Corps Reserve and its associated 
programs, which help to sustain a ready, relevant, and 
responsive Reserve force.
    With me today are my two senior enlisted advisors and 
leaders: Force Sergeant Major James E. Booker and Command 
Master Chief Eric E. Cousin. These gentlemen epitomize the 
Navy-Marine Corps team and proudly represent our service's 
enlisted marines and sailors who, collectively, form the 
backbone of the Marine Corps Reserve.
    I remain deeply impressed by the professionalism, 
competence, and dedication of our magnificent reservists. Like 
their Active Duty brothers and sisters, they sacrifice so much 
of their time, so much of themselves to protect and serve our 
great Nation.
    The way they balance their family responsibilities, 
civilian lives, and occupations and still stay Marine inspires 
me. They do it with humility, without fanfare and with a sense 
of pride and dedication that is consistent with the great 
sacrifices of Marines of every generation.
    Today, your Marine Corps Reserve continues to serve as an 
integral part of the Total Force, and is an operationally 
focused force, whether it is integrated with Marine forces in 
Afghanistan, serving as an air-ground-logistics taskforce in 
Africa, fulfilling training and advising roles with security 
cooperation teams in direct support of combatant commanders' 
requirements.
    We don't differentiate. All Marines, whether Reserve or 
Active component, are disciplined, focused, and lethal. We are 
a Total Force, and as such, the Marine Corps Reserve continues 
to be integrated in all areas of the Marine Corps.
    As of March 1 of this year, almost 62,000 Marines from the 
ready Reserve have executed a total of 81,000 sets of 
mobilization orders in the last decade. We continue to enjoy a 
strong demand for affiliation, as seen by increased accessions 
from the Active component, as well as a historic high rate of 
retention.
    Our retraining, our in Active Duty travel reimbursement, 
our bonuses and incentive programs for Reserves, are essential 
tools in achieving nearly 100 percent of our authorized end-
strength in fiscal year 2012. The continued use of these 
incentives and programs are critical enablers for us as we seek 
to optimally align our inventory to requirements and maintain 
individual and unit level readiness.
    The National Guard and Reserve Equipment Appropriation 
(NGREA) continues to be an important element of the Total Force 
Marine Corps to modernize and equip the Reserve component. 
NGREA assures maximum interoperability and balance between the 
Active and Reserve components.
    As articulated in our fiscal year 2014 National Guard and 
Reserve Equipment report, the NGREA funding remains a 
significant force multiplier for Marine forces by enabling the 
Marine Corps to balance requirements from a Total Force 
perspective.

                           PREPARED STATEMENT

    With your continued support, I am highly confident your 
Marine Corps Reserve will remain ready, relevant, and 
responsive, and continues to serve as an essential shock 
absorber for the Active component, while being fully vested in 
the Total Force Marine Corps.
    Thank you for your demonstrated support for our reservists, 
their families, and their employers.
    Semper fidelis, and I look forward to your questions.
    [The statement follows:]
       Prepared Statement of Lieutenant General Steven A. Hummer
    Chairman Durbin, Ranking Member Cochran, and distinguished members 
of the subcommittee, it is my honor to report to you on the state of 
the Nation's Marine Corps Reserve and our Reservists, who 
enthusiastically and professionally contribute to the balanced air-
ground-logistics team that underscores the Nation's Expeditionary Force 
in Readiness--the U.S. Marine Corps. Although the present times are 
difficult due to fiscal impacts on the Marine Corps, I am extremely 
grateful for your continued support of our Corps. I am especially 
appreciative of Congress's leadership in providing enhanced Department 
of Veterans Affairs (VA) healthcare benefits to servicemembers for 5 
years from the date of their discharge or separation date from Active 
Duty service. Your continued support helps to sustain us as a ready, 
relevant, and responsive Reserve Force that is an essential shock 
absorber for the Total Force Marine Corps.
                              introduction
    I share the sentiment Commandant of the Marine Corps General James 
F. Amos stated in testimony before Congress this year--the Marine Corps 
provides an insurance policy to the American people. As an integral 
part of the Total Force, Marine Forces Reserve plays a key role in 
providing that insurance policy. We have been fully engaged on the 
global stage for more than a decade now, serving as the essential shock 
absorber for the Active Component, and 2012 was no different. 
Reservists from each of our major subordinate commands--4th Marine 
Division, 4th Marine Aircraft Wing, 4th Marine Logistics Group, and 
Force Headquarters Group--made a tremendous impact across a diverse 
spectrum of operations in support of combatant commander operational 
and theater security cooperation requirements and Service commitments.
    The Marine Corps' commitment to the American people is as strong 
today as ever in its 237-year history. That commitment is backed 
equally by bold Active and Reserve component Marines and Sailors who 
are experienced in taking the fight directly to the enemy across the 
globe since 2001. Our Marines have been doing what they have done best 
since 1775: standing shoulder-to-shoulder to fight and win the Nation's 
battles. We don't differentiate; all Marines--whether Reserve or Active 
Component--are disciplined, focused, and lethal. We are a Total Force, 
and as such, the Marine Corps Reserve continues to be integrated in all 
areas of the Marine Corps.
    I am deeply impressed by the professionalism, competence, and 
dedication of our magnificent Reservists. Like their Active Duty 
brothers and sisters, they sacrifice so much of their time--and so much 
of themselves--to protect and serve our great Nation. The way they 
balance their family responsibilities, civilian lives, and 
occupations--and still stay Marine--inspires me. They do it with 
humility, without fanfare, and with a sense of pride and dedication 
that is consistent with the great sacrifices of Marines of every 
generation.
    The priorities outlined by General Amos in his 2013 Report to 
Congress on the Posture of the United States Marine Corps inform the 
priorities I've outlined for Marine Forces Reserve to ensure today's 
Marine Corps Reserve remains an agile and fully engaged component of 
the Total Force that is necessary for modern combat and operational 
requirements. The priorities outlined by the Commandant are:
  --Continue to provide the best trained and equipped Marine units to 
        Afghanistan;
  --Continue to protect the readiness of our forward deployed 
        rotational forces within the means available;
  --Reset and reconstitute our operating forces as our Marines and 
        equipment return from more than a decade of combat;
  --Modernize our force through investments in human capital and by 
        replacing aging combat systems; and
  --Keep faith with our Marines, our Sailors and our families.
    I believe Active Component Marines and senior leadership at all 
levels appreciate a highly experienced and competent Reserve Force. As 
an integral element of the Total Force Marine Corps, our Marines and 
Sailors share the culture of deployment and expeditionary mindset that 
has dominated Marine Corps culture, ethos and thinking since our 
Service's beginning more than two centuries ago. Accordingly, the U.S. 
Marine Corps Reserve is organized, manned, equipped, and trained, like 
our Active Duty brethren, to provide a professionally ready, 
responsive, and relevant Force as a Marine Corps solution to enable 
joint and combined operations. We are, and will remain, a key component 
in the Corps' role as the Nation's Expeditionary Force in Readiness.
                        total force integration
    Since 2001, this great Nation required its Marine Corps Reserve to 
be engaged in combat operations in Iraq and Afghanistan, as well as in 
regional security cooperation and crisis prevention activities in 
support of the various geographic combatant commanders. This 
operational tempo has built a momentum among our warfighters and a 
depth of experience throughout the ranks that is unprecedented in 
generations of Marine Corps Reservists.
    As of March 1, 2013, 61,857 Marines from the Ready Reserve have 
executed a total of 80,935 sets of mobilization orders. This 
operational tempo has enabled Marine Forces Reserve to remain an 
operationally relevant Force over the last 12 years. In the operational 
role, Marine Forces Reserve has sourced preplanned, rotational, and 
routine combatant commander and Service requirements across a variety 
of military operations. We routinely supported operations in 
Afghanistan and Iraq while sourcing other combatant commander 
requirements worldwide, such as Special Purpose Marine Air Ground Task 
Force (SPMAGTF) in support of U.S. Africa Command; Georgia Deployment 
Program in support of U.S. European Command; Unit Deployment Program in 
support of U.S. Pacific Command; and Security Cooperation Teams in 
support of U.S. Southern Command, U.S. Northern Command, and U.S. 
Central Command. Additionally, Marine Forces Reserve has continued to 
support global combatant commander exercise and theater security 
cooperation requirements, which increase our operational readiness 
while enabling Total Force integration and the rapid transition to 
operational roles and support to major contingency operations.
    During this past year, Marine Forces Reserve operations continued 
on a high operational tempo as we supported all of the geographic 
combatant commanders across the globe. Our four major subordinate 
commands were called upon to provide 2,815 Marines and Sailors to 
support combatant commander operational requirements, and we plan to 
deploy 1,375 Marines and Sailors during 2013. In addition, Marine 
Forces Reserve will deploy thousands of Marines to a multitude of 
theater-specific exercises and cooperative security events that are 
designed to increase interopability with our allies, as well as for 
developing Theater Security Cooperatives in Morocco, South Africa, 
Uganda, Burandi, Senegal, Romania, Georgia, Mexico, Honduras, 
Guatemala, El Salvador, Ecuador, Jordan, and with our partners 
throughout the Pacific Rim.
    Marine Forces Reserve's operational focus will continue to directly 
support the geographic combatant commanders in various roles that 
include multiple bilateral exercises, such as African Lion in Morocco, 
and Sang Yong in South Korea. The way ahead for Marine Forces Reserve 
includes deploying forces to meet high priority combatant commander 
requirements while providing continued support to Operation Enduring 
Freedom (OEF). Principal among these combatant commander requirements 
is the deployment of an air-ground-logistics task force in support of 
U.S. Africa Command, forward deploying a F/A-18 fixed wing squadron and 
a CH-53E rotary wing detachment, as part of the Unit Deployment Program 
in support of U.S. Pacific Command, and sending a detachment of highly 
qualified Marines to Europe to train Georgian forces prior to their 
deployment for OEF.
    In addition to operational requirements, Marine Forces Reserve 
personnel and units conducted significant regional and more than 960 
local community relations events nationwide during 2012. Due to the 
command's unique geographic dispersion, Marine Forces Reserve personnel 
and units are advantageously positioned to interact with the American 
public, telling the Marine Corps story to our fellow citizens who 
typically have little or no contact with the Marine Corps. Therefore, 
for the preponderance of the American public, their perception of the 
Marine Corps is informed by dialogue with our Reservists during the 
myriad of community outreach events that occur throughout the year 
across the country. However, our interaction with the American public 
will be considerably reduced during 2013 as we reduce participation in 
community relations events consistent with current Department of 
Defense (DOD) policy changes and guidance.
    I would be remiss if I didn't include veterans as key components to 
our continued success in communities across the country. Veterans 
provide our personnel, Active and Reserve, with unsurpassed support and 
often serve as a communication conduit between our Marines and local 
leaders and business owners.
    In addition to participating in operational requirements across the 
globe and in community relations events here at home, our Active Duty 
Marines who are assigned to our Inspector--Instructor and Reserve Site 
Support staffs steadfastly and diligently execute the significant 
responsibility of casualty assistance. Continued operational efforts in 
OEF have required that these Marines and Sailors remain ready at all 
times to support the families of our fallen Marines in combat abroad, 
or in unforeseen circumstances at home. By virtue of our geographic 
dispersion, Marine Forces Reserve personnel are well-positioned to 
accomplish the vast majority of all Marine Corps casualty assistance 
calls and are trained to provide assistance to the families. 
Historically, our personnel have been involved in the majority of all 
Marine Corps casualty notifications and follow-on assistance calls to 
the next of kin. During 2012, our Inspector--Instructor and Reserve 
Site Support staffs performed 67 percent of the total casualty calls 
performed by the Marine Corps (281 of 418). There is no duty to our 
families that we treat with more importance, and the responsibilities 
of our Casualty Assistance Calls Officers (CACOs) continue well beyond 
notification. We ensure that our CACOs are well-trained, equipped, and 
supported by all levels of command through the combination of in-class 
and online training. Once a CACO is designated, that Marine assists the 
family members from planning the return of remains and the final rest 
of their Marine to advice and counsel regarding benefits and 
entitlements. In many cases, our CACOs provide a long-lasting bridge 
between the Marine Corps and the family while providing assistance 
during the grieving process. The CACO is the family's central point of 
contact and support, and serves as a representative or liaison to the 
funeral home, Government agencies, or any other agency that may become 
involved.
    Additionally, Marine Forces Reserve units and personnel provide 
significant support for military funeral honors for our veterans. The 
Inspector--Instructor and Reserve Site Support staffs, with 
augmentation from their Reserve Marines, performed 93 percent of the 
total funeral honors rendered by the Marine Corps during 2012 (16,067 
of 17,240). We anticipate providing funeral honors to more than 16,000 
Marine veterans during 2013. As with casualty assistance, we place 
enormous emphasis on providing timely and professionally executed 
military funeral honors support.
    We are implementing the Marine Corps' Force Structure Review (FSR), 
which evaluated and refined the organization, posture, and capabilities 
required of the Nation's Expeditionary Force in Readiness in a post-OEF 
security environment. In my written statement submitted to this 
subcommittee last year, I assured this subcommittee that Marine Forces 
Reserve is wholly aligned to work with any personnel affected by the 
FSR to locate a suitable opportunity. Accordingly, in July 2012, I 
directed the deployment of Personnel Transition Teams (PTTs) to certain 
sites that were affected by the FSR in order to expedite the transition 
process and reduce the normal friction experienced with changing units 
or re-classification of a primary military occupational specialty. 
These integrated, cross-organizational PTTs enabled us to keep faith 
with our Reservists by achieving maximum re-utilization of existing 
manpower through re-classification and reassignment while streamlining 
the approval process for lateral moves and re-enlistments.
                             predictability
    The Marine Corps Reserve remains an integral part of the Total 
Force Marine Corps and continues to serve as an operationally focused 
Force whether it is integrated with Marine Forces in Afghanistan, 
serving as SPMAGTF--Africa, or filling training and advising roles with 
security cooperation teams in direct support of combatant commanders' 
requirements. Consequently, the Reserve Force continues to maintain a 
high level of operational experience as it continues to serve side-by-
side with their Active Component counterparts. However, we clearly 
recognize the potential effect of the fiscal environment on our 
operational readiness, especially as we consider how to maintain the 
operational experience of the Reserve Force that was gained over the 
previous 12 years.
    We transitioned our Force Generation Model, which was based on 1-
year activations followed by 5 years in a nonactivated status, to one 
that rotates Marine Reserve units through a 5-year training cycle to 
ensure the units and personnel are ready to meet any challenge while 
remaining operationally relevant. The Force Generation Model ``Next'' 
maintains the same capability as the previous Force Generation Model by 
annually programming the Reserve Force to have 3,000 Marines trained in 
numerous capability sets and ready to augment and reinforce a Marine 
Air Ground Task Force (MAGTF) whether in support of a contingency 
response, part of a pre-planned, budgeted for, theater security 
cooperation mission, or in support of crisis response within the United 
States.
    This Force Generation Model ``Next'' continues to provide a level 
of predictability for both planners and Reservists while maintaining 
the ``train as we fight'' philosophy. The Model provides our 
Reservists, their families, and their employers, the ability to plan 
for upcoming duty requirements in their lives 5 or more years out. This 
empowers servicemembers to achieve the critical balance between family, 
civilian career, and service to the Nation while enabling employers to 
plan for and manage the temporary loss of valued employees. The key 
element in Force Generation Model ``Next'' is the integration of 
Reserve units, detachments, and individuals into Service- and Joint-
level exercises, creating an environment of interoperability in years 
two, three, and four of the Model's cycle. The units are scheduled to 
be assessed in a culminating, integrated training exercise during the 
fourth year of the training cycle. The Force Generation Model ``Next'' 
assures integration with the Active Component in both continental and 
intercontinental deployments and training exercises and continues to 
facilitate the Total Force approach in the manner in which the Marine 
Corps achieved success in Al Anbar province, Iraq, and Helmand 
province, Afghanistan.
                               personnel
    Marine Forces Reserve comprises a large percentage of the Selected 
Reserve's (SelRes) authorized end strength of 39,600. Additionally, 
Marine Forces Reserve administers approximately 64,000 Marines who 
serve in the Individual Ready Reserve (IRR), which is projected to 
continue to increase due to the Active Component end strength draw 
down. The SelRes is comprised of Marines in Reserve units and the 
Active Reserve program, as well as Individual Mobilization Augmentees 
(IMAs) and those in initial training. The SelRes and the IRR form the 
Ready Reserve.
    We continue to enjoy strong demand for affiliation as seen by 
increased accessions from the Active Component, as well as historical 
high rates of retention. Our retraining, Inactive Duty travel 
reimbursement, bonus, and incentive programs for Reserves were 
essential tools in achieving nearly 100 percent of our authorized end 
strength in fiscal year 2012. The continued use of these incentives and 
programs are critical enablers for us as we seek to optimally align our 
inventory to our requirements, maintain individual and unit-level 
readiness, address shortfalls in staff non-commissioned officer 
leadership, and maximize deployability for our incumbent personnel. 
Complicating our alignment efforts in 2012 and expected to continue to 
do so throughout the next few years is the execution of the FSR. Our 
authorized end strength of 39,600 is appropriate for providing us with 
the personnel we require to support the Total Force while achieving the 
Secretary of Defense's goal of a 1:5 deployment-to-dwell for Selected 
Marine Corps Reserve (SMCR) units and IMAs.
    I am pleased to report that the Marine Corps/Navy Reserve team is 
as strong as ever. Marine Forces Reserve remains fully integrated with 
Navy manpower assets from the Active, Reserve, and Full-Time Support 
(FTS) communities. A total compliment of 283 officer and enlisted 
personnel from the Active Component and FTS component provides 
continuous medical and religious ministries support to the Marines and 
Sailors throughout Marine Forces Reserve. In addition, more than 1,600 
Reserve component Sailors augment Marine Forces Reserve in deployments, 
administrative functions, and major exercises with 300 of these 
positions being staffed by officers of the various medical professions. 
These invaluable Navy assets can be found at any of the 172 Marine 
Reserve sites across the United States.
    Like the Active Component Marine Corps, Marine Corps Reserve units 
rely primarily upon a first-term enlisted force. We fully expect to 
meet our SMCR unit recruiting goals again this fiscal year.
    Affiliation of our Reserve officers remains our most challenging 
area, but improvement over the previous year is significant. 
Historically, the Active Component Marine Corps has been the exclusive 
source for senior lieutenants, captains, and pilots for the Marine 
Corps Reserve and it remains a source of strength in meeting these 
requirements. Through the Marine Corps' transition assistance and 
educational outreach programs, we continue to ensure that each 
transitioning Active Component Marine is educated on continued service 
opportunities in the Marine Corps Reserve. In 2012, the Direct 
Affiliation Program was introduced as a pathway for transitioning 
officers and enlisted to affiliate with a SMCR unit just prior to 
separation, facilitating a seamless transition and transitional TRICARE 
benefits that underscores the Continuum of Service.
    Three Reserve officer commissioning initiatives focus exclusively 
on the most crucial challenge of staffing the Marine Corps Reserve with 
quality company grade officers. These Reserve commissioning initiatives 
are the Reserve Enlisted Commissioning Program (RECP), which is 
available to qualified Active Duty enlisted Marines in addition to 
qualified Reserve enlisted Marines; Meritorious Commissioning Program--
Reserve (MCP-R), which is open to individuals of the Active and Reserve 
components who have earned an Associate's Degree or equivalent in 
semester hours; and Officer Candidate Course--Reserve (OCC-R). Since 
2004, these three programs have produced a total of 561 lieutenants for 
the Marine Corps Reserve. The OCC-R program has been the most 
successful of the three Reserve commissioning initiatives, producing 
502 officers. The OCC-R program historically focused on ground billets 
with an emphasis on ground combat and combat service support within 
specific Reserve units that were scheduled for mobilization.
    Civilian Marines are critical enablers to Marine Forces Reserve's 
ability to meet Service requirements. Our civilian workforce across 
Marine Forces Reserve--more than 350 members--continues its unwaverable 
service and dedication to the Marine Reserve even during these past few 
years of uncertainty concerning pay and entitlements. They are integral 
for continuity of operations and for ensuring family readiness across 
the Reserve Force. Unfortunately, the recent budgetary upheaval and 
furlough planning has created significant stress and decline in morale 
for many of our employees; yet they remain steadfast in their 
commitment to the ideals of the Marine Reserve and our Corps.
    As the Marine Corps continues to draw down Active Component end 
strength to 182,100, the option to continue to serve in the Reserve 
component has become increasingly appealing to young Marines leaving 
Active Duty. Those approaching the end of their current contracts--
Active or Reserve component--receive more focused counseling on the 
tangible and intangible aspects of remaining associated with, or 
joining, a SMCR unit. All commanders and senior enlisted leaders across 
Marine Forces Reserve are tasked to retain quality Marines through 
example, mentoring, and information and retention programs. This takes 
place across the Marine experience, not just in the final days of a 
Marine's contract. Your continued support regarding enlistment, 
affiliation, and re-enlistment bonuses along with other initiatives 
that promote service to this great Nation greatly influences our 
ability to gain and retain the very best servicemembers. I greatly 
appreciate the continuance of these programs, especially since they are 
most likely to prove instrumental in aligning the right people to the 
right place as we realign the Reserve Force.
                               equipment
    The Commandant of the Marine Corps signed the Service's Ground 
Equipment Reset Strategy on January 1, 2012. This strategy reset the 
Force in support of the Commandant's reconstitution objectives. As the 
executive agent for the execution of this strategy, Marine Corps 
Logistics Command will ensure the timely and responsive reset of the 
Reserve component equipment to maintain a high state of readiness 
across the Force. The unique geographic dispersion of our Reserve units 
and their limited capacity to store and maintain the total warfighting 
equipment set onsite underscores the unique relationship between Marine 
Corps Logistics Command and our Reserve units. This relationship 
assures high training readiness by using a specific training allowance 
at Reserve Training Centers while maintaining the remainder of the 
warfighting requirement in enterprise-managed facilities. This strong 
relationship, which is necessary for a viable Operational Reserve, is 
inherent in the Service's reset strategy. I remain confident that 
Marine Forces Reserve will continue to meet the Commandant's first 
priority--provide the best trained and equipped Marine units to 
Afghanistan--while protecting the enduring health of the Reserve Force.
    Although we have been engaged in combat operations for more than a 
decade, our equipment readiness rates for maintenance are at 97 
percent. To be sure, this last decade has demonstrated the need to 
maintain a significant Reserve Force readiness posture, even during 
periods of little or no conflict.
    Several resources and programs combine to form the basis to the 
Marine Corps Reserve approach to maintenance. Routine preventive and 
corrective maintenance are performed locally by operator and organic 
maintenance personnel. This traditional approach to ground equipment 
maintenance was expanded to include an increasing reliance on highly 
effective contracted services and depot-level capabilities, which were 
provided by the Marine Corps Logistics Command. We continue to 
experience significant success with the Marine Corps Logistics 
Command's ``Mobile Maintenance Teams'' that have provided preventive 
and corrective maintenance support to all 172 Reserve Training Centers 
across the United States. This maintenance augmentation effort has 
directly improved our equipment readiness as well as provided valuable 
``hands on'' training to our organic equipment maintainers.
    Additionally, the Marine Corps Logistics Command's ``Enterprise 
Lifecycle Maintenance Program'' provides for the rebuilding and 
modifying of an array of principal end items, such as the Light Armored 
Vehicle, the Amphibious Assault Vehicle, and our entire motor transport 
fleet. Finally, we continue to reap significant benefits from the 
Marine Corps Corrosion Prevention and Control Program. Dollar for 
dollar, this program has proven highly effective in the abatement and 
prevention of corrosion throughout the Force. Collectively, these 
initiatives and the hard work and dedication of our Marines and 
civilian Marines across Marine Forces Reserve sustain our ground 
equipment maintenance readiness rates at or above 97 percent.
    Fiscal year 2011's $70 million in National Guard and Reserve 
Equipment Appropriation (NGREA) support was used to procure 10 Light 
Armored Vehicle Logistics variants, which completed our Light Armored 
Vehicles requirement. The funds were also used for the procurement of 
Support Wide Area Network (SWAN) command and control systems, RQ-11B 
Raven unmanned aerial vehicle systems, and various Deployable Virtual 
Training Environment systems to include virtual convoy trainers and 
weapons training simulators.
    During the current Future Year Defense Plan (FYDP), Reserve 
squadrons will begin the transition from the KC-130T to the KC-130J, 
the CH-46E to the MV-22B, and the UH-1N to the UH-1Y. In anticipation 
of the forthcoming transitions, our fiscal year 2012 NGREA funding was 
used to procure five containerized Flight Training Devices (FTDs)--one 
for the CH-53E, two for the MV-22B, and two for the UH-1Y. These 
devices will not only allow aircrews to conduct more sorties via the 
simulators/training devices, but will also allow the Reserve component 
to train with other units and aircrews as a way to reduce costs in a 
resource-constrained, fiscally diminished environment.
                                training
    Marine Forces Reserve will conduct its inaugural Service-level 
Integrated Training Exercise (ITX) in June 2013. The ITX is an assessed 
regimental-level live fire and maneuver exercise featuring Reserve 
component forces as the MAGTF elements--command, ground, air, and 
logistics. The integrated nature of the ITX will ensure maximum 
training benefit for the ground, aviation and logistics combat elements 
under the command and control of a regimental headquarters. The ITX is 
an indispensable component of our Training and Readiness (T&R) cycle 
and serves as the annual capstone exercise, which serves as the 
principal mechanism for examining our training and readiness levels as 
well as assessing our operational capabilities. The ITX also measures 
our ability to provide a cohesive MAGTF-trained and ready capability to 
the Service or combatant commander on a predictable, reliable and 
cyclical basis. Conducted aboard Marine Corps installations in the 
southwestern United States, ITX will be executed as a MAGTF deployment 
vice a compilation of numerous annual training events, with units 
participating based on their future deployment schedule according to 
the Force Generation Model ``Next.'' The ITX will provide all elements 
of the MAGTF with the opportunity to complete and be assessed in their 
core competency areas that are essential to expeditiously forward-
deploy in any operational environment. Additionally, individuals 
serving on the various staffs will receive training that will enable 
them to competently perform as individual augments to MAGTF and/or 
joint staffs overseas. Future ITXs will reflect Total Force 
integration, demonstrating interoperability of Active and Reserve 
component Marine Forces and strengthening habitual relationships 
between them. This Total Force approach is designed to promote higher 
states of readiness, quicker integration, and faster support response 
times.
    We continue to maximize our efficiencies by utilizing our training 
simulators wherever possible in order to preserve our fiscal resources. 
Marine Corps Total Force simulation acquisition objectives continue to 
ensure Marine Forces Reserve has access to train with cutting-edge 
simulator technologies. These immersive complex digital video-based 
training systems complete with the sights, sounds, and chaos of today's 
battlefield environments are particularly important considering the 
limited training time and facilities available to our commanders. 
Fielding to the Reserve component ensures Reserve Marines are training 
to the same task, condition, and standard that is applicable to Active 
Component Marines and ensures capabilities remain consistent across the 
Total Force.
    Language and culture training continues to be a significant 
investment opportunity that is showing great return on investment for 
all Marine Reservists. Through the Marine Corps-wide initiative called 
the Regional, Culture, and Language Familiarization (RCLF) program, our 
Marines will have a career-long course of study designed to ensure 
Reserve Marines are globally prepared and regionally focused in order 
to effectively navigate the culturally complex 21st century operating 
environment. Marine Forces Reserve culture and language programs are 
delivered via a variety of techniques from live instruction to portable 
media to Web-based tutorials and applications. Since last testifying 
before this subcommittee, our language and culture section is now fully 
operationally capable. This enhanced capability enables us to support 
all units within Marine Forces Reserve with virtual training and 
required testing. Additionally, we also support other DOD partners in 
their testing and training. With our Marines deploying throughout the 
globe, we access and leverage a variety of other sources of language 
and cultural training, such as the Marine Corps' Center for Advanced 
Operational Culture and Language, the Defense Language Institute, and 
Regional Language Centers. These enhanced language and culture learning 
opportunities enables our critical core competencies and postures 
Marine Forces Reserve for success in the complex operating environment 
of the 21st century.
    Last, Marine Forces Reserve has integrated safety programs in 
training to maximize Force preservation. Reduction in mishaps is one of 
our benchmark areas for Marine Forces Reserve's Culture of Responsible 
Choices initiative, which was implemented during calendar year 2012. 
The Culture of Responsible Choices initiative, which was really a 
change in mindset vice an actual new formal program, is underscored by 
every servicemember and civilian employee across the Force rethinking 
how they do business and how they conduct their lives to ensure their 
decisions lead to safe and healthy outcomes. Throughout the Force, 
leaders continue to stress the program's basic tenets of personal 
responsibility and accountability for decisionmaking and behavior--not 
only within our fence lines and work centers but at home, in leisure 
activities, and in our personal lives. Leaders have applied the Culture 
of Responsible Choices to a wide range of unhealthy and healthy human 
behaviors, such as alcohol misuse, drug use, vigorous suicide 
prevention, effective sexual assault response and prevention, sound 
financial management, tobacco use, physical fitness, and safety--at 
work, home, and on vacation. Accordingly, our continued utilization of 
the Center for Safety Excellence aboard Naval Air Station Joint Reserve 
Base New Orleans in Belle Chasse, Louisiana, where we continue to 
address the current lead cause of death of our personnel--motor vehicle 
accidents--is a tangible example of how we incorporate training to 
fully support our Culture of Responsible Choices initiative. At the 
Center, personnel receive training in the safe operation of their motor 
vehicles, which includes both cars and motorcycles. I'm pleased to 
report that from fiscal year 2011 to 2012, fatal motorcycle mishaps and 
automobile/truck fatalities were reduced by 33 percent and 31 percent, 
respectively.
                               facilities
    Marine Forces Reserve has facilities in 47 States, the District of 
Columbia, and the Commonwealth of Puerto Rico. These facilities include 
30-owned and 142-tenant Reserve Training Centers, 3 family housing 
sites, a Marine barracks, and General Officer Quarters ``A'' in New 
Orleans, Louisiana. Although some Reserve Training Centers are located 
on major DOD bases and National Guard compounds, most of our centers 
are openly located within civilian communities. The largest part of the 
facilities budget is used to maintain the existing physical plant; 
focusing on maintaining infrastructure that enables Marine Forces 
Reserve to meet Service and combatant commander operational 
requirements.
    The cost of maintaining the physical plant steadily increases with 
the age of the buildings. Ninety-three of our 172 Reserve Training 
Centers are more than 30 years old and 54 are more than 50 years old. 
Through recent adjustments in our Facilities Sustainment, Restoration, 
and Modernization (FSRM) support, we have improved the overall 
readiness of our facilities inventory and corrected some chronic 
facility condition deficiencies. The FSRM funding was used to complete 
more than 140 projects during fiscal year 2012; 169 FSRM projects will 
be initiated during fiscal year 2013. Earlier American Recovery and 
Reinvestment Act (ARRA) funding was applied to 25 Marine Forces Reserve 
projects across 11 States, which accomplished much needed repairs and 
renovations while enhancing energy efficiency. The final ARRA project 
was completed in January 2013 in Picatinny, New Jersey. Projects funded 
by ARRA included upgrades to meet anti-terrorism force protection 
standards, as well as building access compliance requirements of the 
Americans with Disabilities Act of 1990.
    The Marine Corps' Military Construction, Naval Reserve (MCNR) 
program focuses on new footprint and recapitalization of our aging 
facilities. The construction provided by Base Realignment and Closure 
(BRAC) 2005 and the annual authorization of MCNR funding have been 
important factors in improving the facilities readiness of Marine 
Forces Reserve reducing our number of inadequate or substandard-sized 
Reserve Training Centers below the 60-percent level. Our funding 
request for the fiscal year 2013 MCNR program will keep us moving in a 
positive direction, enabling Marine Forces Reserve to improve the 
physical infrastructure that supports and reinforces mission readiness 
of our units.
    Beyond the obvious requirements to build, maintain, repair, and 
recapitalize our physical inventory are the operational costs 
associated with occupancy. The ``must pays'' of utility bills are 
relatively constant and immutable. The costs of associated services 
like pest control, snow removal, and janitorial service are investments 
that keep the physical plant safe and clean. Budget constraints demand 
that these expenses are met with strict scrutiny.
    In an attempt to lessen some of the burden on the energy budget, 
and in response to national mandates, Marine Forces Reserve completed 
energy assessments at our 30-owned Reserve Training Centers and is 
implementing the recommendations from those assessments, initially 
targeting the sites that are the biggest energy users. Since 2010, nine 
solar/photovoltaic energy and lighting projects have been completed at 
Reserve Training Centers in California and Louisiana and seven more 
projects in Alabama, California, Florida, New York, and Utah are 
scheduled for completion during fiscal year 2013. Two small (100 kW) 
wind turbines are complete in Illinois and Michigan and one more is 
scheduled for construction in Texas during fiscal year 2013. Our 
investment in these technologies provides energy security, efficiency, 
and cost avoidance for our geographically dispersed sites.
    There are still significant opportunities to improve the energy and 
water efficiency of Reserve Training Centers and expand use of 
renewable sources. We met the Energy Policy Act of 2005 goal of having 
advanced meters installed at all our owned centers across the country 
to measure building electrical usage and identify targets for savings. 
Marine Forces Reserve has had an aggressive energy program in the past, 
but the current fiscal constraints will slow these initiatives, forcing 
any energy reduction project to proceed only in conjunction with other 
modernization or new construction initiatives.
    Our environmental program continues to excel. None of our owned 
centers are listed on the Environmental Protection Agency's National 
Priority List. I consider environmental compliance a priority for the 
command, and reinforce environmental compliance by directing continual 
training for our Marines and Sailors at each unit and site. 
Furthermore, our environmental program supports the FSRM and MCNR 
programs by ensuring compliance with the National Environmental 
Protection Act for each project and action.
    Marine Forces Reserve strategically manages its national training 
infrastructure portfolio at more than 170 locations to include 8 of the 
12 Office of Secretary of Defense (OSD) Joint Bases. Marine Forces 
Reserve collaborates with OSD Joint Base supporting components to meet 
OSD installation support delivery and infrastructure efficiency 
objectives while simultaneously maintaining unit combat readiness. In 
addition, implementation of the Marine Corps' Force Structure Review 
decisions provide an opportunity to better align mission changes with 
reduced facilities infrastructure. As the process moves forward, the 
total impacts will be analyzed to gain efficiencies and reduce the 
backlog of unfunded MCNR projects allowing targeted investment in those 
sites that provide the best operational return on investment. An 
effective current initiative is to consolidate additional units on 
robust sites to reduce overall facility footprint and sustainment costs 
nationally where multiple smaller sites are currently within the same 
geographic area.
                 health services and behavioral health
    Our focus on Marines, Sailors, and their families remains my 
highest priority. Therefore, we are keenly attentive to maintaining 
their health and resiliency. During dwell, our health services priority 
is to attain and maintain the DOD goal of 75 percent ``Fully Medically 
Ready.'' In fiscal year 2012, Marine Forces Reserve individual medical 
and dental readiness rates were 68 percent and 84 percent, 
respectively. We aggressively worked toward improving the medical 
readiness by effective utilization of Medical Readiness Reporting 
System (MRRS) capabilities to enable accurate monitoring and identify 
unit-level actions necessary to attain readiness goals. Supporting 
efforts will focus on advocating funds or tailoring support for various 
Reserve component Medical/Dental Health Readiness Programs including 
utilizing to the fullest extent possible a combination of programs to 
significantly aid in sustaining our total readiness, such as our 
Reserve Health Readiness Program (RHRP) contract services, Post-
Deployment Health Reassessment, Reserve TRICARE Medical and Dental 
Programs, and the Psychological Health Outreach Program (PHOP). 
Additionally, our personnel participate in Force Readiness Assistance & 
Assessment Program (FRAAP) unit inspections. These inspections provide 
oversight for current health status of the Force, specifically at unit 
levels that provides an ability to monitor compliance requirements and 
policy adherence and in meeting unit goal initiatives.
    The RHRP is the cornerstone for individual medical and dental 
readiness. This program funds contracted medical and dental specialists 
to provide medical and dental specific services to units not supported 
by a military treatment facility. During fiscal year 2012, the RHRP 
performed 17,848 Periodic Health Assessments, 8,153 Post-Deployment 
Health Reassessments, and 9,086 dental procedures. In addition, the 
TRICARE Reserve Select for medical coverage and TRICARE Dental Program 
are two premium-based, cost-effective healthcare programs offered for 
voluntary purchase to our Reserve Marines, Sailors, and their families.
    The Marine Corps has a robust behavioral health program, which 
includes Combat and Operational Stress Control, Suicide Prevention, 
Substance Abuse Prevention, and Family Advocacy Programs, all in 
conjunction with Navy Medicine programs addressing behavioral health. 
In regard to Combat and Operational Stress Control, training for 
leaders on this program was incorporated throughout Marine Forces 
Reserve at all levels. The training provides knowledge, skills, and 
tools required to assist commanders to prevent, identify, and manage 
combat and operational stress concerns as early as possible. This 
training is provided to servicemembers of units that are deploying for 
more than 90 days during pre-deployment training.
    Navy Bureau of Medicine continues to support behavioral health 
through various independent contracted programs, such as the Post-
Deployment Health Reassessment/Mental Health Assessments and through 
the PHOP. The Post-Deployment Health Reassessment identifies health 
issues with specific emphasis on mental health concerns, which may have 
emerged since returning from deployment. The PHOP addresses post-
deployment behavioral health concerns through a referral and tracking 
process. These programs have proven effective in the overall management 
of identifying those Marines and Sailors who need behavioral health 
assistance and have provided an avenue to those servicemembers who seek 
behavioral health assistance.
    Given that the signs of operational and combat stress and suicide 
can manifest long after a servicemember returns home from deployment, 
there are unique challenges posed for Reservists who can be isolated 
from the daily support network inherent in one's unit and vital medical 
care. Encouraging Marines to acknowledge and vocalize mental health 
issues is also a ubiquitous challenge facing our commanders. We are 
actively combating the stigma associated with mental healthcare through 
key programs within demobilization and reintegration processes of our 
Reserve Marines following deployment, such as the Yellow Ribbon 
Reintegration Program. Your continued support of these programs is 
greatly appreciated.
    There are five suicide prevention initiatives that we leverage for 
our Reserve Marines and Sailors:
      In-Theater Assessment.--Reservists who exhibit or are struggling 
        with clinically significant issues should be seen by competent 
        medical authorities and evaluated for postdeployment treatment 
        with follow-up decisions made prior to their return home.
      Post-Deployment Health Reassessment (PDHRA).--It is important 
        that if any issues emerge during the Reservist's PDHRA that s/
        he is immediately evaluated and referred for treatment by the 
        clinician interviewer. This includes referral recommendations 
        based on the available local resources, such as the VA, 
        Military OneSource, or private mental health providers.
      Psychological Health Outreach Program (PHOP).--I enthusiastically 
        recommend continued delivery of the PHOP, which is an essential 
        program for treatment referral and follow up to ensure they are 
        receiving the appropriate behavioral health services.
      Care Management Teams.--This suicide prevention initiative 
        includes the VA's OIF/OEF care management teams that are a 
        readily available resource for our Reservists. The VA assigns a 
        primary care manager, who is responsible for referral and 
        follow-up, to any Reservist who has a healthcare issue.
      Never Leave a Marine Behind Suicide Prevention Course.--We 
        continue to implement the Marine Corps' junior Marine, non-
        commissioned officer, staff non-commissioned officer, and 
        officer modules of the Never Leave a Marine Behind suicide 
        prevention course. The Never Leave a Marine Behind series 
        provides the best skills and tools available to Marines, 
        Sailors, and their leaders so that they can better cope with 
        the challenges of combat and the rigors of life both deployed 
        and in garrison. Marine Forces Reserve has trained hundreds of 
        Marines who can deliver the course at more than 130 different 
        Reserve Training Centers around the country.
    Additionally, any Reservist and their family can access Marine 
Corps installations' behavioral health programs through Marine Corps 
Community Services programming while they are on any type of Active 
Duty orders. When they are not on Active Duty orders, Military 
OneSource provides counseling, resources, and support to Reserve 
servicemembers and their families anywhere in the world. The Marine 
Corps' DSTRESS Line is also now available to all Reserve Marines, 
Sailors, and family members regardless of their activation status.
    Another significant resource is our Chaplain Religious Enrichment 
Development Operations (CREDO) Program, which is run by our Active and 
Reserve Chaplains and Religious Program Specialists. CREDO at Marine 
Forces Reserve conducts two distinct retreat programs: Marriage 
Enrichment Retreats, which supports our efforts to strengthen our 
families; and Personal Growth Retreats, which are designed to foster 
individual servicemember's health and wellness. This direct effort to 
improve a culture of responsible choices and build resiliency across 
the Force is accomplished at strategic remote training sites usually 
away from the resources of large military bases. During fiscal year 
2012, 333 married couples and 15 individuals participated in these 
retreats. Anecdotal testimonials and survey feedback by participants 
strongly suggests that these retreats are effective in strengthening 
military marriages and individuals' core values, which in turn, enhance 
the readiness of our Force.
    Sexual Assault Prevention and Response (SAPR) continues to be a top 
priority throughout the Force. A Force-wide 24/7 Help Line is available 
to Reserve and Active Component servicemembers. The Help Line is 
periodically assessed by my SAPR office, as well as Headquarters Marine 
Corps and the Naval Audit office for process improvement. Every Marine 
Reserve Training Center has a Uniformed Victim Advocate (UVA) who is 
readily available to assist a victim whenever necessary. Developing a 
functional 24/7 response in the Reserves has required that our leaders 
research and develop relationships with other military and civilian 
behavioral health resources. Accordingly, many of the site's UVAs have 
created networks with Rape Crisis centers in their local areas in order 
to provide the best care available to victims whenever required. In 
step with the Commandant's 2012 SAPR Campaign Plan, the SAPR Program 
implemented large-scale, Corps-wide training initiatives, utilizing a 
top-down leadership model. SAPR's training message charges leadership 
with establishing an environment that is non-permissive to any 
misconduct or crime--especially sexual assault--and making certain that 
the Marine Corps' high standard of discipline is maintained. SAPR 
training remains unequivocal in its assertion, however, that the duty 
of preventing sexual assault belongs inherently to Marines of every 
rank. The command climate within Marine Forces Reserve and throughout 
the Marine Corps fully supports sustaining an environment where sexual 
assault is not tolerated in any capacity on any level, which is 
essential in eradicating interpersonal violence from the Marine Corps.
                            quality of life
    We remain passionate in ensuring an appropriate balance and 
effective performance of our quality of life programs and services to 
guarantee our programs and services meet the needs and expectations of 
our Active Duty personnel and Reservists, including those Reserve 
servicemembers in the IRR. In doing so, we continue to operate Family 
Readiness Programs, revitalize services, and proactively reach out to 
and keep faith with our Marines, Sailors, and their families.
    To meet the challenge of deployments, and to maintain a constant 
state of readiness, the Marine Corps continues to promote family 
support through our full-time Family Readiness Officer (FRO) program. 
This program is staffed by either civilians or Active Duty Marines and 
collateral duty uniformed deputy FROs at the battalion/squadron level 
and above. Additionally, we continue to leverage modern communication 
technologies and social media, such as the e-Marine Web site, to better 
inform and empower family members--spouses, children and parents--who 
have little routine contact with the Marine Corps and often live 
considerable distances from large military support facilities.
    Our Marine Corps Family Team Building (MCFTB) programs offer 
preventative education and family readiness training to our Marines, 
Sailors, and family members. MCFTB training events were delivered in 
person and through interactive webinars at Marine Corps units across 
the United States. During fiscal year 2012, MCFTB conducted 171 
training events in which 6,920 Marines, Sailors, and family members 
received critical and vital information and support.
    In regard to personal and professional development, Reservists take 
advantage of our partnership with tutor.com, which offers our Marines, 
Sailors, and their families access to 24/7 no-cost, live online 
tutoring services for K-12 students, college students, and adult 
learners. Active and Reserve Marines and their families are also 
provided remote access to language courses through Marine Corps 
Community Services Transparent Language Online program. This program 
supports over 90 languages to include English as a Second Language 
(ESL).
    Our Semper Fit program remains fully engaged to deliver quality, 
results-based education and conditioning protocols for our Marines and 
Sailors. The program includes hands-on strength and conditioning 
courses, online physical fitness tools, and recorded webinars, as well 
as instruction on injury prevention, nutrition and weight management. 
Our Marines' and Sailors' quality of life is also increased through 
various stress management and esprit de corps activities, such as unit 
outings and participation in competitive events. These programs are key 
to unit cohesion, camaraderie, and motivation.
    The Marine Corps' partnership with the Boys and Girls Clubs of 
America (BGCA) and Child Care Aware of America (formerly known as the 
National Association of Child Care Resource and Referral Agencies) 
continues to provide great resources for servicemembers and their 
families in selecting child care--before, during, and after a 
deployment. The Boys and Girls Clubs of America provide outstanding 
programs for our Reservists' children between the ages of 6 and 18 
after school and on the weekends. Under our agreement with BGCA, 
Reserve families can participate in more than 40 programs at no cost. 
Our off-base child-care subsidy program helps families of our 
Reservists locate affordable child care that is comparable to high-
quality, on-base, military-operated programs. This program provides 
child-care subsidies at quality child care providers for our Reservists 
who are deployed in support of overseas contingency operations and for 
those Active Duty Marines who are stationed in regions that are 
geographically separated from military bases and stations. 
Additionally, our Marine families (Active and Reserve) who are enrolled 
in the Exceptional Family Member Program are offered up to 40 hours of 
free respite care per month for each exceptional family member. This 
allows our families the comfort that their family member will be taken 
care of when they are in need of assistance.
    Marine Forces Reserve has fully implemented the Yellow Ribbon 
Reintegration Program (YRRP) at each of the five stages of deployment 
to better prepare our servicemembers and their families for activation 
and return to civilian life after mobilization. During fiscal year 
2012, we leveraged local government facilities, when available, to 
conduct YRRP training in an effort to minimize costs and maximize 
participation. We also put procedures in place for review and oversight 
of all YRRP funding requests to ensure that requests and expenditures 
were integral to the training and that all efforts were made to be good 
stewards of the taxpayer dollar. This step provided a costs savings 
from the previous fiscal year while still maintaining the intent of the 
legislation and ensuring our Marines, Sailors, and families received 
the Yellow Ribbon training. More importantly, this enabled our units to 
proactively plan around the operational and unique individual needs of 
their Marines, Sailors, and families in addition to keeping unit 
leadership in the forefront of the issues that affect their 
servicemembers. In fiscal year 2012, we executed 209 events in which 
5,984 servicemembers--including Marines in the IRR--1,991 family 
members, and 1,775 non-dependent family members and/or designated 
representatives participated for a total of 9,750 persons served by our 
program.
    We continue to be supportive of Military OneSource, which provides 
our Marines, Sailors, and their families with an around-the-clock 
information and referral service via toll-free telephone and Internet 
access for counseling and on subjects such as parenting, child care, 
education, finances, legal issues, deployment, crisis support, and 
relocation.
    Our Psychological Health Outreach Program coordinators have been 
heavily used to assist our Marines, Sailors, and family members with 
Behavioral Health-related issues. These team members have been 
extremely active by making contact with redeploying Marines, conducting 
various briefings at Reserve Training Centers and YRRP events, as well 
as referring clients to further medical or support service assistance.
    Our Marines, Sailors, and their families, who sacrifice so much for 
our Nation's defense, should not be asked to sacrifice quality of life. 
We remain a staunch advocate for these programs and services and 
continue to reintegrate and align our programs and services to meet 
current and future challenges. The combined effect of these programs is 
critical to the readiness and retention of our Marines, Sailors, and 
their families, and your continued support of these programs is greatly 
appreciated and is the bedrock in which Marine Forces Reserve keeps 
faith with our servicemembers and their families.
                               conclusion
    Marine Forces Reserve remains well-positioned to be the Force of 
Choice for augmentation to the Active Component, reinforcement for 
Service priorities, and sustainment as a relevant force now and for the 
future. Marine Forces Reserve is a learning organization that has 
institutionalized training, personnel management, and the Force 
Generation process to effectively and efficiently mobilize and deploy 
combat-ready forces. Aligned with the middle weight force of the 
Nation's Expeditionary Force in Readiness, Marine Forces Reserve 
provides options to Active Component leaders and combatant commanders, 
from being ready for immediate use in support of disaster relief to 
providing strategic depth through sustained augmentation for major 
contingency operations. We live in a world of increasingly complex 
security challenges across the globe and fiscal uncertainty at home. 
Accordingly, we are committed to tightly grip any current operational 
requirements and rapidly respond to future emergent contingencies. Your 
continued unwavering support of the Marine Corps Reserve and its 
associated programs underscores the ability of our Marines and Sailors 
to professionally and competently integrate in the Total Force Marine 
Corps in an operational capacity and is greatly appreciated. Semper 
Fidelis!

    Senator Durbin. Thank you, General Hummer.
    Lieutenant General Jackson is the Chief of the Air Force 
Reserve. Please proceed.
STATEMENT OF LIEUTENANT GENERAL JAMES JACKSON, CHIEF, 
            AIR FORCE RESERVE, UNITED STATES AIR FORCE
    General Jackson. Mr. Chairman, distinguished members of the 
committee: Thank you for the opportunity to appear here before 
you. This year, the Air Force Reserve celebrated its 65th 
birthday, established in 1948 by President Truman. I am honored 
to be here today and represent America's citizen airmen as 
Chief of the Air Force Reserve and the Commander of the Air 
Force Command.
    First, I wish to highlight the over 70,000 Air Force 
reservists who comprise our combat ready force. They provide 
the President, and our Nation, with operational capability, 
strategic depth, and surge capacity.
    Currently, over 2,000 of American citizen airmen are 
deployed around the world. Additionally, there are 
approximately 4,000 serving on Active-Duty status in direct 
support of combatant commander requirements.
    Today, I would like to share with you just three of my 
focus areas for the Air Force Reserve. First, we must never 
lose sight of our men and women in harm's way, which is why 
``Remember the Fight: Today and Tomorrow,'' is my top focus 
area.
    The Air Force Reserve remains in high demand, and we expect 
that trend to continue. That is why it is imperative that your 
Air Force Reserve is properly organized, trained, and equipped 
for any contingency across the spectrum of conflict.
    Our ability to effectively respond with a capable force is 
increasingly challenged by sequestration and by fiscal 
uncertainties. As the majority of our funding is devoted to 
operations and maintenance (O&M), reducing the O&M account 
directly impacts the readiness of the Air Force Reserve. Cuts 
to both flying hours and weapon systems sustainment make it 
more difficult to be a reliable force provider, and will take 
us some time to recover.
    Adaptive force is my second focus area, and as we look to 
the future, we need to have a holistic view of the right Air 
Force capability mix in your Air Force Total Force team. What 
best fits in the Air Force Reserve, the Air National Guard, and 
the Active-Duty force for the Nation?
    We are a Total Force team, each with unique strengths that 
we bring to the fight. And the Air Force Total Force Task Force 
stood up by the Secretary of the Air Force and Chief Welsh is a 
step in the right direction, and I fully support that effort.
    I also look forward to providing input to the National 
Commission on the structure of the Air Force on this important 
issue.
    One of the strengths of your Air Force Reserve is the 
majority of our airmen serve part-time, bringing years of 
combat-tested experience at a cost-effective rate. Further, we 
deliver our diverse portfolio capability in title 10 status, as 
your Federal reserve. This is important to some missionaries to 
meet combatant commander requirements.
    Another Air Force Reserve strength is we leverage our 
airmen civilian expertise such as in cyber, in space operations 
where staying on the cutting edge makes all the difference. Our 
citizen airmen can translate their industry knowledge and 
skills for the cyber and space domain to the needs of our 
Nation's defense. We are working to grow that cyber capability 
within the Air Force Reserve.
    My last focus area is to develop our team. This refers to 
both developing leaders for the Nation, as well as assisting 
our citizen airmen in keeping a Reserve work-life balance 
between their Reserve duty, employers, and family life.
    Developing the team is more difficult as the effects of 
sequestration take hold, as over three-fourths of our full-time 
personnel all dual status Air Reserve technicians impacted by 
the furlough that could go in effect translate to an even 
greater impact, negative impact to our mission readiness every 
day.
    Further cuts to O&M, the travel dollars have reduced our 
training and exercises, professional military education 
opportunities, and have made successful recruiting even more of 
a challenge.
    As you deliberate our proposed budget, I ask you to 
consider the Air Force Reserves contribution to the joint fight 
and the men and women who proudly serve our Nation.

                           PREPARED STATEMENT

    Our citizen airmen deliver cost-efficient, operational 
capability and capacity to surge quickly where America needs us 
most.
    I look forward to working with you to ensure Air Force 
Reserve remains highly capable and ready to serve.
    Thank you, members of the committee, and I stand by to 
answer any of your questions.
    [The statement follows:]
       Prepared Statement of Lieutenant General James F. Jackson
    Mr. Chairman and distinguished members of the subcommittee, thank 
you for the opportunity to appear before you. I'm honored to represent 
America's Citizen Airmen as the Chief of Air Force Reserve and 
Commander, Air Force Reserve Command (AFRC). The Air Force Reserve 
(AFR) is a combat-ready force, composed of approximately 71,000 proud 
Reservists, stationed locally throughout the United States, serving 
globally for every Combatant Command. We provide our Nation with 
operational capability, strategic depth and the capacity to surge 
quickly when America needs us. We are an integrated Total Force partner 
in every Air Force core mission:
  --air and space superiority;
  --global strike;
  --rapid global mobility;
  --intelligence, surveillance, and reconnaissance (ISR); and
  --command and control.
    The majority of our Citizen Airmen serves part time, making us a 
highly efficient force with effective capability. In times of crisis, 
we can call upon an additional 790,000 Airmen from the Individual Ready 
Reserve, Standby Reserve, Retired Reserve and Retired Active Duty. Over 
the last two decades, we've supported sustained combat and humanitarian 
operations throughout the world, including in Bosnia, Kosovo, 
Afghanistan, Iraq, Libya, Japan, Mali and the Horn of Africa. When 
natural disasters strike here at home, the Air Force Reserve delivers 
capability and expertise, providing relief to our fellow Americans, 
most recently in response to Superstorm Sandy. Domestically or 
globally, America's Citizen Airmen are always ready to answer our 
Nation's call--anytime, anywhere.
    Today, I want to share with you my vision for the Air Force Reserve 
based on three focus areas: Remember the Fight--Today's and Tomorrow's, 
Adapt the Force, and Develop the Team.
                      remember the fight--today's
    My top focus area is to ``Remember the Fight'' and our Nation's men 
and women who are serving today in harm's way. The Total Force team 
remains in high demand, supporting the joint fight around the world by 
flying, fighting, and winning in air, space and cyberspace. On any 
given day, over 2,000 of America's Citizen Airmen are deployed, serving 
in every Area of Responsibility, with an additional 4,000 men and women 
on Active Duty status supporting Combatant Command (CCMD) requirements. 
As a Federal Title 10 Force, more than 8,000 Individual Reserve members 
are assigned throughout the Department of Defense (DOD), including the 
staffs of the Office of the Secretary of Defense, the Joint Staff, 
Combatant Commands, Air Force Major Commands, and Intelligence and 
Defense Agencies. Integrating individual reservists throughout the DOD 
provides valuable experience and continuity. This enables the Air Force 
Reserve to collectively support the decisionmakers, the joint 
warfighters and the force providers at the tactical, operational, and 
strategic levels of conflict.
    The majority of your Air Force Reserve serves alongside our Active 
Duty counterparts in association constructs. The synergistic benefits 
derived from associations add to the Air Force's strength. In Total 
Force Integration (TFI) associations, the Active Duty and Reserve 
component share equipment, facilities, and resources, including 
aircraft, crews, and maintenance, to carry out a common mission.\1\ TFI 
associations represent tremendous value to the taxpayer, both in cost 
savings as well as improved mission effectiveness. TFI fosters 
communication between components by sharing day-to-day 
responsibilities, resulting in more effective utilization of combined 
resources. As sequestration takes hold, associations will provide even 
more value as we find ways to get the mission done by using the 
combined resources at our disposal. Currently, the Air Force has 121 
TFI associations and the Air Force Reserve is adding 5 more in fiscal 
year 2013 in the growing areas of cyber and ISR.\2\
---------------------------------------------------------------------------
    \1\ Three association types: Classic, Active, and Air Reserve 
component. In a ``Classic'' Association, the Active Duty is the host 
unit, retaining weapon system responsibility, while sharing the mission 
with a Reserve or Guard tenant unit. For ``Active,'' the Reserve or 
Guard unit is host, with an Active Duty tenant. The ``Air Reserve 
Component'' pairs a Reserve unit with a Guard unit, with either 
component acting as the host and the other as the tenant unit.
    \2\ Four intelligence classic associate units at Wright-Patterson 
AFB, Ohio; Hurlburt Field, Florida; Fort Meade, Maryland; Offutt AFB, 
Nebraska; and a cyber classic associate unit at Joint Base San Antonio-
Lackland, Texas.
---------------------------------------------------------------------------
    Authorized by the fiscal year 2012 National Defense Authorization 
Act (NDAA), the Reserve component can now be mobilized to respond to 
national security needs here at home (commonly known as 12304a). Air 
Force Reserve capabilities of weather reconnaissance, aerial 
firefighting, and aerial spray are critical to the Nation when 
catastrophe strikes. Dual-use capabilities such as airlift, aeromedical 
evacuation, and personnel recovery are equally valuable, both in-
theater and for homeland support. America's Citizen Airmen demonstrated 
their worth before and after Superstorm Sandy struck the Nation's most 
populous region. The famous ``Hurricane Hunters'' of the 53rd Weather 
Reconnaissance Squadron flew inside the massive storm, relaying 
lifesaving data to National Weather Service forecasters on the ground. 
Additionally, the team at Westover Air Reserve Base in Massachusetts 
supported the Federal Emergency Management Agency by hosting relief 
operations. Finally, March Air Reserve Base in California served as the 
west coast response hub. From this location, Total Force C-5 and C-17 
cargo aircraft delivered 1,200 short tons of supplies, 356 passengers, 
and 134 utility vehicles to the east coast. America's Citizen Airmen 
also once again exhibited their willingness to serve through 
volunteerism. While the new Air Force Reserve mobilization authority 
was not used by the Secretary of the Air Force, its construct was 
practiced in real time as our dedicated Citizen Airmen assisted the 
national effort to restore critical infrastructure.
                     remember the fight--tomorrow's
    As you know, in 2012 the Department of Defense released strategic 
guidance, ``Sustaining U.S. Global Leadership: Priorities for 21st 
Century Defense'', in which the Secretary of Defense wrote the 
``country is at a strategic turning point after a decade of war.'' Over 
the last decade, the Air Force Reserve has transformed our 
organizational structure and processes to be an operational force with 
strategic depth and surge capacity. One example of this is the 
establishment of the Force Generation Center (FGC). The FGC is the 
``one-stop-shop'' offering access to Air Force Reserve forces to 
fulfill Combatant Commander requirements. The FGC processes requests 
for capability from force providers, monitors current Combatant 
Commander support, and tracks the individuals and units who volunteer 
or are mobilized. The FGC has simplified and streamlined access to 
title 10 Air Force Reserve forces and benefited our individual members, 
as we carefully monitor the mobilization-to-dwell ratios, especially 
those in our stressed career fields and units. The FGC is a 
foundational piece of your Air Force Reserve as we look to the next 
decade and supporting tomorrow's joint fight.
    Continually transforming the Reserve component through 
modernization is critical to ensuring we are an effective and combat-
ready partner across the spectrum of conflict. Since 1981, the National 
Guard and Reserve Equipment Account (NGREA) has been used by the Air 
Force Reserve to upgrade equipment for better targeting, self-
protection and communication capabilities, proving their combat value 
in Afghanistan and Iraq. Over 20 years of sustained conflict has taken 
its toll, making continued recapitalization funding for the Air Force 
Reserve critically important.
    The current top three Air Force Reserve procurement priorities are:
Defensive Systems
    Air Force Reserve aircraft require self-protection suites that are 
effective against modern anti-aircraft missile systems. Large Aircraft 
Infrared Countermeasures (LAIRCM), Aircraft Defensive Systems (ADS), 
and Missile Warning Systems (MWS) are needed to provide adequate 
infrared missile protection for combat operations.
Data Link and Secure Communications (Battlefield Situational Awareness)
    Air Force Reserve modernization efforts stress aircraft defense, 
safety, and data link communications. The information demands of modern 
warfare require a fully integrated data-link network. A robust, 
persistent airborne gateway system and secure line-of-sight (SLOS)/
beyond line-of-sight (BLOS) voice and data communications support that 
integrated data-link requirement. SLOS/BLOS communications are 
currently being installed in all combat coded aircraft with NGREA 
funding.
Precision Engagement Capability
    Programs increasing warfighter capability include Precision 
Engagement modernization systems like the LITENING targeting pod, the 
F-16/A-10 Center Display, and the F-16/A-10 Helmet Mounted Integrated 
Targeting. These systems allow for the addition of future capabilities 
at low cost and are critical for close air support and communication 
with the ground forces.
    Military Construction (MILCON) is also a critical component in the 
Air Force Reserve's ability to be combat ready for tomorrow's fight. 
The Air Force Reserve is a tenant at over 50 installations, where we 
maximize taxpayer value by sharing facilities whenever possible. 
Nevertheless, the Air Force Reserve is in need of MILCON to modernize 
and consolidate existing infrastructure, as well as to accommodate 
growth into new mission areas. We currently face a validated $1.4 
billion backlog of unfunded MILCON requirements. The backlog increased 
in fiscal year 2013 as the Air Force took a deliberate pause to ensure 
resource availability in other areas. For fiscal year 2014, there are 
three Air Force Reserve MILCON projects: a Personnel Deployment 
Processing Center at March Air Reserve Base, California; a Squadron 
Operation facility for the 513th Air Control Group at Tinker Air Force 
Base, Oklahoma; and a new Entry Control Complex at Homestead Air 
Reserve Base, Florida. The Air Force Reserve, like the Active Duty, is 
counterbalancing some risk in MILCON through Operation and Maintenance 
(O&M) Facility Sustainment, Restoration, and Modernization funding. We 
are recapitalizing aging facilities, promoting consolidation, and 
demolishing unnecessary, resource-draining facilities to make the best 
use of our facility footprint.
                            adapt the force
    ``Adapt the Force'' is my second focus area. The ``Priorities for 
21st Century Defense'' calls for an examination of ``the mix of Active 
Component (AC) and Reserve Component (RC) elements best suited to the 
strategy'' and the appropriate ``level of Reserve Component readiness'' 
based on ``the expected pace of operations over the next decade.'' This 
consists of determining the appropriate Active/Reserve force mix as 
well as the mission sets best suited for the Air Force Reserve as your 
Federal title 10 combat force. All three components are addressing this 
very subject through the Air Force's Total Force Task Force.
    Speed, range and flexibility are the hallmarks of airpower, giving 
our military versatility. As the Department of Defense makes the 
``rebalance toward the Asia-Pacific region,'' while maintaining a 
Middle East presence, the Air Force Reserve's operational capability, 
strategic depth, and surge capacity are critical to our Nation's 
defense. Furthermore, the Reserve component has served under a partial 
mobilization since 2001. Congressional authority given in the fiscal 
year 2012 National Defense Authorization Act (known as 12304b) to 
mobilize up to 60,000 members of the Reserve components for preplanned 
and budgeted missions in support of Combatant Commands will be an 
important factor in how your Air Force Reserve will continue to support 
our Nation's defense.
    The Air Force Reserve is proud to be an always-ready Federal force, 
able to respond within 72 hours anywhere the Nation needs us. Yet in a 
complex world with ever-increasing and evolving threats, our ability to 
effectively respond with a ready and capable force is increasingly 
threatened by fiscal realities caused by sequestration and funding 
uncertainty. As the majority of our funding is devoted to O&M, reducing 
the O&M account directly impacts the readiness of the Air Force 
Reserve. Further, with over three-fourths of our full-time personnel 
serving as dual-status Air Reserve Technicians, civilian furloughs 
translate to an even greater negative impact to the mission readiness 
of our units. We ask Congress to enact a comprehensive and measured 
approach to deficit reduction so the Air Force Reserve may continue to 
be a reliable force provider and take care of our Citizen Airmen, 
otherwise the valuable operational expertise gained by our reservists 
since 9/11 and available to our Nation will be at risk.
    As we analyze the right Active/Guard/Reserve force mix, the Air 
Force Reserve will be mindful of our strengths. Perhaps our greatest 
strength is we retain ``Airmen for Life,'' preserving the considerable 
investments and expertise of our Airmen, beyond their Active Duty 
service. Retaining pilot experience continues to be a focus, but we 
must also remember the combat-tested warriors across many disciplines 
and career fields. Keeping this diverse, operational experience enables 
the Air Force Reserve to be a combat-ready force. Also, keeping 
sufficient Air Force Reserve end strength to retain these Air Force 
members is crucial.
    Determining the cost of our Total Force manning has always been 
difficult. I wish to highlight to the committee the Reserve Forces 
Policy Board's Cost Methodology report entitled ``Eliminating Major 
Gaps in DOD Data on the Fully Burdened and Life-Cycle Cost of Military 
Personnel: Cost Elements Should be Mandated by Policy.'' Being aware of 
this report helps us better engage in a conversation using tangible 
information on the cost of our manpower in the Air Force. This report 
can help inform the discussion in regard to the mix of Active, Guard, 
and Reserve roles and missions, organizational structures, and the best 
use of our defense dollars.
    A second strength of the Air Force Reserve is we leverage our 
Citizen Airmen's civilian expertise from private industry, especially 
in fields where intellectual capital is at a premium. For instance, the 
Air Force Reserve found beneficial value in standing up a Space 
Operations Group in 1997 (later becoming the 310th Space Wing), to take 
advantage of the technical civilian/military synergies our Citizen 
Airmen possess, for space programs like GPS, missile warning and 
weather monitoring. On March 3, 2013, the Air Force Reserve activated 
the 960th Cyber Operations Group. We are using our lessons learned from 
the past to grow the cyber mission area for the future. Cyber is a man-
made domain where staying on the technical cutting-edge makes all the 
difference. Once we train our Air Force cyber personnel, we need to 
retain them when they depart Active Duty. The DOD should also leverage 
the civilian cyber experience of our Citizen Airmen who are non-prior 
service, who can translate the latest industry knowledge and skills 
into the defensive needs of the Nation. In my opinion, we need to treat 
this important and perishable skill set similar to those of our 
physicians and medical personnel.
    A final hallmark of the Air Force Reserve is we provide continuity 
and depth of experience. Since 9/11, there is no question that special 
operations forces (SOF) delivered a return on investment for our 
Nation. For the Air Force Reserve, this continuity and experience has 
resided for over 30 years in the 919th Special Operations Wing at Duke 
Field, Florida. This year the newly created Air Force Special 
Operations Air Warfare Center stood up at Duke, commanded by an Air 
Force Reserve brigadier general, which will bring together more than 
500 Active Duty and Reserve Airmen for the SOF mission. The expected 
synergistic benefit of this new organization will pay huge dividends 
for our Nation and will serve as another valuable example of 
integrating the Total Force.
                            develop the team
    ``Develop the Team'' is my third focus area, which refers to 
developing leaders for our Nation, and helping America's Citizen Airmen 
keep a healthy ``reserve-work-life balance.'' By investing in these 
areas today, we ensure a quality Air Force Reserve is prepared to serve 
the Nation now and in the future. Professional force development, in 
both officer and senior enlisted ranks, is vital to growing leaders for 
the Air Force and our Department of Defense. We are putting into place 
options for those seeking to be considered as potential senior leaders, 
while preserving the Citizen Airmen culture of being stationed locally 
and serving globally. Second, we ask America's Citizen Airmen to 
maintain a unique reserve-work-life balance between their Air Force 
duties, their civilian employer and their families. Maintaining this 
balance can sometimes be difficult for Citizen Airmen. Programs such as 
the Employer Support of the Guard and Reserve (ESGR) and 
``Hero2Hired.jobs'' are critical in helping our Airmen deal with life-
changing events such as deploying and transitioning to/from the 
civilian workforce. The importance of the Yellow Ribbon Program for our 
deploying members was demonstrated last fiscal year as 2,640 Air Force 
Reserve members attended 78 events, along with 4,661 family members. 
This equates to 77 percent of eligible members attending this volunteer 
opportunity, a testament to the value of the Yellow Ribbon Program.
    Additionally, the Air Force Reserve is leveraging today's 
technology to further support our reserve-work-life balance by offering 
the Wingman Toolkit. I encourage the committee members and staffers to 
visit the Web site at http://afrc.wingmantoolkit.org/. If you like, 
download the Wingman Toolkit mobile phone app. The Wingman Toolkit is 
our online resource to support comprehensive fitness in the four areas 
of physical, mental, spiritual, and social well-being. The Wingman 
Toolkit is one of many efforts to address member issues, such as 
suicide prevention, by building a strong Wingman culture that 
proactively take care of themselves and each other. The Air Force also 
works with DOD's Defense Suicide Prevention Office to promote awareness 
of the Military Crisis Line, a service that provides 24/7, confidential 
crisis support to those in the military and their families. The 
professionals at the Military Crisis Line are specially trained and 
experienced in helping servicemembers and their families of all ages 
and circumstances--from those coping with mental health issues that 
were never addressed to those who are struggling with relationships. 
They provide immediate access to care for those who may be at risk of 
suicide, along with additional follow-up and connection with 
servicemembers and Veterans to mental health services.
    On a final note, last year the Air Force Reserve published 
``Turning Point 9.11: Air Force Reserve in the 21st Century, 2001-
2011''. This book describes our history, emphasizing the story of 
America's Citizen Airmen since September 11, 2001. I encourage the 
subcommittee members and staff to visit the Air Force Reserve Command 
homepage (www.afrc.af.mil) to download the electronic version.
                               conclusion
    The Air Force Reserve is a proud component of the Total Force team 
in the defense of our Nation. I sincerely appreciate the enduring 
support of this subcommittee and all you do for America's Citizen 
Airmen. I look forward to working with each of you to ensure that your 
Air Force Reserve remains postured and ready to serve.

    Senator Durbin. Thank you very much.
    General Grass, we are faced, in this committee and in 
Congress, with a tough assignment: How to cut spending without 
jeopardizing our national security? How to reduce our 
expenditures without, in any way, endangering our Nation, or 
compromising the morale and readiness of the men and women who 
are willing to serve and defend us?
    So the question comes down to a very basic one in this 
first hearing before the Appropriations Committee in this 
cycle, and that is a question as to what mix between the Active 
Force, and the Guard and Reserve Force is right to keep the 
Nation safe? And what is the best mix to save money for 
America's taxpayers?
    A recent report from Reserve Forces Policy Board found that 
the cost of a Reserve component servicemember when not 
activated is less than one-third the cost of an Active 
component servicemember. I might add, there was a recent 
example, though, where a decision was made that nearly 1,000 
soldiers from four Army National Guard units, who were 
scheduled to deploy this summer to the Horn of Africa and Sinai 
Peninsula, would stay home and Active troops would go instead. 
It was announced that we would save $93 million by using the 
Active Force.
    The report I mentioned earlier recommended that the 
Department develop a costing model to determine the fully 
burdened and lifecycle cost for an Active component versus a 
Reserve component.
    So I would like your comment on the overall question as to 
if we could, whether we should move toward the Guard and 
Reserve in a way to conserve funds and still keep our Nation 
safe, or whether the activation of these forces is so expense 
that that would negate any other savings?
    General Grass. Chairman, thank you for that question.
    First of all, let me mention that I have had a number of 
conversations with both Chairman Dempsey and General Odierno 
and General Welsh, and one of the founding discussions that we 
have to have is: What is the right mix between the Active 
component and the Reserve given the strategy that we have set 
out for the Asia Pacific?
    And I do think all of us at this table, I think would 
agree, that our soldiers, airmen, sailor, marines have done an 
outstanding job and we have taken, especially with resources we 
have been given, have taken our forces to a level and our 
leadership to a level that probably has never existed in the 
Reserve components today. So what we don't want to do is lose 
that capability and the capacity.
    And the debate, though, goes down to, what can we afford? 
And I think what we have to do right off the bat is determine, 
and I've got a copy of the Reserve Forces Policy Board, which I 
think is some great recommendations. We have to come together 
within the Department and agree upon is that the right equation 
for figuring? I looked at it. I think there are very good 
numbers in there, but I think that we are open to that 
discussion and have that debate.
    And once we figure out what that number is, now we can 
balance that number against the strategy, and what is the right 
mix between the Active components? What do we need on the ramp 
right now, ready to move out, 24/7 and what do we need that we 
can put into the Reserve component? In many cases, many of our 
Reserve components are almost on the ramp anyway ready to go. 
But what is that right mix? And I think that is a debate our 
Nation has to have here and given our fiscal constraints.
    Senator Durbin. Do you know when Congress can expect to 
receive the cost model that I referred to from the Department?
    General Grass. Chairman, I will take that for the record 
and get back to you.
    Senator Durbin. Okay. I'd like you to, because I think that 
gets right to the heart of the issue which I wanted to raise.
    [The information follows:]

    The Department of Defense cost model review conducted by the CAPE 
will be released in the late spring or early summer 2013.

    Senator Durbin. Senator Cochran.
    Senator Cochran. Mr. Chairman, I am pleased to join you in 
welcoming our distinguished panel of witnesses this morning.
    And I first want to brag about our experience in 
Mississippi hosting one of the most active training bases that 
the Air Force has at Keesler Air Force Base in Biloxi, 
Mississippi. And I have had the pleasure of visiting that base 
a number of times since my service began in the Congress, and 
we have been very proud of the contributions they have made.
    What are your plans for the future at Keesler? Everybody 
gets nervous when people start talking about changing, and 
downsizing, and putting places in mothballs until later 
contingencies might arise. What is the assessment that you have 
of the future of Keesler Air Force Base?
    General Clarke. Senators, I think that question was for me.
    Senator Cochran. Yes, it is. I am sorry.
    General Clarke. And it is for somebody in a blue suit.
    Senator Cochran. I was looking at the Chief.
    General Clarke. Yes, sir. Actually, the Air National Guard 
has little involvement with Keesler. We have other Air National 
Guard interests up at Jackson and also at the Meridian, and I 
can talk at length about both of those and the value that they 
contribute to the Nation, but very little at Keesler for 
ourselves.
    But we recognize that Keesler is a wonderful solution and 
the people that serve there, I agree with you, wonderful people 
and airmen.
    Senator Cochran. My personal experience was as a naval 
officer in going through the Navy ROTC program at the 
University of Mississippi and serving on a heavy cruiser 
operating out of Boston. And I really enjoyed the opportunity. 
Of course, nobody was shooting at us, or bombing us, or 
anything like that when I was in the--on Active Duty.
    But I did continue to serve, and go to Newport every 
summer, and teach at the Naval Officers Candidate School in 
Newport. That was an interesting experience because of the 
buildup in Vietnam and the things that were happening around 
the world requiring a lot of Reserve officers to be actively 
involved, even though they weren't technically on Active Duty, 
but on Active Duty for training. Many of us spent a lot of time 
and effort.
    What is the dependence right now on the Guard and Reserve 
in terms of state of readiness and protecting the security 
interests? What is the balance that we have? Is this the right 
balance, those that are on Active duty? Could we put more in 
the Reserve and Guard forces? What's your judgment?
    General Grass. Senator, if I could start, I would tell you 
that for the National Guard, Army, and Air combined, we have 
28,000 serving today on Active Duty, not including what we have 
in the homeland. And of those 28,000, 22,000 are deployed, the 
others are either demobilizing right now or getting ready for 
mobilization to deploy.
    And as I visit our troops, and I recently in January 
visited our troops in Europe, also went to the Sinai Desert, 
the peacekeeping force there that we have, and then to 
Afghanistan.
    And this generation of guardsman and, I am sure, the 
Reserve components in general joined, over 50 percent have 
joined since the war started. And they see this current 
operational environment we are in as something that they want 
to step up to the challenge and do. If they can get 
predictability, they can work with their employers and let them 
know when they are going to deploy, they expect to be deployed.
    For the National Guard, if we were to go to 1-in-5 
deployments, which is the model that we have worked through 
with the Army, the Air is a bit different because of how they 
deploy. But on the Army side, we could probably sustain that 
forever with this current force. And a 1-in-5 off of a force of 
360,000 is well beyond the capability we would even need today 
from the Reserve component.

                   ACTIVE DUTY-RESERVE FORCE BALANCE

    Senator Cochran. Thank you very much. I am going to call on 
the Navy representative to respond to that same question. Let 
us know what the balance is in the Navy and its Reserve forces.
    Admiral Braun. Yes, sir. I believe that at this point, when 
you look at what the Navy Reserve has done over the past 12 
years, we are very integrated, and we are more ready than we 
have ever been.
    And we've got so many mission areas in the Navy Reserve 
when you look at our aviators, our surface warfare officers, 
our submariners, SEALs, and then onto Intelligence, medical 
personnel, JAGs; so all of these personnel are contributing 
completely to the fight that goes on today. And so, I am very 
proud of the readiness that we've got right now.
    Can we bring more into the Reserve component? I think that 
it depends on what mission area we are talking about. And I 
think it is critical that we take a good, hard look at what 
that Active-to-Reserve ratio is, and see if there are some 
areas where we can move capabilities into the Reserve 
component.
    Senator Cochran. Thank you.
    Thanks, Mr. Chairman.
    Senator Durbin. Thank you very much, Senator Cochran.
    Senator Collins.
    Senator Collins. Thank you, Mr. Chairman.
    First of all, let me echo the chairman's thanks to the 
National Guard for truly heroic actions in response to the 
terrorist attack in Boston. It does not surprise me, however. I 
don't think it surprises any of us because our experience in 
our home States is that the National Guard is always ready to 
answer the call for help, whether it is a natural disaster, or 
a terrorist attack, or deploying overseas.
    And in Maine, we have an Air National Guard base that 
performs refuelings and that base, in a cost-effective manner, 
does more refuelings than any airbase, Active Duty or Guard, 
along the entire east coast. So we are very proud of the 
contributions that the National Guard is making in Maine to our 
mission.
    I also want to take just a moment to acknowledge vice 
president--vice president; I gave you a little promotion there.
    Vice Admiral Braun, who is the first woman to be the Chief 
of the Naval Reserve. This is her first time testifying before 
the Defense Appropriations Subcommittee. And most important of 
all, she is from Brunswick, Maine. So it does not surprise me 
that she has excelled in this manner.
    General Grass, well, all Active Duty military personnel are 
exempt from the sequestration furloughs. This is not 
necessarily the case for many DOD civilians, including the more 
than 53,000 dual status technicians, which account for more 
than half of the Guard's full-time force.
    Yet, these technicians are really the effective equivalent 
of the uniformed personnel in the Active Duty component. In my 
home State, we have 539 military technicians consisting of 279 
serving in the Army National Guard and 260 serving in the Air 
National Guard, who are potentially subject to furlough.
    My understanding is that your position on furloughs is that 
the National Guard Bureau can achieve the sequestration budget 
targets in a way that would avoid the need to furlough the 
dual-status technicians. And I know from my meeting with the 
Navy, that the Navy also has come up with a way, generally, for 
the Active Duty components and also the civilian components to 
avoid furloughs.
    Is that an accurate description of your position?
    General Grass. Senator, as you know, I serve on the Joint 
Chiefs, and as a member of the Joint Chiefs, we made a decision 
to stick together, to be fair across all of our civilian 
employees, and that if there was a requirement for a furlough, 
that we would all abide by that. I was advised by my legal 
counsel, also, that that was the right way to go with the legal 
framework.
    Our big concern is that technicians in the National Guard 
are different because they are required to wear a uniform to 
work, and they are required to be a member of the unit. And so, 
what they do every day for us--whether it is maintaining 
aircraft, it's maintaining tanks, after a drill weekend--they 
do an awful lot of work at getting all of our equipment back, 
ready to go in case we have a disaster; that would have a major 
impact.
    And if I look at today, even if we go with a 14-day 
furlough through the end of the fiscal year, we would lose 
about 5.5 million man hours of work this fiscal year.
    But I do think it is important that we, as a Nation, decide 
if we are going to furlough, that we be fair cross the board.
    Senator Collins. But the National Guard Coalition did send 
Secretary Hagel a letter about the military technicians on 
March 20. Is that not correct? Making the same points that you 
have made, that they are actually the functional equivalent of 
Active-Duty personnel, and what the very negative consequences 
would be?
    General Grass. Yes, ma'am.
    Senator Collins. Mr. Chairman, I think this is a huge 
issue. Surely, if there are units within our military that are 
the functional equivalent of Active-Duty personnel, they should 
be treated that way.
    But more important, if certain of the services have figured 
out ways to set priorities using the flexibility that we gave 
them in the continuing resolution, which I supported, and can 
avoid furloughs that are going to end up increasing costs, as 
well as causing such personal hardship, I would hope that we 
would encourage those services to do that, and that we would 
not apply a one-size-fits-all approach.
    Thank you, Mr. Chairman.
    Senator Durbin. Thank you, Senator Collins. I think that is 
worth looking into in all the branches to see if there are ways 
that we can accommodate those who are serving our country in a 
civilian capacity as well.
    Senator Murkowski.
    Senator Murkowski. Thank you, Mr. Chairman.
    And welcome for the committee here this afternoon. And just 
following on Senator Collins's point, I was up in Alaska over 
the Easter recess, and I held listening sessions, town halls at 
Eielson Air Force Base, as well as Fort Wainwright. I also met 
with multiple spouse groups in the areas.
    Every place that I went, this issue was raised and a level 
of concern that was expressed was just as you have conveyed, 
Senator Collins. And I think that when we look to quantifying 
the impact of furloughing these technicians, I think we need to 
appreciate that it is substantial, and yet there are ways that 
we can address it and, I believe, should address it.
    I was notably impressed, I guess, with the level of concern 
that I heard in all of the various meetings that I had; that 
this was front and center. So I would like to think that there 
is something that we can do to address that.
    I would like to speak to the C-23 Sherpa, and I think, 
General Ingram, this is addressed to you here.
    Last year, the Army proposed the divestiture arguing that 
the intratheater lift could be provided by the Air Force using 
other assets that did not particularly sit well with the 
Congress, and the divestiture was barred for fiscal year 2013.
    During the past fiscal year, we have seen a number of the 
Adjutant Generals complain that the Sherpas were being moved 
out of their State for engine replacement, which they 
interpreted to mean marshaling for the planes for divestiture.
    We are hearing rumors that the planes will once again be 
taken away from the States and marshaled before the end of the 
fiscal year, in the hopes that Congress won't stand in the way 
of the divestiture.
    In Alaska, as you may know, these aircraft are amazing 
workhorses; just amazing what they can do. They can take you 
into places in Alaska that no other aircraft can.
    So the question to you, General, is whether or not you can 
give the assurance that the Adjutants General will have the 
full use of the Sherpa in this fiscal year.
    General Ingram. Senator, thank you for the question.
    I am very familiar with the Sherpa and the work that the 
Sherpas do across the United States, especially in Alaska with 
the unique geography that you have in your State.
    With the divestiture plan really in abeyance at the moment, 
the Army National Guard is working with the Army to synchronize 
the details for the way ahead for the remaining C-23 fleet. We 
have already moved, last year eight have been moved into warm 
storage.
    The Army National Guard believes that the Army intends to 
fully support the language in Public Law 113-6 and not divest 
the C-23 aircraft with this year's appropriated funds. However, 
the Army is considering the option of placing all of the C-23s 
in semi-flyable storage by the end of this fiscal year. The 
details of the way ahead for the C-23 should be released by the 
Army very soon.
    So we are working with the Army and waiting for their 
decision on the fate of the C-23s at the moment.
    Senator Murkowski. So if we are provided a mechanism for 
the States to take title to the Sherpas, if the Army divests, 
but then the States are left in a position where they've got to 
figure how they deal with the operation and maintenance. Could 
the Guard continue to provide personnel and maintenance funding 
to support the missions?
    General Ingram. Senator, that would be very difficult. I 
don't--that is the point of the divestiture is the operation 
and maintenance cost of the aircraft. And currently, in the 
program, in the Program Objective Memorandum (POM), there is no 
provision for operation and maintenance of the C-23 fleet.
    Senator Murkowski. That's not there.
    General Ingram. And, in fact, the fore-structure that goes 
with it, the positions for the pilots and maintainers of those 
aircraft, are being written out of the system.
    Senator Murkowski. Well then, let me ask just one final 
here.
    I have heard that the Army National Guard was given a 
choice of either more Lakota helicopters or retaining the 
Sherpa. They, apparently, they chose the Lakota. Now, I do not 
know whether that is accurate or not, but Alaska's Adjutant 
General has made a very solid case for bringing the Lakota to 
Alaska. That has been resisted.
    As you very well know, we have a very aviation-intensive 
State. Our Guard units, both Army and Air, do some pretty 
extraordinary things with the assets that they have been 
provided. But we are in a situation where we are told, ``You 
are going to retire the Sherpa,'' and then you say that we 
cannot have the Lakota.
    So it puts us in an incredibly difficult spot to provide 
for any of the mission that is required in a State where you 
don't have the roads to travel. You need the aircraft. The 
aircraft that works is a Sherpa. Sherpas are being retired. Our 
other alternative is the Lakota, and we are being told, ``You 
are probably not going to see that.''
    It seems to me it is a pretty inequitable situation, and I 
am not quite sure what we do.
    General Ingram. Senator, I will have to get back with you 
on the fielding of the Lakota to Alaska. I am not familiar with 
the fielding plan on that particular aircraft to the State of 
Alaska. And I will look into that and be back with you.
    Senator Murkowski. Okay. I would appreciate that.
    [The information follows:]

    The ARNG UH-72 fielding plan released in 2007 did not include the 
Alaska Army National Guard (AKARNG). The UH-72 aircraft are replacing 
OH-58 A/C aircraft assigned to Security and Support battalions, a type 
of force structure which the AKARNG does not possess.
    It is important to note that the UH-72 aircraft is not equipped 
with any de-icing capability. There are no funds or Army intent to 
modify the aircraft with de-icing. The UH-72 flight manual states ``in 
case that icing conditions are entered unexpectedly, the icing zone 
shall be left in the quickest possible way.'' All Army operators of UH-
72 aircraft must therefore avoid operating the aircraft in icing or 
forecasted icing conditions. Given these restrictions, operation of the 
UH-72 in Alaska would be hampered throughout much of the State during 
much of the year.
    At this time, the AKARNG's Force Structure Strategic Plan indicates 
a need for CH-47 aircraft (as a replacement for C-23s) and aviation 
maintenance force structure--not UH-72 aircraft or Security and Support 
battalion force structure. In addition, the ARNG 2010 UH-60 MEDEVAC 
expansion plan allocated to the AKARNG, a three-ship UH-60 MEDEVAC 
Detachment. One of the tenets of the UH-60 MEDEVAC expansion was to 
ensure every State, territory, and the District of Columbia had either 
a UH-60 or UH-72 MEDEVAC capability. As a result, the AKARNG is 
programmed to grow from 20 UH-60s to 23 UH-60s on/about fiscal year 
2016.

    Senator Murkowski. Thank you, Mr. Chairman.
    Senator Durbin. Thanks, Senator Murkowski.
    General Ingram and General Talley, the Army National Guard 
had a 17-percent increase in suicides from 2011 to 2012; the 
Army Reserve, a 30-percent increase.
    How are you responding to this trend in addressing the 
mental health of soldiers?
    I want to note for the record that the civilian suicide 
rate for males aged 17 to 60 was 25 percent per 100,000 in 
2010, the latest year we have statistics, compared with the 
military's current rate of 18.3. To put it in perspective, the 
civilian rate is higher, significantly higher, than the 
military rate. But at the same time, we are seeing pretty 
dramatic increases between 2011 and 2012.
    I would also like, if you would make part of your answer, 
to address the fact that many serving in the Guard and Reserve 
have been activated and whether that has had an impact on 
suicide rates, and whether the number of deployments can be 
tracked to any changes in these numbers. Also, please answer 
whether or not there has been adequate follow up for those who 
have served in terms of post-traumatic stress disorder (PTSD) 
and other issues that they might confront because of their 
service to our country.
    General Ingram, I will let you go first on that.
    General Ingram. Thank you, Senator.
    In fact, less than half of the number of suicides were 
committed by soldiers who had deployed. So non-deployers are 
around 50 percent of the numbers that we are seeing.
    The Army National Guard had 99 suicides in 2011, and 110 in 
2012; so it is an upward trend. And unfortunately, the trend is 
continuing to trend up for 2013. It is a daunting challenge 
with a geographically dispersed force. We only see our 
soldiers, essentially, one weekend or one time each month.
    We have trained a number of Master Resilience Trainers. 
That is the mechanism that we are using to increase suicide 
awareness, both at the individual soldier level and for leaders 
all the way up the chain of command, and those Master 
Resilience Trainers, 2,800 across the Army National Guard, as 
well as 7,400 training assistants.
    Each State has a director of psychological health, and we 
are adding additional psychological health providers. These are 
credentialed providers that assist the States, assist the chain 
of command in the State of connecting soldiers that have 
suicidal tendencies with the right level of clinical providers 
at the local level. So these directors of psychological health 
are very, very valuable.
    And we have 54 State Suicide Prevention Managers that are 
trained and assist the, again, the chain of command inside the 
State with suicide prevention.
    And we are working with the Defense Centers of Excellence 
on Tele-behavioral Pilot Initiatives to reach areas that have 
gaps with providers and services, as well as with universities 
to train healthcare providers in the military culture and 
military cultural awareness including traumatic brain injury 
(TBI) and PTS.
    So we are working that as diligently as we can. It is on 
everyone's radar scope, and it is a tragedy when we lose any 
soldier, any person to suicide.
    Senator Durbin. General Talley.

                         ARMY RESERVE SUICIDES

    General Talley. Mr. Chairman, thank you for the question.
    Right from day one that I took command of the Army Reserve 
and became the Chief, which was in June, so about 10 months 
ago, my number one concern has been: How do we prevent and stop 
this tragedy of suicide? Not only in the Army Reserve, but what 
can we do in the Army Reserve that could be utilized elsewhere?
    I am absolutely tracking 50 suicides in the Army Reserve in 
calendar year 2012, 41 in calendar year 2011, and currently 21 
so far in calendar year 2013.
    The demographics are interesting. I will just be frank. 
When I first got into this position, I thought, ``Okay. Where 
is that suicide population? How do I get access to them? Can I 
look at the demographics?''
    I initially thought, ``This is part of our nonparticipation 
population.'' In other words, these are folks that are not 
actively involved in the unit. They don't come to work. We 
don't see them regularly. They are not actively involved. So I 
started drilling down on our nonparticipant population to see 
how I could somehow access them and engage with them.
    After about 3 or 4 months of looking at this, what I came 
to conclude was, I was wrong. The persons that are committing 
suicide in the Army Reserve are, in fact, people that come to 
work. The demographics are about 80 percent for 2013; 80 
percent male, 20 percent female. About half, a little over half 
are deployed. Eighty-five percent of them come to work. They 
are participating in battle assemblies. They are part of family 
readiness programs. In other words, they are the folks to your 
left and to your right that appear to be perfectly fine, but 
what you don't know is their personal life is in turmoil.
    The number one reason for the Army Reserves continues to 
be, first and foremost, a failed relationship coupled with 
financial stress. And then they will culminate with using 
alcohol or drugs to do the tragic event called suicide. Only 
about 35 percent of those are unemployed for calendar year 
2013.
    So the Army has got this comprehensive soldier fitness 
program that works pretty well at taking resiliency and making 
it higher. But I don't think that is going to solve our suicide 
problem in the Army and the Army Reserve. It takes people that 
have some level of resiliency and makes that resiliency higher. 
So I have been struggling to find de facto, the solution for 
this problem.
    Where I am right now in it is Dr. Kelly, who is the 
Commanding General for AR-MEDCOM, Army Reserve MEDCOM, is also 
a clinical psychologist in the private sector for over 30 years 
experience. He and I have been discussing this, and now we are 
in partnership with the University of Washington. I think, and 
he thinks, it has to do with coping skills or lack of coping 
skills.
    And so, that resiliency program in the Army takes people 
that have some resiliency and makes it better. I don't think, 
and Dr. Kelly doesn't think, those are the folks that are 
committing suicide. It is the folks that do not have the coping 
skills to deal with those emotional issues associated with a 
breakup in a significant relationship or financial stress.
    And so, we are partnering with him to now create some sort 
of emotional training program that, coupled with our resiliency 
program, that we think will get after the suicide population. 
But I am going to apply it to all of the Army Reserve because 
what I cannot find out is I cannot tease out where that suicide 
subpopulation is.
    Senator Durbin. Thank you.
    Before turning to Senator Cochran, I want to welcome our 
new chairman, Chairman Mikulski. Thank you for joining us in 
your new capacity. I am honored to serve with you.
    Before we leave this subject, though, I don't want to leave 
it without giving an opportunity to anyone else at the table 
who has some perspective on this that has not been covered by 
the testimony that you have just heard; if there is something 
that you found in your experience on this suicide rate and 
suicide prevention that you could share with us now. I will 
just leave it open to anyone who would like to respond.
    Okay. I think General Talley and General Ingram have given 
us good responses on those.
    I will go to Senator Cochran at this point. Well, I see 
Senator Coats is here.
    Senator Cochran. Oh, yes. Go ahead. Go ahead and recognize 
him.
    Senator Durbin. Okay. Senator Coats and then Senator 
Mikulski.
    Senator Coats. Thank you, Mr. Chairman.
    I have two specific questions. The first one to General 
Ingram, or, I am sorry, General Clarke. Can you describe for me 
what the current plan is for the Joint Strike Fighter (JSF) in 
replacement of the A-10s? Particularly in regards to if there 
is a timeline relative to when different selections will be 
made in terms of replacement, and what criteria is being used 
for that? I am aware that, I guess, five Guard A-10 
associations have already been entered into and others will 
come along.
    And I am also interested in how you rank installations, 
particularly in regard to the fact that, apparently, there are 
some noise issues with the JSF. And if that is the case, how 
does that factor into the selection process?
    Just give me an overall, if you could, in a general way. 
Not specific to any particular installation, but how is this 
process working? What does the timeline look like? What more do 
I need to know? We've got an issue in Indiana in that regard, 
and I would like to be able to give those people some answers.
    General Clarke. Yes, sir. Colonel Augustine leads a great 
group of airmen there at Fort Wayne.
    Senator Coats. He does.
    General Clarke. And flying A-10s, which is one of my 
personal favorites, and that is where I grew up in the Air 
Force flying the A-10s. However, they are getting old. They are 
legacy fighters and that is why we are talking about Joint 
Strike Fighters as a possible replacement in the combat Air 
Forces for the A-10 and other aircraft.
    The timeline shifts to the right because of development 
delays and other things, but we want to get the program right. 
I know that the Air Force is doing the best it can to get the 
buy rate on the airplane up, but it is appropriate that all the 
testing and development and everything for the airplane matches 
receiving the aircraft into the force.
    As far as basing goes, the Air Force has a highly codified 
process for bases it selects to bed down aircraft. It takes in 
many factors beyond just location and existing facilities, 
environmental studies, personnel. There are many things that go 
into the basing criteria. It is a highly codified process and 
that is true for whether it is Joint Strike Fighter, the KC-46 
tanker, or any other plane or aircraft that the Air Force might 
procure.
    Among those, the Air Force looks at all the locations. It 
does not single out any of them and say, ``You're not on--in 
consideration.'' It will put them into consideration and then 
as it moves up a list, it starts to narrow that list down to 
the locations, maybe a shorter list, if you will, that it would 
like to bed down aircraft.
    As far as timing goes, it is hard to put a finger on 
exactly when we would see a full flow of the aircraft coming 
into either the Air Force, regular Air Force, Air National 
Guard, or Air Force Reserve. But we are looking at 2020 
timeframe to really start seeing the bed down process start to 
pick up. And we will see the airplanes being replaced out 
there, the legacy fighters.
    Senator Coats. Good. Thank you. I appreciate that. You said 
2020.
    General Clarke. Yes, sir.
    Senator Coats. Roughly.
    General Clarke. Yes, sir.
    Senator Coats. And I am one that is not here to say, you 
know, my base or no base, or this base. I am not in a position 
to evaluate that.
    I am happy to hear that you have a highly codified process 
in which you work through, and I think that is the way it ought 
to be. In these times of austerity, we cannot afford to play 
favorites here. If it does not meet the cost and criteria that 
is necessary to make the best decisions that we can. So I 
appreciate that and happy to have you continue to give us 
progress reports on where we are going.
    Second question is to General Ingram and probably General 
Clarke. We have had a situation where we have an off ramp 
situation relative to deployment to Africa of some Guard units 
from Indiana. It came with short notice and I think the 
question here is: There's, again, this is the decision left to 
the military. It should not be politically influenced, but it 
does affect those who had made decisions relative to the 
deployment and now have to unmake those decisions, and 
particularly as it relates to early TRICARE and stabilizations, 
deployment pay, and student aid.
    Is there some flexibility here in helping those who 
suddenly now have the orders reversed to be eligible for those 
programs because they may not meet the specific deadline 
requirements?
    Could you address--I am not sure exactly who to direct this 
to, but?
    General Ingram. Senator, I am very familiar with that 
situation in Indiana. It was a hard decision by the Army to off 
ramp those units and there will be other off ramps in the 
future based on the Army situation this year with overseas 
contingency operations (OCO) funding and having money in 
different budget items than where it is really needed, as well 
as the effects of the continuing resolution and sequestration.
    I have spoken with Major General Umbarger on a regular 
basis about the hardship for those soldiers in those units that 
were off ramped with very little notice. And we are providing--
the Army National Guard Bureau is providing those soldiers with 
as much relief as they can get, waivers in some cases. Some 
things are statutory. They cannot be waived.
    Everything that we can do to lessen the impact of that 
untimely off ramping are being done for education, tuition 
assistance. I am not sure that we can extend TRICARE. That is 
one of the things that is statutory. But we are working very 
diligently to assist those soldiers in every way we can.
    Senator Coats. Thank you. And General Clarke, do you have 
any thoughts on that? Well, maybe I am asking--or, I mean, 
General Grass. I'm sorry. Yes.
    General Grass. Senator, first let me say that General 
Umbarger is the Adjutant General of Indiana. He did everything 
that he could to make everyone aware--all the way up through 
the leadership of the Army--how painful this was for his 
soldiers, and families, and employers. And he still today is 
continuing to make sure that we take care of them.
    I had an e-mail this morning from him that the Federal 
financial aid package that had a cutoff a month ago has been 
extended now for those soldiers that fell in under that off 
ramp. Also, I know that General Ingram's staff has worked very 
closely to extend the TRICARE. The TRICARE orders were cut 
early and they have extended that to try to take care within 
the legal bounds that we could work.
    We will continue to work very closely with General Umbarger 
to make sure if there is anything we can do within the 
Department that we go after that and take care of those 
soldiers.
    Senator Coats. Well, I would appreciate that. I appreciate 
your sensitivity to the plight of these Guard men and women who 
have made decisions with their employers, with their family, 
and did all the preparation work necessary. And all of a 
sudden, they understand these decisions sometimes have to be 
made, but it also has consequences.
    So anything I can do to help that process, if there needs 
to be some adjustment in regulatory authority or statutory 
authority, in order to give them what would reasonably be given 
in a situation like this, I would be happy to work with you.
    General Grass. Senator, if I could make one last comment.
    Senator Cochran asked earlier about the right AC/RC mix for 
the future, and are our folks ready to deploy and willing to 
deploy? The thing that jumped out at me on this off ramping of 
two units, the second unit was under 120 days. Here is a force 
that our traditional citizen-soldiers that their biggest 
concern was they don't have a chance to go fight for their 
Nation. That is pretty powerful.
    Senator Coats. It is.
    Mr. Chairman, thank you.
    Senator Durbin. Thanks, Senator Coats.
    Senator Mikulski.
    Senator Mikulski. Thank you very much, Mr. Chairman.
    Good morning to everybody, General Grass, and your entire 
leadership team. I wanted to come by, not only as a member of 
this subcommittee, but because of a battlefield promotion that 
I got in December with the passing of our beloved colleague, 
Senator Inouye, I became the chair, the full chair of this 
committee and had to assume many new responsibilities.
    I wanted to come here today to, first of all, express my 
gratitude to Senator Cochran who, at that time, was vice chair 
of the committee and helped me through, and offered like a 
continuity of government, if we will, as we dealt with 
Hurricane Sandy and other things.
    And also to lend my support to Senator Durbin; this is your 
very first hearing as the subcommittee chair on Defense. And he 
comes with such great ability and experience. So we are going 
to work together, and I want you to know, during these times, 
particularly relating to, as we face sequester, and the 
continuing funding resolution, that just as your people are 
ready to fight for America, we were ready to fight for you.
    I want you to know on a bipartisan basis, every man and 
woman at this table fought for the continuing funding 
resolution; that there be no shutdowns, slam down, lockdown. 
And that we work for as much flexibility as that we could give 
you.
    And I want to thank everybody. Senator Durbin, you really 
were a stalwart as you stepped forward. Senator Cochran, your 
wise guidance, Senator Shelby.
    So we want you to know as you struggle with so much, we are 
here working on a bipartisan and even bicameral basis to be 
able to help you.
    We are now moving ahead to 2014. I have met with Secretary 
Hagel, Deputy Secretary Ash Carter, General Dempsey so that we 
can restore regular order so that this budget, this 
appropriations will move forward.
    And we intend to mark up at the $1.058 trillion level, the 
same as we agreed in the American Taxpayers Relief Act. There 
will be tensions because the House wants to markup at $966 
billion, but there are always tensions with the House, and we 
believe we can resolve them.
    But what we wanted you to know is that we are going to work 
together and we are working together. I am very proud of this 
subcommittee, its leadership, and the way this Appropriations 
Committee is. So you should know, we are on your side.
    There are many other questions to be pursued. And I just 
have one area that I would like to pursue with Senators Durbin, 
Cochran, and others, and that is the Department of Veterans 
Affairs (VA) disability backlog. And in listening to my 
Maryland veterans, and seeing the--Baltimore has one of the 
worst backlogs in the VA--that the National Guard is often kind 
of like an Orphan Annie or an Orphan Andy in this because the 
records do not come to the VA.
    So General Grass, I would like to just not take the time 
today, but I would like to really hear as we work, again, on a 
bipartisan basis to make sure that no veteran has to stand in 
line for such a long length of time. That we make sure that the 
men and women who served in the National Guard are part of a 
process that, we hope, to eliminate the backlog. And I am 
really worried about it.
    It goes to the line of questioning that Senator Coats just 
raised about the benefit package and the others. So if they are 
ready to fight, we are ready to fight for you. And help us make 
sure that if any guardsman has been injured and is eligible for 
disability, they are not in a backlog or a Sargasso Sea of 
bureaucracy, tangled in the seaweed of inefficiency. So that 
was a complicated metaphor, but you know what I meant.
    So anyway, thank you very much, Mr. Chairman. Senator 
Cochran, thank you for all your help.
    Senator Cochran. Thank you, Madam Chair.
    Senator Durbin. Thank you, Madam Chair.
    Senator Cochran.

                         RESERVE FORCE TRAINING

    Senator Cochran. Mr. Chairman, in looking over my notes in 
preparation for the hearing, I was curious to know whether or 
not our naval forces are benefitting from an Active Reserve 
fleet, and whether or not the training opportunities, shipboard 
experiences are available to our Reserve forces in the manner 
which keeps them up-to-date and ready to be deployed in case of 
Active Duty requirements justifying activation of Reserve units 
or others.
    As a pilot as well, the need for training and being ready 
to deploy on a carrier, engage in air operations that 
particularly requires up-to-date training.
    Do we have sufficient funding in this budget request that 
will provide the training and Active Duty opportunities to keep 
the Navy Reserve forces ready?
    Admiral Braun. Mr. Vice Chairman, thank you for the 
question.
    I always love talking about this because our Navy 
reservists right now are deployed literally around the world. 
So you have heard about the Afloat Forward Staging Base, the 
USS Ponce that is out there in the gulf right now. And we do 
have Navy reservists who are onboard that ship right now. We've 
got the Air Boss, happens to be a Navy reservist from the State 
of Illinois.
    And then if we look at the LCS Freedom that is on its way 
to Singapore. We've got Navy Reserve sailors who are onboard 
the Freedom, and they will have Navy Reserve sailors who will 
meet them in Singapore who will help do maintenance on that 
ship. So we are integrated with the Active component.
    Right now, we also have a group of Navy reservists who are 
deploying with one of our carrier strike groups. So it is not a 
large number, but we have opportunities for our sailors to be 
able to maintain their currency.
    I will also tell you that we've got a group of about 300 
sailors who are out right now as a part of a harbor defense, a 
Coastal Riverine group, and they are out in the gulf right now 
as well.
    As far as aviation, the Navy Reserve provides all of the 
fleet air logistics, so moving cargo and passengers around the 
world for the Navy. That is provided by the Navy Reserve and we 
do that mainly in the C-40 aircraft that Congress has been so 
great to help us with and provide for us. And in this recent 
bill, we do have another C-40, so I want to thank you for that.
    Those C-40s were to replace the original 27 C-9 aircraft, 
and right now, we have four of those aircraft left. We are 
looking for replacement to have 17 C-40s in the final buy. 
Right now, we've got 50. I'm sorry, we've got 15 that are 
spoken for. So we very much appreciate the help to get those C-
40s because that aircraft enables us to move our sailors around 
the world, and that is flown by Navy Reserve crews. We also 
have about 75 percent of the adversary support to the Navy is 
done by Navy reservists in our F-18 and F-5 aircraft.
    So I would say that the budget does support the training 
and readiness of those sailors no matter what the designator or 
specialty that they are in. But again, we very much appreciate 
the add of the C-40 in the last bill, and we also appreciate 
the NGREA that comes to us every year. That has enabled us to 
provide the patrol boats, the Seabee equipment, the cargo 
handling equipment, our SEAL teams. We have two SEAL teams who 
are deployed in squads right now, and that funding provides 
equipment for all of those sailors.
    Senator Cochran. Thank you very much.
    Admiral Braun. Thank you.
    Senator Cochran. Thank you, Mr. Chairman.
    Senator Durbin. Thank you.
    Senator Murkowski.
    Senator Murkowski. Thank you, Mr. Chairman.
    General Clarke, for several years now, it has probably been 
about 3, maybe even 4 years, I have been asking about the 
status of the Active association. What that status is for the 
Alaska Air National Guard's 168th Wing there at Eielson? And 
the response over these past several years has been, ``Well, 
we're considering it.''
    I think it is very clear that the 168th has more work to do 
in the North Pacific than it can reasonably accomplish given 
the personnel, given the equipment that they have assigned to 
it.
    They are clearly, clearly eager, and anxious, and ready to 
take up the challenge of the expansion, but I do not see any 
progress in responding to this request.
    Can you give me an update on that?
    General Clarke. Yes, ma'am.
    We pursue Active associations on a variety of platforms 
including the tanker fleet, and the 168th, as you mentioned, 
does a wonderful job of supplying the, quite frankly, the 
mobility backbone for the Air Force with the tankers that we 
have in that area.
    So we, in the Air National Guard, we are in favor of the 
Active association there. I think it would, obviously, give us 
an opportunity to associate with Active airmen, but also beyond 
that, it increases the capability of the unit to provide 
tanking for the joint force.
    So the Air Force goes through the process to determine 
where they want to do Active associations, and we will continue 
to work with their mobility command to see if they will put an 
Active association there at the 168th.
    Senator Murkowski. Well, I would appreciate your support of 
that, and again, I guess there is just a little frustration 
because it seems that most would agree that it is reasonable, 
would allow for that expansion that is important. And why we 
have not be able to kind of get it at off center here and 
moving forward, has been a point of contention. So maybe we can 
think about ways that we can encourage that process along, 
because I do think it is important.
    Of course, we are only seeing increased attention to what 
is going on up North and in the North Pacific, and as you point 
out, the 168th is doing a fabulous job for us, but they are 
ready to do more as well.
    Let me ask one final question here and this relates to the 
C-130 upgrades, as the Pentagon is planning to rely on the 
existing fleet of C-130s instead of the C-27Js.
    Would you concur that there is a need out there for C-130 
propulsion upgrades? And I guess it goes to the bigger 
question, to what extent do you think that the Air Guard should 
be modernizing its aging fleet here?
    General Clarke. Yes, ma'am. Well, I will take the last part 
of that first, if you don't mind.
    Senator Murkowski. That's the easy one, right.
    General Clarke. Well, my personal opinion, what makes us a 
Total Force as an Air Force is the fact that we meet the same 
standards, we take the same inspections. If we have operational 
engagement in the Operational Reserve, some people call it 
Operational Force, and we want to stay engaged in the 
Operational Force as much as possible.
    There was an earlier question about that is: How much we 
will deploy and participate in a variety of things? And 
resourcing is obviously the last part of that, so there is 
really four parts to it.
    With regard to the resourcing and keeping up our fleet, Air 
National Guard operates the oldest aircraft in the Air Force. 
Therefore, it is important that the modernization funds are 
there to support the upgrades of the aircraft.
    And the C-130s, whether it is propulsion or the avionics 
itself, in order to comply with international airspace 
requirements that are coming up, we need the funding in order 
to ensure that we can upgrade the aircraft to comply with 
combatant commander requirements and international airspace 
requirements. So we are pursuing those funding.
    Now, I want to thank the members for NGREA, because that 
makes a difference in modernization of the aircraft. We have 
been able to do remarkable things with NGREA funds to get these 
aircraft as capable as they can be despite their age.
    So we are going to continue to work on all those 
modernization programs with the Air Force to ensure that these 
aircraft as capable as possible, and participate fully in 
recapitalization of the aircraft as well.
    Senator Murkowski. I appreciate that and I thank you for 
your response.
    Mr. Chairman, I would just conclude with a comment to you. 
You asked some specific questions about what we are seeing with 
suicide within our Guard and the statistics that are out there, 
recognition that it might not be connected necessarily to 
deployments. But I think, and General Talley you mentioned lack 
of coping skills and how we might be able to provide for better 
support.
    In Alaska, we have some not so unique, but maybe just a 
little more accentuated. We've got very rural areas where our 
Guard members come back and there is no support. They are out 
in a very small village, services aren't there, and how we can 
provide for the level of care and support I think we would all 
want is very challenging.
    And so the discussion about how we can do more with tele-
behavioral health and utilizing these networks that we have 
been forced, maybe blessed, to pioneer some of the tele-health 
advantages in a State like Alaska. But I do think it is 
something that we need to look to.
    I have always said if we are going to have some kind of 
counseling or interaction, engagement that you need to have 
that one on one. I think we recognize that with our younger, 
whether they are Active or whether they are Reserve, the 
younger folks are used to that communication with their little 
electronic gadgets and gizmos. They don't necessarily need to; 
they are not looking for the same type of personal one-on-one, 
and I think we need to look to our technologies to how we can 
address this better.
    But it is an issue I am very focused on and would certainly 
like to work with you, Mr. Chairman, on this.
    Senator Durbin. Thank you very much, Senator. It is a 
timely issue and an important one.
    I have not gone into any depth on the issue of sexual 
harassment. The Armed Services Committee had considerable 
hearings on this issue, and I addressed it with most of you 
when you visited my office here concerning the efforts that are 
underway.
    I was told that Senator Leahy was coming. I was hoping that 
we could give him an opportunity to ask, because I know of his 
career-long dedication to the Guard and I am afraid he has 
not--has the staff had any word as to whether he is coming? On 
his way. Well, at this point, I am afraid we are going to have 
to adjourn. I hope that he will come up for a good excuse for 
me.

                     ADDITIONAL COMMITTEE QUESTIONS

    I want to thank this panel for their testimony here today, 
and for your service to our country, first and foremost.
    I would like to thank you for being here and for your 
testimony. You have given us a critical component of our Armed 
Forces, and your career work, and we are grateful for your 
service.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]
             Questions Submitted to General Frank J. Grass
            Questions Submitted by Senator Richard J. Durbin
    Question. As budgets and Active Duty end strength both come down in 
the coming years, what capabilities and functions could be more cost-
effectively absorbed by the Guard and Reserves in the event the Nation 
needs them in a future conflict?
    Answer.
Air National Guard
    The Air National Guard (ANG) benefits the Total Force and the 
Nation by accomplishing those missions most closely aligned with its 
enduring strengths and heritage. The ANG has a unique Federal-State 
relationship that ties decisions on American power to American 
citizens. As a part-time, surge-to-war Reserve component, the Air Guard 
offers an affordable way to maintain operationally ready capacity in a 
fiscally constrained environment which in turn provides senior leaders 
with strategic options that will preserve force structure and allow for 
recapitalization. The dual-use construct allows affordable Total Force 
capacity that can be used by governors, under appropriate statutory 
authorization, for State missions. Highly experienced ANG Airmen 
provide a reliable defense and security capability. Lastly, our deep 
connection to the community brings diverse capabilities together, 
drives innovation, enables local civil support, and fosters trust by 
bolstering America's relationship with the military.
    There are a number of functional areas and mission sets that are 
well-suited to the ANG and these are based on unique strengths that 
stem from our militia heritage. On the other hand, fulltime heavy 
missions with high OPSTEMPO are not only more expensive for the ANG to 
execute, but they also strain local employers. Service Core Functions 
(SCFs) and their associated missions which require surge-to-war 
capacity/capability that utilize part-time manpower and have a 
manageable OPSTEMPO align well with the ANG:
  --Air Superiority (AS)
  --Global Precision Attack (GPA)
  --Rapid Global Mobility (RGM)
  --Personnel Recovery (PR)
  --Agile Combat Support (ACS)
  --Contingency Response Groups (CRGs)
  --Weapons of Mass Destruction Civil Support Teams
  --Chemical, Biological, Radiological, Nuclear and high-yield 
            Explosives (CBRNE) Enhanced Response Force Packages
  --Homeland Response Forces (HRF)
  --Fatality & Services Recovery Response Teams
  --Joint Interagency Training and Education Center
  --Eagle Vision
  --Modular Airborne Fire Fighting Systems
  --Component Numbered Air Forces
  --Flying Training Units
  --Aerospace Control Alert (ACA)
    Some emerging missions, where alignment is not yet fully 
understood, could also be suitable. These would include Cyber, Command 
& Control (C2), Education & Training (E&T), Space Superiority (SS), and 
some Special Operations (SO) missions.
Army National Guard
    The largest single function that can be cost-effectively moved into 
the Reserve components (RC) is manning. The Reserve Forces Policy Board 
report baselines the cost of RC Soldiers at approximately one-third of 
the cost of their Active component (AC) counterparts. This means that 
the RC can maintain units fully manned and partially trained at a 
fraction of the cost of the AC. When needed they can be mobilized and 
used in large numbers.
    Multiple (third party) studies and cost comparisons of the Active 
and Reserve components reveal:
  --The RC is consistently one-third the cost of the AC. ARNG units are 
        capable of executing all of the same missions AC units execute. 
        The principle difference is time required to train and deploy.
  --AC units are able to deploy more quickly because they are provided 
        higher levels of personnel, have more time to train and 
        training dollars. The speed at which RC units can be readied 
        for deployment is a factor of pre-mobilization resourcing, the 
        size of the unit, and the amount of post-mobilization training 
        required for the assigned mission.
  --For a modest investment the Army Force Generation (ARFORGEN) cycle 
        provides a rotating force pool of 55,000 Guardsmen ready for 
        employment each year.
    When considering specific unit types to move from the AC to RC, 
consider including Infantry, Stryker, and Armor Brigade Combat Teams, 
Fires Brigades, and their associated enabling units. The keys to 
successfully moving and maintaining any capability into the Reserve 
component are first assuring proper training and equipping of the unit 
as it converts from AC to RC, as it can take several years to 
successfully organize, train and equip a new unit before it is 
employable. Once established, the key to maintaining proficiency is 
access to the required higher level collective training events, steady 
resourcing for Schools and other personnel factors (medical, dental, 
etc.), and resourcing commensurate with the training levels required to 
meet pre-mobilization training objectives throughout the ARFORGEN 
cycle.
    Question. As we continue to withdraw forces from Afghanistan and 
draw down Active Duty end strength, will the Guard and Reserve be able 
to capitalize on excess Active Duty equipment or the massive investment 
in equipment procured over the last decade to train and equip forces 
for fighting the wars in Iraq and Afghanistan?
    Answer. The Army National Guard (ARNG) is engaged with Department 
of the Army concerning the opportunities to receive equipment being 
retrograded from Afghanistan. A recent Department of the Army analysis 
of the potential redistribution of Afghanistan equipment indicated that 
the ARNG could recover enough equipment from Afghanistan to increase 
Equipment On Hand (EOH) by at least 17,000 pieces. This would amount to 
an increase of .63 percent in the ARNG's EOH level, from the current 89 
percent to nearly 90 percent.
    In addition to equipment returning from Afghanistan, the Army G4 
estimates that equipment distributed to the force from depot 
maintenance facilities, as well as new procurement of equipment in 
fiscal years 2013-2016, will increase overall ARNG EOH to 92 percent in 
fiscal year 2016.
    The ARNG will continue to monitor the equipment retrograde scenario 
and seize every opportunity to accept returning equipment.
    Question. Outreach efforts such as the Yellow Ribbon Reintegration 
Program are particularly important for guardsmen and reservists and 
their families who are geographically dispersed across the country. How 
important and effective is this program for the Guard and Reserve? Are 
there areas where assistance is still lacking?
    Answer. The Yellow Ribbon Reintegration Program has made a 
difference in the lives of thousands of servicemembers and their 
families with informational events and activities to facilitate access 
to services supporting their health and well-being throughout the 
deployment cycle. We believe the current program is adequately taking 
care of our servicemembers and their families, but there is concern 
that because the Army and Air National Guard fund events with OCO 
dollars, future funds may be either very limited or not available at 
all. If the YRRP is not supported with appropriate funding, 
servicemembers and their families will be put at a disadvantage in 
receiving critical information and resources. Continuing support from 
Congress, the Military Departments, Federal agencies, nongovernmental 
agencies, and State and local partners will ensure our National Guard 
and Reserve servicemembers and their families remain strong and ready.
    Question. Are family support programs fully funded in the fiscal 
year 2014 budget request? From your perspective, are there programs 
that could be improved?
    Answer. Our baseline for family programs is fully funded; however, 
there are several programs funded by Overseas Contingency Operations 
(OCO) dollars in the past that are still essential for reintegrating 
our families.
    The Army National Guard (ARNG) Yellow Ribbon Reintegration Program 
(YRRP) is not currently funded in fiscal year 2014 as OCO funding will 
cease. YRRP events are supported and executed by contract personnel and 
Active Duty operational support funded military members. Venue and 
support costs for the servicemember and their participating family 
members are also OCO funded, to include child care during the events, 
per diem, and travel.
    The ARNG YRRP is projected to support more than 1,200 events and 
over 147,846 individuals in fiscal year 2013. YRRP events are fully 
supported by OCO funding, and without these funds in fiscal year 2014, 
the program is not sustainable. 17,000 ARNG soldiers are projected to 
be mobilized in fiscal year 2014, and YRRP projected costs are 
$88,824,000.
    The Air National Guard (ANG) program is also funded with OCO 
dollars. Currently, 150+ YRRP events with 3,500+ ANG members in 
attendance are scheduled for fiscal year 2013. 300+ YRRP events with 
7,000+ members are still projected for fiscal year 2014 at a cost of 
$29.3 million.
    Funding also supports Director of Psychological Health (DPH), 
Wingman Project, and other contracts that support/enhance YRRP events.
    The ANG Strong Bonds Program is also funded by OCO dollars. This 
Chaplain Corps led program seeks to increase Airmen and family 
readiness through relationship education and skills training, which is 
beneficial in reducing day to day military stressors, divorce, and 
increasing marriage and family harmony while offsetting the possibility 
of suicide from breaches in family relationships.
    One program that is a priority to improve is the Airman & Family 
Readiness Program Offices (A&FRPOs). These offices function in a one-
stop shop. As members return home to communities across the U.S., they 
and their families will require sustained family support services 
focused on work/life integration programs. The A&FRPOs are intended to 
address the concerns related to potential suicides, high unemployment, 
and unsecured financial debt, which impact mission readiness as well as 
the quality of family life. A&FRPO personnel provide direct educational 
support services and links to community resources.
    Question. U.S. Cyber Command is planning a significant expansion of 
its force structure, and the Guard and Reserve are well positioned for 
this buildup as some servicemembers already hold information technology 
positions in their private sector jobs.
    What role will the Guard and Reserve play in support of the build-
up in personnel at U.S. Cyber Command?
    Answer. The National Guard is working with the service components 
of U.S. Cyber Command to establish teams that will be organized into a 
unit-based structure according to the design of U.S. Cyber Command's 
Cyber Force Model to support the Department of Defense's cyber mission. 
As of this time neither National Guard component has received official 
notification from its respective parent Service that the Service will 
develop and allocate additional cyber force structure to the National 
Guard through the formal force development and force allocation 
processes.
Air National Guard
    Currently providing some very limited individual staffing of cyber 
personnel at USCYBERCOM. Through the Chief, National Guard Bureau, the 
Air National Guard (ANG) was encouraged to offer both near and long-
term force presentation options to USCYBERCOM and AFCYBER. The ANG has 
offered to man one Cyber Protection Team (CPT) beginning in fiscal year 
2013. If the Air Force can muster the required resources the ANG 
intends to man its CPT volunteer Air Guardsmen for a period of duty 
that could last up to 3 years. The ANG's long-term approach to support 
the build-up in personnel at USCYBERCOM is to work with Air Force Space 
Command and AFCYBER to develop and align permanent ANG cyber forces in 
support of both the USAF and USCYBERCOM missions.
Army National Guard
    Working with Army's cyberspace proponent office to determine the 
Reserve component cyber integration strategy for the CYBERCOM Cyber 
Mission Forces build. The Army National Guard (ARNG) desires for the 
Army to develop allocate and align dedicated and enduring cyber force 
structure to the ARNG. As an interim measure, ARCYBER has agreed to 
allow the ARNG to source one Cyber Protection Team using individual 
volunteer ARNG members while awaiting Army formal force development 
decisions for any possible enduring dedicated ARNG cyber force 
structure. If the Army does allocate dedicated and enduring cyber force 
structure to the ARNG the ARNG intends to station these teams at 
appropriate locations in as many of its States and territories as is 
feasible. The ARNG desires to have cyber force capacity to perform the 
full range of cyberspace operations (defense, exploit, attack) which 
will provide the nation with an agile and flexible capability that can 
seamlessly operate at the critical nexus of Federal expeditionary and 
State domestic levels.
    Question. What cyber missions do you believe the Guard and Reserve 
are most well-suited to fill?
    Answer. The NG has some inherent and unique attributes that make it 
very well suited for the full spectrum of cyber missions (Defensive, 
Protection of DOD Information Networks and Offensive). The NG is 
especially well suited for any and all cyber missions that require 
proximity to, and relationships with, non-DOD cyber infrastructure 
owners and operators. These missions might include vulnerability 
assessments, network hardening and incident response to cyber events in 
the United States. The NG is also well suited to provide a portion the 
Army and Air Force Services' cyber training base. The NG desires for 
the Services to develop, allocate and align dedicated and enduring 
cyber force structure to the NG that DOD could mobilize and employ 
under Federal control and that Governors and Adjutants General could 
utilize under State control when not federalized.
Air National Guard
    The Air National Guard (ANG) currently performs offensive and 
defensive cyber operations. The ANG envisions all cyberspace operations 
missions and many cyber support missions (e.g. training, digital 
network intelligence, etc.) are compatible with the National Guard and 
congruent with the ANG Capstone principles. Most cyber missions have a 
surge element and the ANG can best serve the role of providing surge 
capacity for the regular Air Force component. In keeping with the ANG 
Capstone principles (Militia construct, dual-use capabilities), the 
Guard and Cyber missions are extremely compatible. In particular, in 
the cyber defense arena, the Guard's unique attributes like: proximity 
to a cyber events and effects in the Homeland and relationships with 
those infrastructure owner and operators; unique law enforcement 
authorities; and civilian acquired skills, place the ANG in an 
advantageous position to provide cyber defense from the State/local 
levels up to an including a Federal response in a range of duty and 
control statuses (State Active Duty, State controlled title 32, title 
10).
Army National Guard
    The Army National Guard (ARNG) desires to have cyber force capacity 
to perform the full range of cyberspace operations (Defensive, 
Protection of DOD Information Networks and Offensive). The ARNG desires 
for the Army to allocate to the ARNG dedicated cyber force structure 
that is more heavily weighted on defensive cyber capabilities more so 
than attack and exploitation.
    Question. How is the Guard analyzing and (if applicable) planning 
to ensure geographic diversity in its units in order to have Guard 
assets aligned with critical infrastructure and technology hubs 
nationwide, as well as aligned with the best personnel pools in the 
civilian population in order to recruit talented cyber-warriors into 
the Guard and Reserve?
    Answer.
Air National Guard
    Operationally, the Air National Guard (ANG) considers many 
pertinent factors for placement of a cyber unit. First is the potential 
recruiting pool. The pool will ideally provide candidates with 
information technology and/or intelligence backgrounds. These 
recruiting pools are typically present in locations with abundant 
technical industry, institutions of higher learning and critical 
infrastructure, to list a few. The ANG provides input to the Air 
Force's Strategic Basing Process to help shape present and future 
basing plans.
Army National Guard
    The ARNG is currently conducting mission analysis to ensure that 
guard assets will be properly aligned with cyber mission requirements. 
Analysis will provide reasonable estimates of the number of U.S. 
citizen IT professionals and academic institutions in each geographic 
area that may be useful in cyber-conflict scenarios and available for 
recruitment. Concurrently, we will leverage existing Guard soldiers 
with civilian acquired cyber skills located throughout many of the 
states and territories to develop a fully capable cyber force able to 
conduct the full range of cyber operations. The ability to perform and 
sustain cyber operations requires three things: a population 
demographic that can generate a cyber soldier, investment in secure 
infrastructure, and appropriate career fields that can contribute to 
cyber operations.
                                 ______
                                 
              Questions Submitted by Senator Mark L. Pryor
    Question. In a letter dated February 11, 2013, General Welsh 
indicated to me that the 120-person targeting unit being activated at 
Fort Smith would be funded in fiscal year 2013 through a Program Change 
Request which would result in the unit being funded across the FYDP. 
Has that Program Change Request happened yet?
    Answer. The fiscal year 2013 Appropriation Act did not include 
procurement funding for the activation of the 120-person Arkansas Air 
National Guard (AR ANG) targeting unit; as such, there is no fiscal 
year 2013 funding for this unit's activation. However, the Air Force 
remains committed to activating the AR ANG unit and is developing a 
Program Change Request to fund it beginning in fiscal year 2014 and 
continue that funding across the FYDP.
    Question. Is the 120-person targeting unit being activated at Fort 
Smith funded in the fiscal year 2014 budget request?
    Answer. In order to submit a final and balanced budget to OMB for 
processing and inclusion in the fiscal year 2014 President's budget 
request to Congress, OSD locked the final budget position in January 
2013. This OSD budget reflected fiscal year 2014 impacts resulting from 
the force structure changes in the 2013 NDAA, but was not available for 
modifications to reflect the AR ANG targeting unit. Instead, AF planned 
to reallocate a portion procurement funds provided in the NDAA for the 
ANG targeting enterprise to begin the unit activation and then initiate 
a Program Change Request to fully fund it across the FYDP. Because the 
fiscal year 2013 DOD Appropriation Act did not provide those 
procurement dollars, AF will accomplish all of the funding changes in 
the fiscal year 2014 Program Change Request.
    Question. With the loss of the A-10s at Fort Smith, there is 
concern about the Airport Joint Use Agreement, as well as Crash and 
Fire Rescue services. In a letter dated February 11, 2013, General 
Welsh stated that ``the National Guard Bureau is working to resolve and 
cover these future unfunded requirements.'' So does the current budget 
proposal fund these items?
    Answer. All fiscal year 2013 National Defense Authorization Act 
actions will be reviewed by the National Guard Bureau (NGB). NGB will 
fund services that are required. Analysis of new mission fire risk must 
be validated to determine required services. At this time NGB does not 
have sufficient Federal funds to reimburse the State of Arkansas for 
Airfield Rescue Firefighter (ARFF, formerly known as Crash Fire Rescue) 
services under the Master Cooperative Agreement.
            Airport Joint Use Agreement (AJUA)
    Air National Guard (ANG) currently has an AJUA with Ft. Smith 
Airport to pay $61,825 per year, currently in the process of 
negotiating an extension to provide payment through September 2014. ANG 
also provides other services in kind to the Airport Authority that 
allow the airport to avoid costs from providing the services 
themselves. Title 49 U.S.C. section 47107 paragraph (a)(11) provides 
that each of the airport's facilities developed with financial 
assistance from the United States Government and each of the airport's 
facilities usable for the landing and taking off of aircraft always 
will be available without charge for use by Government aircraft in 
common with other aircraft, except that if the use is substantial, the 
Government may be charged a reasonable share, proportionate to the use, 
of the cost of operating and maintaining the facility used.
            Substantial Use
    FAA Grant Assurances form part of the ``contract'' between the 
airport receiving FAA funds and the Federal Government. Grant Assurance 
27 defines substantial use:

    ``27. Use by Government Aircraft. It [airport owner/operator] will 
make available all of the facilities of the airport developed with 
Federal financial assistance and all those usable for landing and 
takeoff of aircraft to the United States for use by Government aircraft 
in common with other aircraft at all times without charge, except, if 
the use by Government aircraft is substantial, charge may be made for a 
reasonable share, proportional to such use, for the cost of operating 
and maintaining the facilities used. Unless otherwise determined by the 
Secretary, or otherwise agreed to by the sponsor and the using agency, 
substantial use of an airport by Government aircraft will be considered 
to exist when operations of such aircraft are in excess of those which, 
in the opinion of the Secretary, would unduly interfere with use of the 
landing areas by other authorized aircraft, or during any calendar 
month that--
  ``a. Five (5) or more Government aircraft are regularly based at the 
            airport or on land adjacent thereto; or
  ``b. The total number of movements (counting each landing as a 
            movement) of Government aircraft is 300 or more, or the 
            gross accumulative weight of Government aircraft using the 
            airport (the total movement of Government aircraft 
            multiplied by gross weights of such aircraft) is in excess 
            of five million pounds.''

    Under the current conditions involving ANG aircraft at Ft. Smith AR 
airport, ANG meets the condition for substantial use by having more 
than five Government aircraft regularly based at the airport. However, 
the proposed new missions for the ANG at Ft. Smith do not include five 
or more Government aircraft based at the airport, and do not include 
projections that ANG will perform 300 or more landings or accumulate 
weight of ANG landing aircraft in excess of five million pounds per 
month. Thus upon departure of the currently based A-10 aircraft, the 
ANG will no longer be a substantial user of the airport, and within the 
definitions provided by 49 U.S.C. section 47107 and FAA Grant Assurance 
27, will no longer pay an AJUA fee to the airport authority. ANG 
projects the AJUA will be ended in the month following the departure of 
the final A-10 based at Ft. Smith, but not later than the AJUA 
expiration date of 30 September 2014.
    Question. Can you please explain how the National Guard and Reserve 
Equipment Account (NGREA) has impacted the Guard and Reserves over the 
past few years?
    Answer.
Air National Guard
    Fiscal realities have forced the AF to focus on long-term solutions 
spanning the range of potential conflicts, often times at the expense 
of modernizing legacy systems which are prevalent in the ANG.
    NGREA allows the ANG to keep legacy aircraft and systems relevant 
and capable for both overseas and domestic missions. NGREA is only 
spent on defined capability gaps that have been prioritized as critical 
to mission accomplishment by the field or COCOMs. Recent examples 
include:
  --ANG funded Helmet Mounted Integrated Targeting (HMIT) systems using 
        NGREA for F-16 block 30 and A-10 aircraft. The HMIT system 
        allows the pilot to ``look and shoot,'' enabling them to 
        acquire fleeting, high-value targets in seconds vs. minutes.
  --NGREA has enabled the ANG to procure 244 Advanced Targeting Pods 
        (ATPs) that are required to employ precision guided laser and 
        GPS weapons. The Air Force still has a shortage of ATPs for 
        Active Duty aircraft. Without NGREA-funded ATPs, ANG A-10s and 
        F-16 Block 30 aircraft would not be able to employ the 
        precision weapons that are critical to destroying pinpoint 
        targets, while minimizing civilian casualties and collateral 
        damage.
  --The ANG is using NGREA to fund the high-resolution Center Display 
        Unit (CDU) for older ANG F-16s. This cutting edge, all-digital 
        display will enable Guard pilots to utilize the full resolution 
        capability of the Litening and Sniper Advanced Targeting Pods. 
        This capability will significantly increase pilots' ability to 
        positively identify difficult targets such as enemy combatants 
        in the mountains of Afghanistan, and thus reduce the chances of 
        civilian casualties. It will also allow Guard pilots to quickly 
        identify airborne targets of interest at night while performing 
        the homeland defense mission in the U.S.
  --The ANG is integrating and procuring a lower-cost, podded version 
        of the Large Aircraft Infrared Countermeasures (LAIRCM) for KC-
        135s to counter widely proliferated, shoulder-fired infrared-
        guided missiles which are a significant threat during take-
        offs, landings, and low-altitude refueling missions. With the 
        KC-135 remaining in inventory for another 40 years, this system 
        will help to prolong its life cycle and protect the aircrew 
        that we send into harm's way.
    The ANG also relies on NGREA to fund critical equipment for 
homeland/domestic operations, which DOD and the Air Force do not 
recognize or validate and, therefore, do not fund.
  --Specific command and control (C2) capability gaps were partially 
        addressed through procurement of Mobile Emergency Operation 
        Center (MEOC) and Joint Incident Site Communications Capability 
        (JISCC) for on-site disaster response, and shared situational 
        awareness through a common operating picture.
  --Disaster Relief Beddown Sets (DRBS), water purification units, and 
        mobile kitchens provide shelter and food for ANG members 
        responding to domestic events.
  --NGREA provided firefighters with equipment for urban search and 
        rescue and hazardous materials response. It was also used to 
        provide security forces with less-than-lethal response kits, 
        and explosive ordnance disposal (EOD) personal protective gear.
  --NGREA was also used for modernization of expeditionary medical 
        support equipment supporting the CERFP/HRFs.
    NGREA allows the ANG to modernize legacy platforms and equipment in 
order to remain an equal and effective partner in the Total Force.
Army National Guard
    NGREA funding has significantly impacted the quantity of equipment 
on hand, our unit training readiness levels, and our ability to perform 
our dual mission.
    The Army National Guard (ARNG) has utilized NGREA to procure 
mission critical equipment that better enables our units to meet both 
their wartime and domestic missions. Critical Dual Use (CDU) equipment 
on hand levels have improved from 83 percent in fiscal year 2010 to 90 
percent in fiscal year 2013. This equipment increase has improved the 
ARNG capabilities to respond to domestic missions in support of State 
governors.
    NGREA provides the ARNG the ability to procure required equipment 
and training devices that the Army has not been able to procure. ARNG 
soldiers have benefitted through the opportunity to operate modern 
equipment and to train on critical mission skills through the use of 
NGREA procured training simulators and devices.
    Question. How important is NGREA to your readiness?
    Answer.
Air National Guard
    The readiness of the ANG is directly tied to the degree of 
interoperability that we maintain with our Active component and joint 
partners across the full range of operations. Training and deploying 
with old equipment that lacks the same capabilities as the Active 
Component is both a readiness and a relevance issue for the ANG. NGREA 
has been a major key to addressing both.
    Fiscal realities have forced the AF to focus on recapitalization 
into new systems such as the KC-46 and F-35. This emphasis on long-term 
solutions often occurs at the expense of modernizing legacy systems, 
which are prevalent in the ANG. NGREA is the ANG's life-blood in 
bridging critical capability gaps, ensuring our legacy fleet remains 
equivalent to the Active component and thus relevant to Combatant 
Commander requirements. It aids in our ability to respond to evolving 
threats, changing enemy tactics, and new missions, as well as natural 
and man-made domestic emergencies. Some examples of how NGREA bolsters 
the ANG's readiness include:
            Ground Based Sense and Avoid (GBSAA)
    Congress has mandated Remotely Piloted Aircraft (RPA) integration 
in to the Nation's airspace system by 2015. In order to meet FAA 
requirements, the ANG must have a scalable, transportable sense and 
avoid system for our RPAs to operate amongst civil traffic common to 
our community-based, shared-civilian-use airfields. The Active 
component does not share this priority for their RPAs because their 
airfields are located very close to, or within, restricted airspace 
where deconfliction with civilian aircraft is not an issue. As an 
illustration, MQ-9 operations at the NY ANG are currently operating at 
only 50 percent of their capacity because maintenance personnel must 
drive 2 hours each way every day to the RPA launch and recovery 
airfield located within restricted airspace. An NGREA-funded GBSAA 
system will significantly improve the efficiency of flight operations, 
increase sortie rates, and provide greater training opportunities to 
maintain readiness. With training requirements projected to increase as 
overseas operations draw down, this is a perfect example of how NGREA 
can directly contribute to increased readiness levels.
            Block 30 F-16s
    The Block 30 is the oldest variant of the venerable F-16 still 
flying in the USAF, and it is the backbone of the ANG fighter fleet. 
All combat units flying the Block 30 are in the ANG and Air Force 
Reserve Command, while the Active component flies newer Block 40 and 
Block 50 variants that have had significant avionics system upgrades in 
the last 10 years. NGREA has funded a nearly complete avionics refresh 
on the Block 30 over the same 10 year period. Because of these NGREA-
funded avionic upgrades, our Block 30 F-16s can now carry the GPS-
guided precision weapons that are mandatory in any theatre of 
operations. They also are now capable of supporting the Advanced 
Identification Friend or Foe system that is crucial to finding targets 
of interest in crowded civilian airspace while executing homeland 
defense Aerospace Control Alert, a core ANG mission. The ANG fighter 
fleet is ready and relevant because NGREA provided the resources to 
keep these aircraft on par with the Active component.
            Air Operations Center (AOC)
    ANG AOCs are two generations behind their Active Duty-aligned AOCs 
due to lack of funding for upgrades. This is impacting our ability to 
provide trained and qualified personnel to integrate seamlessly into 
the component headquarters and geographic combatant commands' AOCs. 
fiscal year 2013 NGREA has been allocated to begin upgrading ANG AOCs 
to the same baseline as the Active component, enabling ANG units to 
train like they fight, and thus be ready to seamlessly integrate with 
the Active component when called upon to deploy.
            Homeland Defense
    NGREA is also a significant source for equipping the ANG for its 
homeland mission, contributing to a force ready to respond at a 
moment's notice to a natural or manmade disaster. For example, NGREA 
has purchased personnel protective equipment for explosive ordnance 
disposal personnel, so they have what they need to safely respond to a 
bomb threat at home, or to diffuse unexploded ordnance while deployed. 
Expeditionary Medical Support equipment purchased with NGREA allows ANG 
medical staff to keep identical equipment as their Active Duty 
counterparts, and provides capability for a variety of domestic 
response missions as well. The Common Operating Picture (COP) system 
provides situational awareness for on-base emergencies such as an 
active shooter scenario. The purchase of this capability with NGREA 
enabled us to field it to our units 5 years ahead of the date the USAF 
was forecasted to deliver it to us, significantly enhancing our 
readiness levels now.
            Simulators
    NGREA has provided significant simulation training capability to 
the ANG over the last 5 years, significantly advancing readiness for 
ANG men and women in a variety of systems. The KC-135 Boom Operation 
Simulation System (BOSS) is a high-fidelity simulator which provides 
mission rehearsal training for our tanker boom operators. The Advanced 
ANG Joint Terminal Attack Controller (JTAC) Training System (AAJTS) 
provides an immersive domed trainer where Joint Terminal Attack 
Controllers can train without having to rely on live fly assets and 
heavily scheduled ranges. In the absence of NGREA-funded simulation 
systems, there would be a diminished capability to train Guard 
warfighters, on station, in realistic mission rehearsal scenarios. The 
impact on mission readiness would be significant.
Army National Guard
    NGREA is important to the ARNG, as it is used to procure Critical 
Dual Use (CDU) equipment to perform our wartime mission and provide 
domestic support capability to State governors. The ARNG has made 
significant improvements in equipment on hand levels as well as the 
modernization level of equipment available to our soldiers.
    NGREA has been critical to funding CDU items that have low 
equipment-on-hand percentages or that need modernization that are not 
able to be funded from the Army's budget. The procurement of CDU items, 
training devices, and simulators improves the ARNG readiness posture 
for both Homeland and Overseas Contingency Operations. NGREA provides 
the ARNG with the ability to supplement funding of Critical Dual Use 
(CDU) items and training systems that the Army cannot otherwise fund.
    Question. Given the fact that the President's budget did not 
include OCO funding for either Operations & Maintenance or Personnel 
accounts, what impact will this have on your ability to prepare for 
deployments supporting enduring missions in Kosovo, the Horn of Africa, 
and Sinai?
    Answer. The Kosovo and Sinai peacekeeping missions are currently 
funded in the base budget, while the Horn of Africa mission is funded 
through OCO. Army National Guard (ARNG) participation in all three 
missions is being reduced. The Active Army is now sourcing the forces 
for the Kosovo, Horn of Africa and Sinai mission which the ARNG has 
been performing for most of the past decade. The ARNG retains a small 
role in the Kosovo mission for personnel that the Active Army can't 
fill. The 35th Infantry Division (KS) is designated on the Notification 
of Sourcing (NOS) list to provide 64 personnel for Kosovo, mobilizing 
in December 2013/January 2014; the 1-150 Aviation Battalion (NJ) is 
designated on the NOS list to provide 56 personnel and mobilize in 
August 2014.
    OCO funding has been important to the ARNG to mitigate readiness 
concerns across the force, both for deploying and nondeploying units. 
Deploying units utilized OCO to build readiness, whereas OCO increased 
flexibility in base readiness accounts for nondeploying units. It is 
important to note that the ARNG must continue to be utilized on a 
regular, predictable basis if it is to be an operational force. 
Missions like those in the Horn of Africa, Sinai and Kosovo are ideal 
for our troops because they exercise the operational force while 
providing Guard soldiers, families and employers with the 
predictability they need to minimize negative impacts on their civilian 
careers and families.
    Question. As Guard and Reserve deployments in support of the war in 
Afghanistan reduce, OCO funding which supports training and readiness 
requirements will also decline. Given the fact that readiness remains a 
necessary requirement in peacetime, has your long-term budgeting taken 
into consideration these OCO reductions alongside enduring training and 
readiness requirements?
    Answer. The Army National Guard is working in conjunction with the 
Department of the Army to fund incremental support to maintain the ARNG 
as an Operational Force, maintaining the gains in readiness and 
training made over the past decade of conflict. Not only training, but 
utilization is critical to maintaining the ARNG as an operational 
force. The reduction of requirements in the future, in combination with 
the increase of Operational Reserve funds in the base budget, will 
mitigate the loss of OCO funding.
    Beginning in fiscal year 2013, funding was transferred from 
equipping accounts in order to fund the Operational Reserve (OR) 
requirements across the Future Year Defense Plan. The reduction of OCO 
will put some additional strain on the base readiness accounts, but if 
the current funding levels and future levels are maintained the ARNG 
will continue to be able to meet readiness objectives.
    ARNG OCO funding supports pre-mobilization training for units 
notified or alerted to deploy in support of named operations (deployed 
force), while OR funding supports enhanced readiness prior to entering 
the Army's ``available'' force pool (contingency force).
    In coordination with Army programming objectives, ARNG Operational 
Reserve funds are programmed through fiscal year 2017. The level of 
funding increases incrementally each year as expected overseas 
requirements diminish the need for pre-mobilization training (in the 
form of OCO funding). The fiscal year 2013 budget request included $78 
million for the ARNG OR. As overseas requirements reduce the need for 
OCO pre-mobilization dollars, the OR amounts programmed gradually 
increase to $429 million in fiscal year 2017.
    Question. In December 2012, the Reserve Forces Policy Board (RFPB) 
released a study titled, ``Eliminating Major Gaps in DOD Data on the 
Fully-Burdened and Life-Cycle Cost of Military Personnel: Cost Elements 
Should be Mandated by Policy.'' One of many observations from this 
study is that the cost of a Reserve component servicemember, when not 
activated, is less than one third of their Active component (AC) 
counterpart. Given the cost effectiveness of our Guard and Reserve 
Forces, a report such as this one would be critical to long-term force 
structure decisions, and ultimately inform budgetary decisions.
    Please discuss how this report has influenced your discussions on 
maintaining an operations Reserve as a member of the Joint Chiefs of 
Staff, and whether or not Guard and Reserve cost efficiency is being 
considered as part of the DOD's decision to off-ramp Guard and Reserve 
missions, and replace them with Active component forces?
    Answer. Guard and Reserve cost efficiency is not being considered 
as part of DOD's decision to off-ramp Guard and Reserve missions.
                                 ______
                                 
              Questions Submitted by Senator Thad Cochran
    Question. In testimony, each of you expressed the need to maintain 
a level of investment that supports your component's ability to 
function as an Operational Reserve. Would each of you share with the 
committee how you plan to prioritize and to balance your component's 
resources to support your strategic and operational roles?
    Answer. As a Strategic and Operational Reserve to the Army and Air 
Force, the National Guard provides a cost effective and ready-
capability to meet surge to war, contingency, or other requirements of 
the Services. The National Guard has demonstrated the capability to 
fully integrate into the Services--with trained personnel and ready 
equipment--and our capabilities mirror those of the Active Component 
and help to meet the force level requirements of the Defense Strategic 
Guidance. As we move forward in developing our programs, the National 
Guard will ensure our priorities to maintain and build capabilities 
align with our strategic priorities and with National Security 
Interests.
  --We will continue to work with DOD to develop the appropriate mix of 
        Active component (AC) and Reserve component (RC) elements best 
        suited to meet the National Security Interests.
  --We will continue to maintain sufficient capability and capacity to 
        support the National Military Strategy and also respond to 
        state emergencies.
  --We will remain relevant with improved capabilities in CBRN, such as 
        the Homeland Response Force (HRF) and CBRN Emergency Response 
        Force-Package (CERF-P).
  --We will enhance the State Partnership Program to continue to 
        support National Security Interests and will develop and grow 
        this program as the nation rebalances its global focus to the 
        Asia-Pacific area. As the Services move toward aligning their 
        forces to COCOMs, the Guard will also adopt this approach.
  --We will grow and enhance the National Guard role in cyber 
        operations.
  --We will continue to integrate our people into rotational force 
        cycles and strategy and retain/utilize the skills attained 
        during a decade of conflict.
  --We will maintain appropriate full-time manning levels (AGR and 
        Technician)--they are critical to unit readiness.
  --We will protect family and guardsman readiness, the All-Volunteer 
        Force, and the military link to community.
  --Conduct humanitarian, disaster relief, and other operations and 
        maintain rapidly deployable capabilities, including aviation/
        airlift, medical, security and logistics, to assist in these 
        situations.
    Question. I understand that the Army is conducting a force 
structure assessment and is on track to reduce Active Duty end strength 
to 490,000 personnel by 2017. I also understand they will be looking to 
reduce force structure by at least 8 Active Duty brigade combat teams. 
Considering the Guard and Reserve provide considerable support to the 
Active component, what impact will these reductions have on Guard and 
Reserve force make-up?
    Answer. At the Army National Guard's (ARNG) current end strength, 
reductions in the Active component (AC) will have minimal impact on 
ARNG force make-up. The ARNG will be reduced from its current 
authorized strength of 358,200 to an end strength of 350,200 by fiscal 
year 2017. At the current level of manning, the ARNG provides an 
optimal set of dual-use capabilities; first, support for overseas 
contingency operations and, second, for concurrent state/territory 
requirements for Defense Support of Civil Authorities (DSCA).
    The Army intends to continue to balance capabilities across the 
components. Maintaining robust combat capability in the ARNG is a cost 
effective way to provide for the Nation's defense. The ARNG has proved 
its capacity to perform every mission assigned to it over the last 
decade of conflict. At one point the Guard provided eight of fifteen 
brigade combat teams in Iraq, giving the active Army time to reset its 
forces into a modular configuration. At the same time, the Guard 
continued to respond with little or no notice to domestic emergencies. 
No better example of this exists than the response to Hurricane Katrina 
in 2005: with more than 80,000 mobilized for Federal service overseas, 
the Army Guard surged 50,000 troops to the Gulf Coast in the space of a 
week. Likewise, last fall during Hurricane Sandy, the Army Guard surged 
nearly 8,000 to the impacted area at a time when 27,000 were serving on 
Federal Active Duty.
    The foundational structures needed to meet ARNG operational mission 
requirements both at home and abroad are 8 Division Headquarters, 28 
Brigade Combat Teams, 8 Combat Aviation Brigades and 2 Special Forces 
Groups, along with the requisite enabling forces. Combat forces such as 
these are not only vital for the overseas mission; they are the best 
forces for domestic emergency response as well. Combat units are 
structured and equipped with all the necessary means to operate 
independently in a chaotic environment, receiving and employing a host 
of enabling forces tailored to the mission they are assigned to 
perform. This is true whether the mission is high-intensity conflict, 
counter-insurgency operations, peacekeeping, or disaster response.
    Due to the community-based nature of the ARNG, further reductions 
cannot be easily reversed. The ARNG must build armories and organize 
units where there are recruiting age populations, attract and recruit 
the needed personnel, train them in the requisite military specialty, 
and then conduct collective unit training before the new unit is ready 
to conduct missions. It takes considerably longer to do this with a 
part-time force than it does in the active Army, where Soldiers can 
easily be assembled on an Active Duty post and trained en masse in 
order to form a new unit.
    Question. General Grass, would you provide the committee an update 
of the National Guard's mission of assisting the Department of Homeland 
Security on our southwest border? Have the investments made to resource 
the Guard with unique dual-role equipment such as the UH-72A Lakota 
enhanced your ability to perform missions such as the southwest border 
security mission? How have the UH-72 Lakota helicopters performed?
    Answer. In November 2012, the Secretary of Defense extended, 
through the end of calendar year 2013, the National Guard's continued 
support of the Department of Homeland Security's Operation Phalanx 
along the southwest border. The extension included a financial 
threshold of no more than $120 million for calendar years 2012 and 
2013.
    The National Guard is providing helicopters and fixed-wing aircraft 
to support Customs and Border Protection with detection and monitoring 
capability in the Laredo, Texas, Rio Grande Valley, Texas, and Tucson, 
Arizona border patrol sectors.
    Using volunteer Guardsmen under Governor control, 34 different 
States and territories have provided aircraft and personnel in support 
of operations along the Southwest border. The Border Patrol credits 
National Guard members with contributing to the seizure of 141,000 
pounds of marijuana, 200 pounds of cocaine, and the apprehension of 
34,400 individuals since the start of our support missions in March 
2012.
    While the aviation support is the most visible aspect of the 
mission, we also currently provide criminal analysts to support various 
Immigration and Customs Enforcement, Homeland Security Investigations 
offices, located throughout the four Southwest border States.
    The Southwest Border mission effectively validated the air-centric 
concept of operations, the employment of UH-72 Security & Support 
Aviation Battalion force structure, and the doctrine of domestic 
operations support to civil authorities.
    The Army National Guard's newest rotary wing aircraft, the UH-72A 
Lakota, with its mission equipment package (avionics, moving map and 
Forward-Looking Infrared Radar), has proven to be ideally designed for 
the Southwest border mission. UH-72 Lakota aircraft and aircrews have 
performed very effectively, flying over 10,207 incident-free hours 
along the border with an average operational readiness rate of 85 
percent or greater, directly assisting apprehensions of undocumented 
aliens and drug seizures in support of USBP.
    In addition to Southwest border, the UH-72 has supported National 
Guard response and recovery efforts following Hurricanes Irene, Isaac, 
and more recently, Sandy. It continues to be the preferred aircraft for 
drug eradication missions as well as being used in support of special 
national security events (i.e., the Presidential Inauguration) and 
search and rescue missions.
                                 ______
                                 
            Questions Submitted by Senator Susan M. Collins
    Question. I am concerned that this year's budget includes $35 
million for the five Army National Guard Readiness Sustainment and 
Maintenance Sites compared to $122 million last year. This level of 
funding is woefully inadequate in comparison to the need to maintain a 
strong National Guard industrial base.
    General Grass, will these five sites be able to equip, maintain, 
and sustain their capabilities in fiscal year 2014?
    Answer. The Maine Readiness Sustainment Maintenance Site (MERSMS), 
along with the other four RSMS, continue to provide the Army National 
Guard (ARNG) with quality products.
    The National Guard is committed to ensuring that America's Army is 
provided with high value Depot Maintenance. The five Army National 
Guard RSMS have long been important elements of the Army's Depot 
Program and should continue to play a substantial and appropriate role 
in insuring wise stewardship of America's military resources.
    The ARNG is currently in the staffing process to identify and 
confirm requirements for fiscal year 2014 RSMS production to fill 
equipment shortages. The validation and prioritization of recommended 
fiscal year 2014 RSMS production will be finalized in mid-June 2013 and 
will determine resourcing requirements. As a result we cannot project 
the amount of funding available for each of the five RSMS at this time.
    Question. A January 2013 Reserve Forces Policy Board found that a 
non-activated National Guard or Reserve component servicemember 
represents less than one-third the cost of an equivalent Active-Duty 
servicemember. The study also found that while Reserve component forces 
account for 39 percent of military end-strength, they consume only 16 
percent of the defense budget. This analysis is consistent with the 
information I have received during visits to the 101st Air Refueling 
Wing in Bangor, where they are one of the most cost-effective refueling 
units in the entire country. The Policy Board study went beyond 
operational costs though, and it also described that the Reserve 
component results in fewer costs in the areas of retirement, 
healthcare, travel, and education. Given the repeated warnings from 
former Secretary of Defense Robert Gates and the current Comptroller 
Robert Hale about increasing DOD personnel costs crowding out needed 
investment for our military, it would seem evident that the Department 
should to consider rebalancing the Total Force in a manner that 
increases the Reserve component.
    General Grass, what concerns do you hear about increasing the 
Reserve component makeup of the Total Force, and how would you respond 
to those concerns?
    Answer. It is critical that we strike the right balance in 
personnel makeup between the Reserve component and Active component. 
Based on current DOD guidance and processes, I will continue to work 
closely with my counterparts in the Army and Air Force to ensure that 
the Reserve component/Active component balance meets the national 
defense needs of the country. I do not have concerns about increasing 
the Reserve component makeup of the Total Force at this time. 
Furthermore, by putting more force structure into the National Guard 
and Reserves, DOD can lower overall personnel costs long term while 
preserving force structure to meet global requirements. A way to 
effectively bend the personnel cost curve downward and to maintain 
capacity within the Armed Forces is to reduce the number of personnel 
receiving Active Duty entitlements and benefits--replacing some of them 
with those who are only paid when needed. Multiple independent studies 
have concluded that the National Guard operates at one-third the cost 
of the active-component. For instance, the Army Guard provides 39 
percent of the Army's forces for 12 percent of its budget. Likewise, 
the Air Guard contributes nearly 31 percent of fighter capability, 38 
percent of airlift capability and 40 percent of tanker capability for 
only 6 percent of the Air Force budget. Guard members retire later than 
their active-duty counterparts and thus receive less retirement income 
over their lifetimes. Even when mobilized, National Guard Soldiers and 
Airmen do not use housing, DOD schools, recreational facilities and 
have reduced overall healthcare costs. The National Guard provides 
additional value to the nation because many active-duty soldiers and 
airmen join the Guard after leaving Active Duty--retaining hard-won, 
expensive skills and experience. For example, since 2001, over 64,000 
soldiers joined the National Guard after leaving the Active component.
    Question. Is there agreement within the Pentagon on the relative 
costs of a Reserve component servicemember compared to an Active Duty 
servicemember?
    Answer. No.
                                 ______
                                 
             Questions Submitted by Senator Lindsey Graham
    Question. Were you a part of an apparent recent decision supporting 
a move of the Eagle Vision program responsibility to Air Force Space 
Command? If so, did you support the move?
    Answer. The initiative was created by the AF/A2 and coordinated 
with the ANG Director and the AFSPC Vice Commander at that time. The 
ANG participated in the AFSPC Project Task Force (PROTAF) in response 
to the AF/A2 direction to transfer the Eagle Vision (EV) program. The 
direction was to establish a plan to complete the transfer by October 
2013, from the HQ AF Staff function to the operational AF Space (AFSPC) 
command, ``fully funded''. ANG agrees with the philosophically 
consistent approach to normalize and manage the operational mission 
from AFSPC, an operational Major Command, vice the SAF HQ function.
    Question. Did the TAGs from South Carolina, Alabama, and Hawaii, 
support the decision to move Eagle Vision to Space Command?
    Answer. The Adjutants General from South Carolina, Alabama, and 
Hawaii oppose the decision to move Eagle Vision to Space Command.
    Question. In your opinion, is the historical Eagle Vision program 
management/leadership or another major command in the Air Force, 
besides Space Command, better suited for a continued successful Eagle 
Vision program for the future?
    Answer. One of the AF Space Command (AFSPC) core competencies is 
operating and providing satellite based service and it is therefore 
well suited to manage Eagle Vision. As three of the five ANG Eagle 
Vision (EV) systems operating since the inception of the capability are 
already assigned to AFPSC gained Combat Communications units, the 
choice of AFSPC is historically consistent. The principal challenge is 
receiving sufficient funding in the correct appropriations to operate 
the program. While in the short-term, AF/A2 maintaining program 
management/leadership would avoid the initiation issues associated with 
transfer to an operational Major Command, the program risks associated 
with the funding issues would still exist.
    Question. How could the potential move to Space Command affect 
Eagle Vision's response to Military Support to Civilian Authority 
missions during times of domestic crisis?
    Answer. Historically, Eagle Vision Defense Support to Civil 
Authorities (DSCA), formerly referred to as Military Support to Civil 
Authorities (MSCA), has been extremely responsive to time sensitive 
customer needs. The intent of AF Space Command (AFSPC) is to provide 
enhanced oversight for the program in the areas of Operation, Training 
and Equipping (OT&E) actions and execution reporting while avoiding 
impacts to the responsive aspect of the customer needs.
    Question. What would be the impact to the Eagle Vision 
``customers'' of terminating the program altogether?
    Answer. The response times for these services now provided by Eagle 
Vision in hours would be expected to take days or weeks and lose the 
timeliness/responsiveness that Defense Support to Civil Authorities 
(DSCA) customers need in a Humanitarian Assistance/Disaster Response 
(HA/DR) event. As an alternative in the HA/DR case, the Governors and 
States Adjutant General would have to coordinate for military satellite 
imagery through NGA (National Geospatial-Intelligence Agency) outlets 
to obtain images prior to and following natural disasters. Foreign 
partners would likely experience difficulties obtaining fully 
releasable products now provided by Eagle Vision using NGA and other 
DOD imagery outlets without extensive evaluation and approval actions 
to satisfy foreign disclosure and intelligence protocols.
                                 ______
                                 
               Question Submitted by Senator Daniel Coats
    Question. The optempo of two wars over the past decade created a 
forcing function that accelerated the integration of the Active 
components with its Reserve components. But the seamless integration of 
the AC/RC is not yet complete and we have still many different ways and 
funding streams to activate the Guard and Reserves. While these 
different ways provide flexibility for the Armed Forces, it also 
creates confusion, limitations, and unnecessary barriers for activating 
the Guard and Reserve. What concrete steps and changes to the law are 
necessary to streamline this process?
    Answer. The enacted appropriations are not in and of themselves 
complex. The pay system and the various statuses in which Guard and 
Reserve members perform duty speaks to the cost-effective nature of the 
RC because we only compensate members for the duty they perform. 
Barriers and confusion do not arise from the funding streams; they 
arise from the internal workings of the comptroller function, 
distribution, execution and accounting mechanisms. Reserve pay comes 
from specific accounts designated for specific types of training or 
operational duty. These limitations assure that the public gets that 
for which they pay. Processes vary among the Services; however, I do 
not know of any changes in law or a congressional remedy that can 
streamline these internal processes.
                                 ______
                                 
    Question Submitted to Lieutenant General William E. Ingram, Jr.
              Question Submitted by Senator Mark L. Pryor
    Question. The 1039th Engineer Company out of the Arkansas National 
Guard is deployed to Afghanistan. The Army National Guard budget 
highlights an increased amount of training at the individual and 
collective level as a result of budgetary savings created from a 
reduction in depot maintenance. What types of training opportunities 
does the Army Guard budget support to ensure units like the 1039th will 
retain their core competencies and remain an effective operational 
force?
    Answer. The 1039th Sapper Company of the Arkansas Army National 
Guard mobilized 95 personnel for deployment to Afghanistan in July 
2012. When this unit returns and demobilizes in June 2013 they finish 
their Army Force Generation (ARFORGEN) Available year of 2013. They 
will then go into their ARFORGEN RESET year--the first year of a 5-year 
ARFORGEN cycle starting in June 2013.
    During the 1039th's ARFORGEN Reset year they will have 39 days of 
training and will focus on Individual/Crew/Squad level training. They 
will conduct a field training exercise (FTX) at Platoon Level. The 
training gate for entering the next ARFORGEN year is Individual/Crew/
Squad level tactical/technical training and reaching Training level 4 
(Training Mission Essential Task List [T-METL] is less than 55 
percent). The Reset year is also the preferred year for conducting 
changes of command and for sending Soldiers to military schools.
    In fiscal year 2015, the company will be in Train/Ready Year 1 (T/
R-1) of their ARFORGEN cycle. The unit will have 39 days of training 
for this fiscal year and will focus on Individual/Crew/Squad level 
training. They will conduct Squad-size situational exercises and 
conduct Squad-level live fire exercises (LFX). The training gate for 
entering the next fiscal year is Individual/Crew/Squad level tactical/
technical proficiency and reaching training level 4.
    In fiscal year 2016, the Company will be in T/R-2 of their ARFORGEN 
Cycle. The Company will have from 39 to 60 training days available, and 
must achieve level T3, having executed a Company sized field exercise 
consisting of Platoon-size situational exercises and Platoon-size live 
fire.
    In fiscal year 2017, the Company will be in T/R-3 of their ARFORGEN 
Cycle. The unit will have 48.5 days of training for this fiscal year 
and will focus on Platoon level training. They are to conduct a FTX at 
the Company level and conduct a Platoon level LFX. They are encouraged 
to participate in a Combat Training Center (CTC) rotation at the 
National Training Center (NTC) or the Joint Readiness Training Center 
(JRTC) if one is available. The training gate for entering the final, 
or Available, year of their ARFORGEN cycle is Platoon level tactical/
technical proficiency and reaching Training level 3 (T-METL is 55 
percent or higher).
    In fiscal year 2018, the Company will be in its Available year. The 
unit will be prepared to deploy in support of a named mission, 
participate in an Overseas Deployment for Training (ODT) or conduct a 
Security Cooperation (SC) mission.
                                 ______
                                 
      Questions Submitted to Lieutenant General Jeffrey W. Talley
            Questions Submitted by Senator Richard J. Durbin
    Question. As budgets and Active Duty end strength both come down in 
the coming years, what capabilities and functions could be more cost-
effectively absorbed by the Guard and Reserves in the event the nation 
needs them in a future conflict?
    Answer. The Army Reserve is best suited to absorb any capabilities 
and functions that can be cost-effectively realigned from the Active 
component. The Federal Reserve offers more flexible, rapid, and assured 
access to forces due to 10 years of transformation from a strategic to 
an Operational Reserve. Easiest to absorb are capabilities in support 
of homeland defense, cyber, and sustainment operations. The Federal 
Reserve possesses the means within its current force structure to 
absorb capabilities and functions through existing centralized mission 
command capacity. No capability should be eliminated from 
consideration. The Federal Reserve is a life saving, life sustaining 
organization.
    A prime example of a function the Army Reserve can absorb from 
Active Duty is to provide additional capabilities in support of the 
Homeland Defense Chemical, Biological, Radiological, and Nuclear (CBRN) 
Response Enterprise (CRE). A second example of a function the Federal 
Reserve can absorb is the Cyber Mission Teams and Cyber Protection 
Detachments. These capabilities would be more cost-effectively absorbed 
by the Federal Reserve in the event the nation needs them in a future 
conflict.
    The Federal Reserve has proven to be a cost-effective provider of 
sustainment capabilities to combatant commanders. These capabilities do 
not demand a large active peacetime requirement but ramp up rapidly 
during crises. They include fuel, water and ammunition storage, 
transport and distribution; port operations and movement of materiel 
from POD to POE; and reception, staging, and onward movement into the 
theater of operations. The Federal Reserve possesses capabilities to 
provide Human Resources support, entry and qualification training, 
medical support base expansion to include treatment, ground and air 
transport and supplies, Civil Affairs and MISO and a significant 
portion of internee/resettlement capability.
    The Army Reserve is a cost-effective means of sustaining a larger 
force, providing 19 percent of the Force for a mere 6 percent of the 
budget. It serves as a repository of capabilities to supplement Active 
Forces in the employment of landpower through decisive action. It is 
specifically designed to manage specialized capabilities and provides 
an operational and strategic hedge against worst-case scenarios.
    Question. As we continue to withdraw forces from Afghanistan and 
draw down Active Duty end strength, will the Guard and Reserve be able 
to capitalize on excess Active Duty equipment or the massive investment 
in equipment procured over the last decade to train and equip forces 
for fighting the wars in Iraq and Afghanistan?
    Answer. Yes, the Army Reserve anticipates receiving an equitable 
distribution of the retrograded and cascaded equipment transitioning 
from the current operations in Iraq and Afghanistan and resulting from 
Army Drawdown. This equipment is a valuable source as new equipment 
procurement funding declines.
    Question. Outreach efforts such as the Yellow Ribbon Reintegration 
Program are particularly important for guardsmen and reservists and 
their families who are geographically dispersed across the country. How 
important and effective is this program for the Guard and Reserve? Are 
there areas where assistance is still lacking?
    Answer. Senator Durbin, Army Reserve soldiers will continue to 
mobilize, deploy, perform their missions, and then return home to their 
loved ones. We offer several initiatives that assist in reintegrating 
Army Reserve soldiers back into their communities and support their 
families before, during and after deployments--one of which is the 
Yellow Ribbon Reintegration Program (YRRP). The Reserve components' 
``new normal'' battle rhythm for pre-deployment, deployment, 
redeployment, and reintegration have recurring, yet different stress 
points for both the soldier and their family members. It is critical 
that the right resources be delivered to soldiers and their families at 
various times during this deployment cycle to help mitigate stressors 
that could potentially escalate to serious behavioral health problems 
and other personal consequences (unemployment, divorce, suicide, etc.). 
Yellow Ribbon Program events have proven successful by providing direct 
support from a caring command staff, involvement by a myriad of 
community agencies, and the commitment of volunteers. We are committed 
to providing our soldiers and families a level of benefits and quality 
of life that is commensurate with their service to the nation. The 
geographic dispersion and numbers of Army Reserve families and 
soldiers, combined with the challenges that may exist with a civilian 
employer or educational pursuits, is unparalleled by any other Service 
or Service component. We continue to look for ways to bring families 
together more often and get them involved with unit activities and 
their communities. When families are supported, soldier problems are 
lessened and soldier retention increases.
    Nothing else we currently have in place can meet the intent and 
provide the payback we receive from the YRRP. I cannot adequately 
express both the tangible and intangible benefits derived from the YRRP 
for our soldiers and their families. The Army Reserve's Yellow Ribbon 
program is an integral part of our efforts to build resilient Families 
and Army Strong soldiers who can endure the mobilizations, separations, 
and sacrifices we ask of them as part of their selfless service. We 
continue to work to provide the soldiers and families, their employers 
and the local communities where they live some stability and 
predictability. This allows our Reserve component soldiers 
opportunities to pursue both their military and civilian careers 
fulfilling their soldier-citizen role. The YRRP program provides 
deployment support and services never afforded to the Reserve component 
before 2009. Participation in Yellow Ribbon events provides attendees 
with sufficient information and services, opportunities for referral 
and proactive outreach from our commands and our communities in 
building self-reliant, resilient and sustaining families and soldiers. 
Our events rely on the support and involvement of command staffs, 
employers, community partners and a host of volunteers. Yellow Ribbon 
events also provide a platform for and rely on the energy, enthusiasm 
and impact of local, regional and National community leaders and 
businesses (employers, educational institutions, Veterans' 
organizations, community healthcare, and so on) who are rallying to 
support our commands and individual soldiers who deploy. There is 
nothing else like a Yellow Ribbon event to help soldiers and families 
prepare for and endure the challenges of their deployment and 
reintegration.
    Our goal is to build skills in each family member and soldier to 
assure they are prepared and able to cope with the difficulties of 
extended separation and deployment. We help families network together, 
connect with each other and keep the families in touch with their unit/
command and Family Programs' Office/staff during the deployment of 
their soldiers. We concentrate on assisting families and soldiers to 
help with reuniting, reconnecting and reintegrating them into a ``new 
normal'' post-deployment.
    Lastly, we attend to both the family members' and soldiers' 
physical, behavioral and mental health needs. We utilize trained 
professional speakers and briefers from Federal agencies and local, 
State, and National agencies, to come to units or regional venues to 
educate and assist attendees with knowledge, skills and practical, 
hands-on participation to meet the goals stated above. This has been 
important to get soldiers and families connected and keep them 
connected despite their geographical dispersion. Family members get to 
understand the sanctioned military benefits, entitlements and the 
resources available to them. We would not be the great Army that we are 
without these programs for our Reserve component soldiers and their 
families.
    Question. Are family support programs fully funded in the fiscal 
year 2014 budget request? From your perspective, are there programs 
that could be improved?
    Answer. Yes. The fiscal year 2014 budget provides the core funding 
to ensure Army Reserve Family Programs retain the ability to deliver 
programs and services to soldiers and their families closest to where 
they reside. Funded programs go a long way to sustain the Army Reserve 
by providing high quality, baseline levels of support to assist Army 
Reserve soldiers and families to achieve and maintain a high state of 
personal readiness, resiliency, and quality of life.
    The Army Reserve routinely assesses the effectiveness of the 
programs and services designed to assist our soldiers and their 
families, and seeks continuous improvement in our ability to ensure 
outreach to a geographically dispersed population. Currently we are 
placing renewed emphasis on training our command teams at every level 
in the organization to enhance their awareness of the existing programs 
and services available to assist our soldiers and their families. 
Additionally, we are assessing the effectiveness of our Fort Family and 
Army Strong Community Center (ASCC) programs to identify improvements 
that will enhance overall service delivery to the field.
    Question. U.S. Cyber Command is planning a significant expansion of 
its force structure, and the Guard and Reserve are well positioned for 
this buildup as some servicemembers already hold information technology 
positions in their private sector jobs.
    What role will the Guard and Reserve play in support of the build-
up in personnel at U.S. Cyber Command?
    Answer. The Army Reserve and National Guard play a vital role in 
cyberspace today and the Army envisions an increase in their roles and 
functions in the future.
  --The increasing demand signal for cyber forces will require a 
        greater reliance on Reserve component cyber soldiers, both Army 
        National Guard and U.S. Army Reserve.
  --ARCYBER is working with ARNG, USAR, and HQDA to develop a Reserve 
        component Cyber Integration Strategy using a Total Army Force 
        approach to provide depth and versatility to Army cyber forces 
        for the full range of cyber operations. This strategy will 
        outline immediate, emerging, and enduring requirements and 
        capabilities in support of Army cyber forces.
    Question. What cyber missions do you believe the Guard and Reserve 
are most well-suited to fill?
    Answer. Today, Reserve component forces play a critical role in 
Homeland Security and defense of critical infrastructure.
  --The Army envisions an increase in their roles and functions in the 
        future to provide depth and versatility to Army cyber forces 
        for the full range of cyber operations.
  --The Army and USAR will support the USCYBERCOM RC Integration 
        Framework.
  --USAR mission support will be based on rigorous mission analysis of 
        validated USCC and Service requirements.
    Question. How is the Guard analyzing and (if applicable) planning 
to ensure geographic diversity in its units in order to have Guard 
assets aligned with critical infrastructure and technology hubs 
nationwide, as well as aligned with the best personnel pools in the 
civilian population in order to recruit talented cyber-warriors into 
the Guard and Reserve?
    Answer. The Army Reserve (AR) does not make plans for Army National 
Guard (ARNG); however, AR currently has units in 5 major IT regions 
(DC, Boston, Pittsburgh, San Antonio, and northern California). As 
requirements mature, additional units will be placed in areas with the 
greatest potential for recruiting cyber professionals, keeping mission 
needs in balance. AR works with ARNG and other service Reserves to 
ensure that our recruiting bases are balanced as opposed to 
concentrated in the same areas that might not support recruiting needs.
                                 ______
                                 
              Questions Submitted by Senator Mark L. Pryor
    Question. Currently, the 704th Engineer Company (Army Reserve) out 
of Hot Springs, Arkansas, is deployed to Afghanistan conducting route 
clearance operations. Once the 704th completes its mission and comes 
home their state of readiness will naturally diminish (just a fact of 
returning home from a mission). What types of training and readiness 
activities are supported in this budget request to ensure that we 
maintain valuable skills and lessons learned from combat?
    Answer. The Army Reserve operates on a 4 year progressive training 
readiness program (4 years preparing to 1 year available for mission 
performance ratio--a 5 year cycle). This cycle allows for the members 
of the 704th Route Clearance Engineer Company to reintegrate with 
families and employers following deployment as well as build the 
necessary readiness to meet future contingent mission requirements. My 
answer centers on ``virtual'' and ``live'' training elements of this 
progressive program focused on preparing the unit, its soldiers and its 
leaders to perform ``route clearance'' (an avenue of travel) and ``area 
clearance'' (large open areas) missions in protecting our forces from 
Improvised Explosive Devices (IEDs), mines, roadside bombs and 
unexploded ordnance (UXO). The unit also has infantry training 
requirements. To maintain the proficiencies the 704th achieved over the 
course of their deployment requires a combination of simulated and live 
operating experiences which are supported in this budget.
    The majority of our progressive training program is spent at the 
local Army Reserve Center which requires a greater reliance on 
simulators and simulations to meet unit training objectives. The 704th 
Soldiers use Husky Vehicle-Mounted Mine Detection Vehicles, RG-31 
Medium Mine Protected Vehicles, or Buffalo-Armored Mine Protected 
Clearance Vehicles to maintain a secure area of operation. These 
vehicles are too large and too heavy to operate in the local 
communities, so they are stored on installations; not at the unit's 
Reserve Center in the local community.
    In place of the equipment, the unit will be using a Virtual 
Clearance Training Simulator (VCTS) that provides driver, co-driver, 
commander and gunner positions, an instructor operator station, and an 
after action review capability. The vehicle simulators are networked 
for collective route clearance mission training and can also provide 
individual skills training. The VCTS replicates the operational 
environment utilizing a menu of scenarios supporting the latest 
Training, Tactics and Procedures Soldiers encounter in Theater.
    A contracted trainer facilitates crew training through the 
development of scenarios based on lessons learned. Additionally, the 
commander will use a variety of other virtual simulation and gaming 
systems (e.g., Engagement Skill Trainer 2000/3000, Dismounted Soldier, 
and Virtual Battlespace 2) opportunities to locally train on other 
engineer skills, and its infantry skills.
    The ``live'' experiences are directed at providing the 704th 
commander opportunities to collectively train on and to assess the 
unit's technical and tactical proficiencies. The unit will conduct 
multiple installation visits over the course of the progressive 
training program to execute drivers training/licensing and equipment 
operator programs with its equipment (focused on achieving their 
technical proficiency). We are also working with the Army to 
potentially preposition at Army Reserve funded installations route 
clearance equipment as ``training sets'' for the 704th and other route 
clearance units to perform these activities as part of their Annual 
Training events. We are currently relying on 704th participation in 
Combat Training Center (CTC) maneuver National Training Center (NTC) 
rotations to provide the unit and its leadership both the operational 
environments and the tactical players (of all three components) 
required to properly sustain proficiencies and prepare for future 
missions. However, with recent cancellation of a number of Army NTC 
rotations under Sequestration conditions, we are accelerating our work 
on integrating route clearance technical/tactical training objectives 
and the required tactical players into existing Army Reserve ``CTC-
like'' (our Combat Support Training Exercises) events to ensure 704th 
and other route clearance units have multiple venues to meet their 
required readiness proficiencies.
    Question. What are your highest priorities within this budget 
request?
    Answer. The priority mission of the Army Reserve is to provide 
trained, equipped, ready, and accessible Soldiers, leaders, and units 
to the Total Force. The Operation & Maintenance Army Reserve (OMAR) 
request includes approximately $1,469.1 million for Operating Forces to 
support this goal These funds support day-to-day operations, and unit 
training (OPTEMPO) for the ground and aviation forces, and for the 
civilian workforce that trains, administers, and maintains our Soldiers 
and equipment. The Reserve Personnel Army (RPA) request includes 
$1,447.6 million for Pay Group A to fund soldiers' participation in 
Inactive Duty Training (IDT) and Annual Training (AT).
    The Army Reserve will develop and sustain a versatile mix of 
capabilities for the Army and the Department of Defense. These 
capabilities can be trained and honed with the schooling, exercise, and 
simulation systems that are funded in the OMAR request of $471.6 
million for Force Readiness Operations Support. The necessary training 
days to allow soldiers to perform duty beyond the normal IDT and AT 
periods are included in the schools request of $216.5 million and in 
the Special Training request of $283.6 million.
    We must sustain a high quality, All Volunteer Force that 
encompasses soldiers, civilians, and their families. The OMAR request 
for Other Personnel Support of $37.9 million, and the RPA request for 
Special Training of $3.6 million for recruiting and retention support 
this goal. Another essential tool is our RPA Incentives request of 
$169.6 million for enlistment, reenlistment, and transition bonuses.
    We must foster growth of adaptive leaders. We seek to achieve this 
through a mix of education and training, and with demanding assignments 
in joint and interagency duties. This goal is funded in OMAR with our 
request for Force Readiness Operations Support of $471.6 million. The 
additional duty days that allow Noncommissioned Officers (NCOs) and 
Officers to perform schooling and additional duty are included in the 
RPA Schools request of $216.5 million and in the Special Training 
request of $283.6 million.
    We seek to foster the civilian careers of our citizen-soldiers 
through partnership with their employers. Starting in fiscal year 2014, 
the Army Reserve has a dedicated funding line of $4.9 to conduct 
programs and outreach required by the Veteran's Opportunity to Work 
(VOW) Act. This amount is included in the OMAR request of $569.8 
million in the Base Operations Support request.
    We recognize that all of these goals require a management structure 
that is effective and efficient, and that operates in a culture of cost 
awareness.
                                 ______
                                 
              Questions Submitted by Senator Thad Cochran
    Question. In testimony, each of you expressed the need to maintain 
a level of investment that supports your component's ability to 
function as an Operational Reserve. Would each of you share with the 
committee how you plan to prioritize and to balance your component's 
resources to support your strategic and operational roles?
    Answer. Since the attacks of 2001 the Army Reserve has transformed 
itself from a Strategic Reserve; one that was held at a fairly low 
level of readiness with the intent of having the time to build itself 
up and into a conflict; to an Operational Reserve. A Reserve that 
maintains a significant part of our force always ready to mobilize and 
deploy as an integral partner of the Total Force, bringing our unique 
capabilities to the fight.
    We have balanced our resources between our operational and 
strategic roles in a manner that, at the strategic level, enables the 
Army Reserve to stay engaged with Combatant Commanders. This allows the 
Army Reserve to shape the strategic environment via overseas 
deployments for training missions (e.g., operation ``Beyond the 
Horizon'' in Central America).
    We are developing Army Reserve Engagement Cells--dedicated, fully 
manned cells that we will deploy in support of Army Service Component 
Commanders to sustain a continuous ability to plan and coordinate Army 
Reserve engagement with combatant commanders.
    We are continuing to resource Army Reserve Soldiers to be an 
integral part of Combatant Commands and Army Service Component 
Commands. The Army Reserve supplies over 4,000 soldiers to resource 
various ground component commands and Army Service Component Command 
staffs.
    Simultaneously, while sustaining these strategic initiatives, we 
continue to resource training that ensures a continuous and ready pool 
of capabilities resulting in trained soldiers and ready units. Our 
operational responsibilities ensure that our force is trained for 
decisive operations. The Army has devoted resources in the form of man-
days of training that allows us to sustain a training edge even when 
fiscally challenged. We are resourced for 39-45 days of collective 
training for our most complex skills across all 5 years of our force 
generation cycle.
    While the CRA and Sequestration has affected the Army Reserve in 
many areas, at this time we have cancelled no Army Reserve training for 
this year. We are adequately resourced to train our force to the level 
we committed to the Army and the Nation. Out forces will enter the 
Available Force Pool for utilization at ``T2'' level of readiness, 
training for decisive action operations, and with battalion and brigade 
headquarters trained in all mission command skills.
    We balance all this by adhering to priorities set by the needs of 
the Total Force, Combatant Commands and the Nation.
    The sequester has had the biggest impact on the Army Reserves due 
to the second and third order effects of cancelled training for Active 
component units into which Army Reserve forces were integrated. Key 
cancelled training includes:
  --6  Combat Training Center Rotations effecting 1,537 soldiers.
  --2  Major Functional Exercises effecting 2,058 soldiers.
  --Reduced 2013 ODT requirements effecting 429 soldiers.
    It is crucial that the Army Reserve continue to be resourced as an 
Operational Reserve to continue to provide critical life-saving and 
life-sustaining capability to all services and components.
    Question. I understand that the Army is conducting a force 
structure assessment and is on track to reduce Active Duty end strength 
to 490,000 personnel by 2017. I also understand they will be looking to 
reduce force structure by at least 8 Active Duty brigade combat teams. 
Considering the Guard and Reserve provide considerable support to the 
Active component, what impact will these reductions have on Guard and 
Reserve force make-up?
    Answer. It is important to note that as brigades are being reduced, 
their capability is being increased by moving from two to three 
battalions so the reduction in combat capabilities is not as dramatic. 
Also, Army Reserve enabler capabilities are not tied directly to the 
number of brigades but to the size of the overall force so reductions 
are not expected to be proportional to the brigades. As the Active 
component draws down, the Army can mitigate risk by leveraging those 
Army Reserve capabilities that we can make ready to meet required early 
deployment timelines and by providing depth to the war fight. In 
addition, there are two primary ways of retaining critical capabilities 
and institutional knowledge; migrating critical capabilities from the 
Active component to the Army Reserve and/or migrating personnel--
particularly in the key mid-grade officer and Non-Commissioned Officer 
(NCO) ranks--from the Active component to the Army Reserve.
    The Army Reserve has a successful track record from Iraq in 
providing medical, civil affairs, engineer, logistics, signal and other 
theater functional commands, multicompo units and functional and 
multifunctional enabler capabilities to meet early deploying wartime 
requirements. These unique capabilities are easier to train and keep 
ready than complex combat capabilities and many leverage civilian 
transferable skills.
    A great challenge of any drawdown is the loss of institutional 
knowledge at the critical mid-grades that are needed to expand the Army 
during times of need. This risk can be mitigated by attracting a large 
percentage of mid-grade officers and NCOs to drilling Reserve status 
upon completion of their Active Duty commitments in a continuum of 
service/soldier for life concept. This can be accomplished by contract 
and/or incentive. This could also be a powerful tool for future 
Investment and Regeneration when our Nation asks us--the Army--to grow 
our force.
    When we combine the various risk mitigation techniques that I've 
just described, we optimize the force structure available to our Nation 
while we leverage all the hard gained lessons of the past decade of war 
at a significantly reduced cost.
                                 ______
                                 
              Questions Submitted by Senator Daniel Coats
    Question. What opportunities exist to enhance the partnership 
between the U.S. Army Reserve and the Crane Army Ammunition Activity in 
Crane, Indiana?
    Answer. There already exist partnerships between the USAR and the 
Crane Army Ammunition Activity (CAAA), for example:
    1. There currently exists an Army Reserve ammunition platoon (3rd 
PLT/221st Ordnance Company) located at the Naval Support Activity in 
Crane.
    2. GOLDEN CARGO is a logistics-based exercise designed to provide 
transportation and ordinance units with realistic training while 
supporting Joint Munitions Command and ammunition depots. Objectives 
are to transport large volumes of ammunition between depots, perform 
maintenance, surveillance, re-warehousing, inventory and storage of 
ammunition within depots. This exercise links CAAA with the other 
ammunition activities around the nation over a two week period. This 
exercise is held annually, but due to sequestration this year, it was 
cancelled.
    In regards to opportunities for enhancing these existing 
relationships, this could be garnered through increased use of CAAA and 
other like type facilities in providing individual and collective 
training to ammunition MOS Soldiers and units in the Army Reserve and 
National Guard. Training should focus on re-enforcing basic skill sets 
such as accountability, safe handling, and blocking/bracing for 
shipment to name a few. This training would serve as building blocks 
leading to successful execution of annual training events such as 
Warrior Exercises (WAREX) and Combat Support Training Exercises (CSTX) 
around the United States and in some cases overseas (Puerto Rico).
    Question. What are the advantages and disadvantages of locating an 
Army Reserve Center at Naval Support Activity Crane in Crane, Indiana?
    Answer. Advantages: With a large civilian workforce within the 
ordnance field and its close proximity to the Louisville and 
Indianapolis metropolitan areas, the Naval Support Activity (NSA) Crane 
can, and currently does, provide ample opportunities for training that 
increase the readiness of Army Reserve (AR) and Army National Guard 
units and individuals. Examples of training opportunities for Soldiers 
include:
    1. Proper handling of ammunition during loading and unloading 
operations using material handling equipment such as forklifts and 
cranes.
    2. Rail Operations for ammunition movement, storage, and 
distribution to customers.
    3. Military Police (MP) force protection operations during 
ammunition missions.
    4. Engineer (vertical/horizontal) construction projects for new 
roads, magazine loading docks, as well as rail to road conversions.
    There is also an opportunity to capitalize on synergies between 
activities at NSA Crane such as Crane Army Ammunition Activity (CAAA) 
and Naval Surface Warfare Center (NSWC) and the Joint Training Centers 
at Camp Atterbury and Muscatatuck. These facilities are located within 
one and a half hour from NSA Crane and provide ranges for weapons 
qualification, Improvised Explosives Device (IED) defeat training, anti 
armor and grenade training, indirect fire, and mounted gunnery for 
monthly drilling reservists and Annual Training. Currently an AR unit 
(3rd PLT, 221st Ordnance Company (Ammo)) is located at NSA Crane 
utilizing a 3,500 square foot facility. Initial assessments indicate 
sufficient available space residing on NSA Crane for an Army Reserve 
Center. Additionally NSA Crane provides a secure location and 
relatively easy access to major highways. Lastly, NSA Crane already 
supports major exercises such as Golden Cargo which links NSA Crane 
with seven other ammunition activities around the nation over a 2-week 
period.
    Disadvantages: None at this initial stage.
    The Force Management Stationing Assessment remains unchanged. We do 
not disagree that the CAAA offers critical skill training opportunities 
to AR soldiers and perhaps some of that capability could be accessed in 
an Annual Training environment. Even by her admission the CAAA has 
provided training opportunities for ``projects during AT & weekend 
drills.'' The problem lies in their desire to have units proximate to 
the facility to establish a habitual relationship. We recruit and man 
AR units from the local market area. A survey of the Crane, Indiana 
area shows poor demographic supportability to establish successful AR 
units in the area. Even the metropolitan areas of Indianapolis, 
Louisville and Evansville are outside the optimal commuting distance 
for lower Skill Level Soldiers that are more than likely to find units 
to join in their home cities. The CAAA Commander's assessment of their 
ability to provide training opportunities to our MP Forces does not 
comport with the skill sets found in our MP Command. Offers for an Army 
Reserve Military Police unit to support Law Enforcement and other 
police operations on the installation, while well intended, does not 
show an understanding of how our MP units are trained and employed.
    While we agree there maybe training opportunities for our logistics 
forces during short duration exercises; we cannot agree to overturn 
what has been a very extensive market analysis of this area. Bottom-
Line--permanently stationing AR units near the ammo depot would create 
significant challenges for the long term sustainment of AR units.
                                 ______
                                 
           Questions Submitted to Vice Admiral Robin R. Braun
            Questions Submitted by Senator Richard J. Durbin
    Question. As budgets and Active Duty end strength both come down in 
the coming years, what capabilities and functions could be more cost-
effectively absorbed by the Guard and Reserves in the event the Nation 
needs them in a future conflict?
    Answer. Navy leadership continuously reviews the proper mix of 
Active component and Reserve component personnel and equipment for all 
capabilities and functions. Some areas that receive the most scrutiny 
during these reviews include: Unmanned Airborne Systems, Cyber, 
SURGEMAIN/maintenance detachments, Expeditionary Warfare, Ballistic 
Missile Defense, EOD Technical Exploitation, Security, and LCS mission 
modules.
    Question. As we continue to withdraw forces from Afghanistan and 
draw down Active Duty end strength, will the Guard and Reserve be able 
to capitalize on excess Active Duty equipment or the massive investment 
in equipment procured over the last decade to train and equip forces 
for fighting the wars in Iraq and Afghanistan?
    Answer. The Navy Reserve equipment shortfalls are published in 
table 8 of the fiscal year 2014 National Guard and Reserve Equipment 
Report. The Navy Reserve is not aware of any excess equipment available 
as a result of draw downs in Iraq and Afghanistan. The Navy Reserve 
will continue to utilize National Guard and Reserve Equipment 
Appropriation (NGREA) funding for mission essential equipment 
supporting training and operational requirements.
    Question. Outreach efforts such as the Yellow Ribbon Reintegration 
Program are particularly important for guardsmen and reservists and 
their families who are geographically dispersed across the country. How 
important and effective is this program for the Guard and Reserve? Are 
there areas where assistance is still lacking?
    Answer. The Yellow Ribbon Reintegration Program (YRRP) is 
invaluable to Navy Reserve Sailors. When Reserve component sailors 
deploy, many times as individual augmentees, they take leave from full-
time civilian careers and their families may not be familiar with or 
accustomed to the challenges of deployment. This makes our deployment 
support to Reserve sailors and their families different than the 
support provided to Active component sailors who deploy as a unit.
    Pre-deployment training includes a Deployment Readiness Training 
(DRT) event to provide awareness of available resources throughout the 
deployment cycle. During deployment the Command Individual Augmentation 
Coordinator (CIAC) and Ombudsman ensure that servicemembers and 
families receive the support they need. The post-deployment process 
includes a Returning Warrior Workshop (RWW) forum to assist sailors in 
a seamless transition back to their civilian and family life. Although 
not a mandatory event for returned deployers, Navy leadership highly 
encourages sailors to take advantage of this opportunity to engage with 
reintegration specialists and other returned sailors.
    In fiscal year 2012, 84 percent of deployed Navy Reserve Sailors 
rated pre-deployment training as beneficial. Sixty-eight percent of 
family members were satisfied with the communication and family support 
provided during deployment. Fifty-one percent of returning Navy Reserve 
Sailors chose to attend a RWW and 87 percent of attendees rated the 
program as beneficial to their reintegration following redeployment.
    The Navy does not require any additional authority to continue 
improving YRRP events in our efforts to provide maximum benefit to 
returning sailors and their families.
    Question. Are family support programs fully funded in the fiscal 
year 2014 budget request? From your perspective, are there programs 
that could be improved?
    Answer. Navy family support programs are fully funded in the fiscal 
year 2014 budget request. Navy Reserve coordinates with all appropriate 
stakeholders to ensure that Navy family support programs meet the needs 
of our sailors and their families.
    Question. U.S. Cyber Command is planning a significant expansion of 
its force structure, and the Guard and Reserve are well positioned for 
this buildup as some servicemembers already hold information technology 
positions in their private sector jobs.
    What role will the Guard and Reserve play in support of the build-
up in personnel at U.S. Cyber Command?
    Answer. For the U.S. Navy, Fleet Cyber Command (FCC)/U.S. TENTH 
Fleet (C10F) has a current concept of operations and planning (subject 
to final Commander's decision) calling for the use of approximately 700 
Reserve billets/personnel in support of the cyber mission. This number 
includes the planned addition of approximately 370 new Reserve 
component (RC) billets over 5 fiscal years commencing in fiscal year 
2014 and running through fiscal year 2018; and re-tasking approximately 
330 existing Reserve billets to focus on cyber. In a similar manner to 
traditional Reserves utilization, Reserve personnel will man Reserve 
Direct Support Teams and Reserve Cyber Protection Platoons. The 
individual makeup of the teams is designed to meet Active Duty 
augmentation and surge requirements. As the teams mature and 
requirements are further refined, this number may move up or down.
    The Information Dominance Corps Reserve Command (IDCRC) will also 
assist FCC to mitigate short-term Active-Duty manning gaps on a case-
by-case basis using one of the established Navy manpower policies/
practices: definite recall, indefinite recall, or Active Duty for 
Operational Support (ADOS).
    Additionally, IDCRC will work closely with U.S. Cyber Command as it 
develops its National Guard and Title 10 Reserve force integration 
framework.
    Question. What cyber missions do you believe the Guard and Reserve 
are most well-suited to fill?
    Answer. Navy Reserve component end-strength is currently programmed 
to support Defensive Cyberspace Operations; Command, Control, 
Communications, Computers, Combat Systems and Intelligence analysis; 
Computer Network Operations; and planning in support of U.S. Cyber 
Command. In addition, the RC will support FCC in executing the Navy 
Cyber Security Inspection and Compliance Program.
    Question. How is the Guard analyzing and (if applicable) planning 
to ensure geographic diversity in its units in order to have Guard 
assets aligned with critical infrastructure and technology hubs 
nationwide, as well as aligned with the best personnel pools in the 
civilian population in order to recruit talented cyber-warriors into 
the Guard and Reserve?
    Answer. The Navy does not have title 32 Guard personnel; therefore 
this response is focused on the title 10 Navy Reserve personnel. Navy 
Information Dominance Corps Reserve forces drill with their respective 
supported commands (Navy or Joint), in a Navy owned and operated 
facility, or in one of the Joint Reserve Intelligence Centers (JRIC). 
The IDCRC provides management and oversight of eight Navy-hosted JRICs 
as part of the larger Joint Reserve Intelligence Program run by the 
Defense Intelligence Agency. In 2012, IDCRC units drilled in 21 of the 
26 JRIC sites across the country as well as in Navy facilities, 
extending geographic diversity and the opportunity for Navy RC 
personnel to support intelligence and cyber missions across the United 
States.
                                 ______
                                 
               Question Submitted by Senator Thad Cochran
    Question. In testimony, each of you expressed the need to maintain 
a level of investment that supports your component's ability to 
function as an Operational Reserve. Would each of you share with the 
committee how you plan to prioritize and to balance your component's 
resources to support your strategic and operational roles?
    Answer. CNO set his tenets as Warfighting First, Operate Forward, 
and Be Ready. Navy leadership is committed to ensuring proper force 
structure and readiness to accomplish those objectives. This includes 
continued operational use of the Reserve both in structured units and 
as individual augmentees in addition to the use of the Reserve in a 
traditional strategic role.
    The Navy equips and resources both the Reserve component and the 
Active component. Providing Reserve Sailors with the appropriate 
training and readiness to meet the required mission is our highest 
priority. The Navy Reserve is an active participant in that programming 
and budgeting process. Additionally, the Navy Reserve's portion of the 
National Guard and Reserve Equipment Appropriation (NGREA) remains 
critical to the Navy Reserve's ability to procure the proper equipment 
to fulfill requirements in both the operational and the strategic 
roles.
    The Navy will structure its Total Force and prioritize resources to 
provide necessary readiness levels to Reserve units and sailors that 
will be operating forward in support of Joint and Fleet requirements.
                                 ______
                                 
              Questions Submitted by Senator Daniel Coats
    Question. How can the Navy Reserve enhance its relationship with 
the 10 official U.S. Navy museums located around the country as well as 
the Naval History & Heritage Command in Washington, DC?
    Answer. The Naval History and Heritage Command (NHHC) already has a 
dedicated Reserve unit, Navy Combat Documentation Detachment 206, 
assigned to support. This unit has 57 total Reserve billets (47 
officers and 10 enlisted).
    The mission of the Reserve Detachment assigned to NHHC is to 
support the command in Washington, DC at the Navy Yard headquarters. In 
2012, the number one priority for Reserve support was to the Navy 
Archives and Commemorations branches in support of the 200th 
Anniversary of the War of 1812 activities. These efforts consumed 100 
percent of discretionary support.
    In January of 2013 NHHC Reserve support began to transition from HQ 
support to field support at the official Navy museums. The Great Lakes 
Naval Museum in Chicago will serve as a pilot project for this effort 
and planning is underway to utilize Reserve sailors based at Washington 
Navy Yard as well as Reserve sailors located in the Great Lakes area to 
assist in meeting the museums' individual missions. This effort will 
begin in earnest during the summer of 2013 with lessons learned 
finalized by the end of calendar year 2013. Upon completion, a plan of 
actions and milestones will be created to implement Reserve support to 
the remaining museums in priority order beginning in calendar year 
2014.
    Detachment 206 also oversees the Navy's Fleet Historian program. 
The Navy is the only armed service that does not have Active Duty 
historians assigned to major commands. This is a 100 percent Navy 
Reserve manned mission.
    Additionally, NHHC routinely requests and utilizes Active Duty for 
Special Work (ADSW) reservists for a wide range of tasks, including 
Information Technology support and support to nationwide events such as 
the planned commemorations for World War II, the Korean War and the 
Vietnam War. As NHHC mission grows in size, scope and responsibility, 
further support requirements will be determined and requested of the 
Reserve as needed. VADM Braun visited NHHC in the spring of 2013 and 
offered her support to meet NHHC's mission.
    Question. How can the Navy Reserve enhance its relationship with 
NSWC Crane? What criteria would need to be met for NSA Crane to be 
considered as a site for a Navy Operational Support Center?
    Answer. The Navy Reserve maintains a constructive relationship with 
NSWC Crane, and stands ready to assist in evaluating future possible 
Navy Reserve requirements to support NSWC Crane. Throughout the 
Department of Navy, staffing structure (Active, Reserve, or civilian) 
is based on requirements/priorities and available resources. While NSWC 
Crane is focused on supporting/sustaining Navy and Joint warfare needs, 
the nature of the mission and work at NSWC Crane predominantly requires 
a highly specialized civilian workforce with a diverse range of 
technical skills to execute its engineering, acquisition and technical 
support mission. NSA Crane also utilizes a 23 member Naval Security 
Force Reserve unit, supported by NOSC Indianapolis.
    NOSC location is determined based on many factors, to include: Navy 
Reserve presence in all 50 States; Reserve population location/
concentration; proximity to other NOSCs; and location of potential 
supported commands. NOSC Indianapolis and NOSC Louisville, Kentucky are 
both located within 100 miles of NSA Crane and together meet the Navy's 
requirements for Navy Operational Support Centers in that area. For NSA 
Crane to be considered as a future NOSC site there would need to be a 
new requirement for a Reserve facility (e.g. degraded material 
condition of current facilities, significant Selected Reserve 
population change) that cannot be met with the current NOSC laydown.
    Question. Is there any plans for navy reservists to man ships like 
they did in the 1980s when Perry-class frigates were manned by 
reservists?
    Answer. There are no current plans for Navy Reserve Sailors to man 
ships in similar numbers as when the Navy Reserve was a primary 
manpower source for Oliver Hazard Perry-class frigates.
                                 ______
                                 
       Questions Submitted to Lieutenant General Steven A. Hummer
            Questions Submitted by Senator Richard J. Durbin
    Question. As budgets and Active Duty end strength both come down in 
the coming years, what capabilities and functions could be more cost-
effectively absorbed by the Guard and Reserves in the event the Nation 
needs them in a future conflict?
    Answer. As outlined in our Marine Forces Reserve Vision and 
Strategy 2012-2017 guide, the Marine Corps Reserve will plan, prepare, 
and provide a mixture of capabilities to source future crisis response, 
combatant commander, and service requirements. With this strategic goal 
in mind, we will implement a future force structure that maximizes 
integration with the Total Force and balances capabilities with fiscal 
limitations, personnel recruitment, training opportunities, and the 
Reserves' distributed geographic footprint.
    Marine Forces Reserve provides options to Active component leaders 
and combatant commanders, from being ready for immediate use in support 
of disaster relief to providing strategic depth through sustained 
augmentation for major contingency operations. Marine Forces Reserve is 
proactively aligned and seamlessly integrated with the Active component 
and is composed of well-equipped, highly trained, and competent 
professionals. Dependable, flexible, and capable across the range of 
military operations, Marine Forces Reserve is the essential shock 
absorber for the Active component in the ambiguous global environment 
that we face in the future.
    Question. As we continue to withdraw forces from Afghanistan and 
draw down Active Duty end strength, will the Guard and Reserve be able 
to capitalize on excess Active Duty equipment or the massive investment 
in equipment procured over the last decade to train and equip forces 
for fighting the wars in Iraq and Afghanistan?
    Answer. We anticipate the withdrawal of Forces from Afghanistan and 
the draw down in Active Duty end strength will have little to no 
overall impact on future Reserve materiel readiness, as Marine Forces 
Reserve has already aggressively sought to address materiel shortfalls.
    Since 2011, the Marine Corps has followed a quarterly enterprise 
equipment sourcing process whereby principle end items are ``pushed'' 
vice ``pulled'' to the units with validated equipment deficiencies 
across the Marine Corps in accordance with the Commandant's equipping 
priorities. This equipment sourcing process has been extremely 
effective in increasing materiel readiness and training opportunities 
across Marine Forces Reserve units as approximately 7,800 principal end 
items have been ``pushed'' to Marine Forces Reserve to fill necessary 
shortfalls.
    Additionally, the National Guard and Reserve Equipment 
Appropriation (NGREA) continues to be an important element of the 
Marine Corps' ability to modernize and equip the Reserve component. 
NGREA provides maximum interoperability and balance between the Active 
and Reserve components. As articulated in our fiscal year 2014 National 
Guard and Reserve Equipment Report, NGREA funding remains a significant 
force multiplier for Marine Forces Reserve by enabling the Marine Corps 
to balance requirements from a Total Force perspective.
    Question. Outreach efforts such as the Yellow Ribbon Reintegration 
Program are particularly important for guardsmen and reservists and 
their families who are geographically dispersed across the country. How 
important and effective is this program for the Guard and Reserve? Are 
there areas where assistance is still lacking?
    Answer. Yellow Ribbon has been incorporated into the Marine Corps' 
overall Family Readiness Program as one of the many tools available to 
our units in ensuring our marines, sailors, and family members are well 
equipped to deal with the many challenges facing them as they balance 
between their military and civilian lives. The current Yellow Ribbon 
funding level supports the mission requirements of the Marine Corps.
    While the Yellow Ribbon Program is a valuable tool in addressing 
deployment issues, it is geared towards deployment-specific support. 
The challenges that our Reserve members and families face are more 
complex than addressing deployments only, and the Family Readiness 
Program fills the critical support gap. Commanding Officers and their 
Family Readiness Officers (FROs) stand ready to identify the needs and 
trends within our units, as well as possessing the ability, through 
training and community relations, to identify the appropriate resource 
partner and assistance as necessary.
    Question. Are family support programs fully funded in the fiscal 
year 2014 budget request? From your perspective, are there programs 
that could be improved?
    Answer. The fiscal year 2014 President's budget request ensures 
that the Marine Corps' Family Support Programs for the Marine Corps 
Reserve meet all mission-critical needs despite an era of constrained 
resources. The Family Support Program is focused on sustaining and 
enhancing essential programs that support the health, welfare, and 
morale of our marines and their families. Given the geographic 
dispersion of our Reserve marines and families, we constantly assess 
the changing needs of our marines and families in order to ensure their 
needs are met and our marines are ready for the challenges of their 
civilian and military lives.
    Question. U.S. Cyber Command is planning a significant expansion of 
its force structure, and the Guard and Reserve are well positioned for 
this buildup as some servicemembers already hold information technology 
positions in their private sector jobs.
    What role will the Guard and Reserve play in support of the build-
up in personnel at U.S. Cyber Command?
    Answer. Marine Forces Reserve currently supports both U.S. Cyber 
Command and Marine Forces Cyber Command with Individual Mobilized 
Augmentees (IMAs). The Marines that are identified for these billets 
are uniquely qualified for this new mission by drawing on their diverse 
backgrounds in the civilian technology sector.
    Currently, three Marines support U.S. Cyber Command IMA billets. 
Additionally, 24 mobilized Reservists support Marine Forces Cyber 
Command, and an additional 26 Reserve Marines drill in support of 
Marine Forces Cyber Command.
    Question. What cyber missions do you believe the Guard and Reserve 
are most well-suited to fill?
    Answer. Marines in the Communications military occupational 
specialties (MOSs) are active participants in the computer network 
defend (CND) mission area. However, no corresponding specialty exists 
within either the Communication or the Intelligence occupational fields 
that directly correspond with the cyber missions.
    Question. How is the Guard analyzing and (if applicable) planning 
to ensure geographic diversity in its units in order to have Guard 
assets aligned with critical infrastructure and technology hubs 
nationwide, as well as aligned with the best personnel pools in the 
civilian population in order to recruit talented cyber-warriors into 
the Guard and Reserve?
    Answer. Currently, Intelligence Support Battalion, which is 
resident across 27 detachments at 18 sites in 12 States, facilitates 
the affiliation of interested marines. It serves as the Reserve element 
best suited to support Cyber Command requests for support. To date, 
nearly 30 marines, possessing associated civilian jobs and unique skill 
sets, have been provided in support of U.S. and Marine Forces Cyber 
Commands.
                                 ______
                                 
              Questions Submitted by Senator Thad Cochran
    Question. In testimony, each of you expressed the need to maintain 
a level of investment that supports your component's ability to 
function as an Operational Reserve. Would each of you share with the 
committee how you plan to prioritize and to balance your component's 
resources to support your strategic and operational roles?
    Answer. Marine Forces Reserve's highest priority is readiness, and 
we will continue to invest the necessary resources to maintain our 
operational role and high state of readiness. Given that every 
reservist cannot be simultaneously activated and mobilized and that 
private sector occupations and families influence the regularity with 
which reservists are available to participate, we will continue to use 
Reserve drill time and annual training to maintain and improve 
readiness. We will use innovative training opportunities, maintain our 
equipment, and take full advantage of opportunities to develop our 
Marines, our sailors, and our units. We want to preserve as much 
readiness and combat expertise obtained over the past decade of combat 
operations.
    To support both our strategic and operational roles, Marine Forces 
Reserve, in concert with the Active Duty Marine Corps, develops a 5-
year training and readiness construct, which assigns units to future 
combatant commander, joint, and service requirements. Using this 
construct, force requirements are translated into resource requirements 
that inform budgetary development in future years.
    By balancing resources in order to maintain and improve readiness 
across the Force, Marine Forces Reserve is an augmentation, 
reinforcement, and sustainment insurance policy that provides a 
necessary shock absorber as requirements are assigned.
    Question. Would you please share with the committee how the Marine 
Corps' Force Structure Review will shape the Marine Corps Reserve? How 
will this impact your equipment readiness or planned rotation schedule?
    Answer. The 2010 Marine Corps Force Structure Review (FSR) is the 
culmination of a comprehensive effort to rebalance the war fighting 
capabilities of the Total Force in the face of an ever-changing and 
uncertain dynamic strategic landscape. Meeting the needs of the Marine 
Corps Total Force required significant changes in the Active component/
Reserve component (AC/RC) capability mix of our tactical war-fighting 
units. These service-wide adjustments will posture the Marine Corps 
Reserve to continue to be responsive, scalable, and relevant in the 
defense of our Nation.
    Last year, I assured this subcommittee that Marine Forces Reserve 
is wholly aligned to work with any personnel affected by the FSR to 
locate a suitable job opportunity following the restructuring. 
Accordingly, in July 2012, I directed the deployment of Personnel 
Transition Teams (PTTs) to targeted sites that were affected by the FSR 
in order to expedite the transition process and reduce the normal 
friction experienced with changing units or re-classification of a 
primary military occupational specialty. These integrated, cross-
organizational PTTs enabled us to keep faith with our Reservists by 
maximizing existing manpower through re-classification and reassignment 
while streamlining the approval process for lateral moves and re-
enlistments.
    Marine Forces Reserve was able to make these structural changes 
without any significant impact on equipment readiness or any changes to 
planned equipment rotation schedules. Any changes to equipment tables 
of allowances were resolved by internal distribution or through planned 
acquisitions identified in the current budgetary cycle.
                                 ______
                                 
               Question Submitted by Senator Daniel Coats
    Question. Have you considered Naval Support Activity Crane as a 
robust site in which the U.S. Marine Corps Reserve could reduce 
sustainment costs?
    Answer. The Marine Corps Reserve has units located at four sites in 
the State of Indiana: Terre Haute, Indianapolis, South Bend, and 
Grissom Air Reserve Base (ARB). Facilities at all four locations 
currently meet the needs of the units assigned there, and the area's 
demographics adequately support our recruiting and retention 
requirements. For these reasons, no requirement exists to seek 
additional facilities within the State. If requirements change, Naval 
Support Activity Crane, as well as all other Federal and State 
installations, would be considered as potential sites for relocation.
                                 ______
                                 
       Questions Submitted to Lieutenant General James F. Jackson
            Questions Submitted by Senator Richard J. Durbin
    Question. As budgets and Active Duty end strength both come down in 
the coming years, what capabilities and functions could be more cost-
effectively absorbed by the Guard and Reserves in the event the Nation 
needs them in a future conflict?
    Answer. One of the benefits of having the Reserve and Guard is that 
you can retain the investment costs incurred by personnel serving on 
Active Duty and temper it with the experience of people who have been 
doing the same mission year after year. Therefore, there should not be 
any mission that couldn't be done in the Reserve or Guard. 
Additionally, the Reserve has the majority of forces in a few missions, 
specifically Aerial Spray, Weather Reconnaissance, and Aeromedical 
Evacuation. As the National Military Strategy evolves, the Reserve 
stands ready and willing to accept additional missions from the Active 
Duty as well as any new emerging missions where the AF Reserve can 
contribute.
    Recent work by the Reserve Forces Policy Board (RFPB) on cost 
methodology, ``Eliminating Major Gaps in DOD Data on the Fully-Burdened 
and Life-Cycle Cost of Military Personnel: Cost Elements Should be 
Mandated by Policy'' helps us better understand true military manpower 
costs. Findings indicate the cost of an RC servicemember, when not 
activated, is less than one-third that of their AC counterpart. RFPB 
analysis of fiscal year 2013 budget request indicates RC per capita 
cost ranges from 22-33 percent of their AC counterparts' per capita 
costs, depending on which cost elements are included.
    When considering the ``life-cycle cost'' of an airman who begins in 
Active Duty and transitions to the Reserve component, it appears that 
any sustained mission set could be considered.
    The Reserve, constituted by Citizen Airmen, have a unique 
capability to ``carry-over'' their civilian skill set into their 
Reserve position, allowing the AF Reserve to leverage their civilian 
expertise, especially those in career fields that require constant 
refresher training or evolving skills in their industry, i.e. cyber, 
communications, medical, and ISR.
    Question. As we continue to withdraw forces from Afghanistan and 
draw down Active Duty end strength, will the Guard and Reserve be able 
to capitalize on excess Active Duty equipment or the massive investment 
in equipment procured over the last decade to train and equip forces 
for fighting the wars in Iraq and Afghanistan?
    Answer. The majority of equipment purchased for Iraq and 
Afghanistan was bought in support of the Army. However, the equipment 
purchased in support of the Air Force was bought due to assigned items 
being in disrepair. With the support of Congress, the Air Force Reserve 
continues to fund much of its equipment and modernization efforts with 
National Guard and Reserve Equipment Account funding. These efforts 
enable the Reserve to continue to be relevant in today's fight and 
provide combat-ready forces for the combatant commanders.
    Question. Outreach efforts such as the Yellow Ribbon Reintegration 
Program are particularly important for guardsmen and reservists and 
their families who are geographically dispersed across the country. How 
important and effective is this program for the Guard and Reserve? Are 
there areas where assistance is still lacking?
    Answer. The Yellow Ribbon Reintegration Program (YRRP) and 
Transition Assistance Program (TAP) are very important and effective 
for the Air Force Reserve. Reservists often do not have ready access to 
the same support network as the Active Component force. The challenges 
are significant and can include geographic isolation, disparate access 
to military family support groups, and unemployment for returning 
reservists. Having the ability to fund attendance of our dispersed 
members and their families or designated representatives at targeted 
events not only assists in family/social reintegration but serves as 
tremendous education as well. With the expected redeployment of a 
significant number or Reserve component servicemembers in fiscal year 
2014, the need for reintegration programs continue to be a high 
priority. In many respects, reunion and reintegration activities are 
just the beginning, as the medium and long term effects of the past 
decade's numerous deployments start to surface.
    The YRRP has an immediate and direct impact on morale, retention, 
and resilience. Still too many of our Reservists do not know or take 
advantage of the benefits they have for serving their country. 
Collaboration efforts with Sister Service Components to share lessons 
learned and capitalize on efficiencies are currently ongoing. This 
joint collaboration has led to Service Component YRRP events which have 
increased outreach efforts to members who were geographically dispersed 
across the country. Although the YRRP is in its fifth year of 
existence, issues regarding scheduling of events during UTA versus non-
UTA weekends, contract limitations, and funding still persist. 
Diminished overseas contingency operations funding may impact future 
years' activities as the Air Force Reserve attempts to incorporate 
program requirements into baseline budget.
    Question. Are family support programs fully funded in the fiscal 
year 2014 budget request? From your perspective, are there programs 
that could be improved?
    Answer. Our Warfighter and Family Service programs encompass both 
the Transition Assistance Program (TAP) and the Yellow Ribbon 
Reintegration program. For fiscal year 2014, the budget increased 
significantly to accommodate the TAP requirements of the VOW to Hire 
Heroes Act and Veterans' Employment Initiative. It's estimated that an 
additional $1.3 million may be required but as of now we are on track 
to execute as mandated.
    Currently, the Air Force Reserve has 10 stand-alone bases that have 
an airman and Family Readiness Center (A&FRC) but unlike Active Duty 
A&FRCs, the Air Force Reserve centers only have a staff of 1-2 people. 
In an effort to provide a more robust Airman and Family Readiness 
capability for supported populations at Guard and Reserve locations, 
the Air Force Reserve Command is conducting a manpower study of Force 
Support Squadrons and A&FRC to potentially increase manning. An 
increase in full-time manning may be required to meet increased 
expectations and to deliver a full spectrum of military family 
readiness support services. Reserve A&FRCs initially stood up as a 
response to Operation Desert Storm. Since then, Air Force Reserve 
operational requirements have significantly increased requiring an 
evolution of family support services. The manpower study is expected to 
be completed in fiscal year 2014.
    The YRRP has traditionally been funded through overseas contingency 
operations funds. Diminished overseas contingency operations funding 
may impact future years' activities as Air Force Reserve attempts to 
incorporate program requirements into baseline budget. The Air Force 
Reserve Command estimates that the fiscal year 2014 budget is close to 
what was requested and additional funds may still be submitted as 
unfunded requests if it is required.
    Question. U.S. Cyber Command is planning a significant expansion of 
its force structure, and the Guard and Reserve are well positioned for 
this buildup as some servicemembers already hold information technology 
positions in their private sector jobs.
    What role will the Guard and Reserve play in support of the build-
up in personnel at U.S. Cyber Command?
    Answer. The Air Force Reserve is investigating opportunities to 
program forces in support of U.S. Cyber Command. Over the last 3 years, 
the Air Force Reserve has programmed almost 300 new positions in 
support of emerging cyber requirements. The Air Force Reserve is 
extremely interested in investing additional manpower to support U.S. 
Cyber Command missions. However, due to budget constraints, an increase 
in Air Force Reserve manpower of approximately 300 more positions would 
be required in the near term in order to support additional cyber 
missions.
    Question. What cyber missions do you believe the Guard and Reserve 
are most well-suited to fill?
    Answer. The Air Force Reserve is currently working with Air Force 
Space Command as the Core Function Lead Integrator and force provider 
to match Reserve personnel with Air Force requirements. Currently the 
Air Force Reserve believes the missions of Cyberspace Vulnerability 
Assessment, Cyberspace ISR and Offensive Cyberspace Operations are well 
suited for the Air Force Reserve. These missions require a high level 
of experience that are best suited to Air Force Reserve's strengths of 
retaining highly skilled personnel, low turn-over as well as allowing 
members to leverage their civilian experience.
    Question. How is the Guard analyzing and (if applicable) planning 
to ensure geographic diversity in its units in order to have Guard 
assets aligned with critical infrastructure and technology hubs 
nationwide, as well as aligned with the best personnel pools in the 
civilian population in order to recruit talented cyber-warriors into 
the Guard and Reserve?
    Answer. While Cyberspace missions are an extremely good fit for the 
Air Force Reserve, in order to ensure success for Air Force Reserve 
Total Force Initiatives, new units must be thoroughly vetted. This 
process considers multiple factors including the ability to recruit 
required technical skills and available support and required 
infrastructure. It is important to highlight the title 10 authority 
that the Air Force Reserve is governed by. Being a title 10 force, the 
Air Force Reserve has a much easier time transferring across state 
lines as Citizen Airmen's civilian positions transfer within industry. 
Being a title 10 force provides much needed flexibility in enabling the 
Reserve to carry established specialty and well-trained personnel to 
new geographic locations.
                                 ______
                                 
               Question Submitted by Senator Thad Cochran
    Question. In testimony, each of you expressed the need to maintain 
a level of investment that supports your component's ability to 
function as an Operational Reserve. Would each of you share with the 
committee how you plan to prioritize and to balance your component's 
resources to support your strategic and operational roles?
    Answer. A level of investment that supports readiness is our number 
one priority. This level of investment is achieved via three avenues. 
One avenue is the use of NGREA (National Guard and Reserve Equipment 
Account) funding to address our modernization challenges. The second 
avenue is the Reserve Personnel Appropriation (RPA) authority to fund 
training in a post-OCO environment. The third and final avenue is O&M 
funding to support peacetime training operations including flying 
hours, depot maintenance, Unit Training Assembly lodging costs, and IT 
expenses just to name a few. The Air Force Reserve receives its 
modernization funding through two primary sources: The Air Force Budget 
and NGREA. Together, these sources ensure the viability of the 
Operational Reserve through funding capabilities like defensive 
systems, communications and data links, and precision engagement 
equipment. The mission of the Air Force Reserve is to provide mission 
capable forces when called upon, replenishing modernization, RPA, and 
key O&M readiness accounts to ensure the component can meet both its 
Operational Reserve and Strategic Reserve roles and is critical for 
sustainable success in the future.

                          SUBCOMMITTEE RECESS

    Senator Durbin. The Defense Subcommittee will reconvene on 
Wednesday, April 24 at 10 a.m., to receive testimony from the 
Navy and Marine Corps.
    And unless I hear Senator Leahy, and I don't, the 
subcommittee stands in recess.
    [Whereupon, at 10:23 a.m., Wednesday, April 17, 2013, the 
subcommittee was recessed, to reconvene subject to the call of 
the Chair.]

</pre></body></html>
